<html>
<title> - ECOSYSTEM-BASED FISHERY MANAGEMENT AND THE REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





  ECOSYSTEM-BASED FISHERY MANAGEMENT AND THE REAUTHORIZATION OF THE 
       MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 14, 2001

                               __________

                           Serial No. 107-38

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
73-085                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 14, 2001....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Underwood, Hon. Robert A., a Delegate in Congress from Guam..     2

Statement of Witnesses:
    Crowder, Dr. Larry B., Professor of Marine Biology, Duke 
      University Marine Laboratory...............................    39
        Prepared statement of....................................    41
    Fluharty, Dr. David L., Chairman, National Marine Fisheries 
      Service Ecosystems Principles Advisory Panel, University of 
      Washington.................................................    10
        Prepared statement of....................................    12
    Hinman, Ken, President, National Coalition for Marine 
      Conservation...............................................    51
        Prepared statement of....................................    53
    Hogarth, Dr. William T., Acting Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, U.S. 
      Department of Commerce.....................................     4
        Prepared statement of....................................     6
        Response to questions submitted for the record...........    78
    Livingston, Patricia A., Program Leader, Resource Ecology and 
      Ecosystem Modeling, Alaska Fisheries Science Center, 
      National Marine Fisheries Service, U.S. Department of 
      Commerce...................................................    29
        Prepared statement of....................................    30
    Murawski, Dr. Steven A., Chief Stock Assessment Scientist, 
      Northeast Fisheries Science Center, National Marine 
      Fisheries Service, U.S. Department of Commerce.............    16
        Prepared statement of....................................    18


 
   ECOSYSTEM-BASED FISHERY MANAGEMENT AND THE REAUTHORIZATION OF THE 
        MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT

                              ----------                              


                        Thursday, June 14, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:35 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest, [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The meeting will come to order. I want to 
welcome all of the witnesses here this morning. We look forward 
to your testimony to discuss a rather fascinating, sometimes 
mysterious issue that we are referring to as Fisheries' 
Ecosystem Plans, and are they possible? Do we have the 
technology? Can they or we put this into the Magnuson Act so 
that the councils will implement this policy, this scientific 
understanding? It is my perspective that one of the most 
important things we can do to save the fisheries in the 
Nation's oceans is to, as best as we can, continue to try to 
understand the complex dynamics of the mechanics of natural 
processes in all of their infinite, varied forms.
    And so I guess since E.O. Wilson, in his book 
``Consilience,'' said that we have a brain that is the most 
complex organism in the known universe, we are up to the task. 
So we have had a series of hearings on the Magnuson Act, and we 
will continue to do so that we understand all of the various 
aspects of that rather extraordinary piece of legislation, and 
we want to make sure that all parties are treated equally and 
fairly, whether it is nymphs or NOAA, the fish processors, the 
fishermen themselves, the scientists, everybody involved in 
this issue.
    So we will do everything we can to make sure that we 
collect the best data and that the best data and pieces of 
information that we have are disseminated to every interested 
party, even if that means holding not only workshops for 
scientists, but workshops for the fishermen to explain, for 
example, the process of a Fishery Ecosystem Plan. And one of 
the examples of that is agriculture. Nutrient management plan, 
best management practices all over the country, scientists and 
farmers almost routinely get together to discuss those issues, 
and so this is no less important.
    But welcome, all of you, and we look forward to your 
testimony.
    I yield now to the gentleman from Guam, Mr. Underwood.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne Gilchrest, Chairman, Subcommittee on 
              Fisheries Conservation, Wildlife and Oceans

    I would like to welcome our witnesses to the third of what I hope 
will be a number of hearings on the important topic of the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    This hearing will focus on the important issue of ecosystem-based 
management in fisheries. To further this discussion, Congress asked the 
National Marine Fisheries Service (NMFS) to establish an Ecosystem 
Principles Advisory Panel to assess the extent that ecosystem 
principles are currently used in fisheries management and research, and 
to recommend how such principles can be further implemented to improve 
our Nation's management of living marine resources.
    I think this report provided a good outline for incorporating 
ecosystem-based principles into federal fisheries management. While 
there is seemingly broad agreement on the need for ecosystem-based 
fisheries management, there may be debate on how best to implement such 
measures into existing fishery management plans and research programs. 
This debate is healthy and I hope that today's hearing will provide 
some examples of how ecosystem-based management is currently 
incorporated into fisheries management and provide suggestions for 
improving fisheries management through the use of ecosystem-based 
principles.
    I look forward to hearing from our witnesses.
                                 ______
                                 

   STATEMENT OF HONORABLE ROBERT A. UNDERWOOD, A DELEGATE TO 
              CONGRESS FROM THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Mr. Chairman, and thank you for 
pointing out that all of us have a brain.
    [Laughter.]
    Mr. Gilchrest. I was going to say something, but it would 
sound partisan, so I won't say it.
    [Laughter.]
    Mr. Underwood. We have bipartisan brains.
    Thank you, Mr. Chairman, I am pleased that you have raised 
the issue of ecosystems, and the ecosystem base management of 
natural resources. As we all know, everything in the ecosystem 
is mutually dependent on everything else, and it seems logical 
that we apply this concept to fisheries management. The 
question is whether we have the capability, and the knowledge, 
and the willpower to do so.
    Unfortunately, ecosystems are not that easily defined. It 
takes vast amounts of time and money to conduct accurate 
research of where boundaries are between ecosystems and how the 
living resources within them interact. Research is further 
complicated by some species that cross ecosystem boundaries, 
which may be great for them, but make things infinitely more 
difficult for us as we work to utilize these species in a 
sustainable manner.
    The true interconnectedness of ecosystems is only beginning 
to be researched. Over the past 30 years, when total allowable 
catch quotas have been set, only the impact of these catches on 
the stock itself were evaluated. We are now learning that 
catching fish not only affects the species being caught, but 
their predators and prey as well. We, as fishermen, can throw 
off the balance of an ecosystem even if fishing only one 
species.
    My own experience with ecosystems is predominantly through 
coral reefs. Coral reefs of the Pacific not only enhance the 
beauty of the region, but also add to the economy through 
tourism and fishing industries. For the good of all people 
dependent upon them, as well as for those who have yet to have 
the thrill of seeing them firsthand, we must manage the 
resources of the coral reefs and the reefs themselves in a 
sustainable manner. This includes the need to engage in 
sustainable development and exploration.
    The natural benefits of reefs may extend much further than 
ever expected into areas of pharmaceuticals and other research. 
And if we do not work to keep what now exists, how would we 
know what the future might find and hold for us. And current 
science leads to the conclusion that the best way to insure the 
future is through managing the ecosystem as a whole. We must 
learn about the relationship between fishes, between prey and 
predators, between the environment itself, and the living 
resources and our own impact on that environment.
    The ecosystem includes weather phenomena, tides and 
currents, and human impact such as pollution, runoff 
particularly affects coral reefs, as it does all ecosystems 
that are in the water. Only by furthering our understanding of 
these actions can we truly begin to utilize our resources in a 
sustainable manner.
    As we are constantly reminded by marine scientists, right 
now we know more about the moon than we do about our ocean. 
Finding future uses for what lies within them is much more than 
just a possibility, it is a near certainty. But as I mentioned 
above with coral reefs, we must act to conserve now because we 
might never know what we have missed if the ecosystems are 
altered irreparably before we can fully explore in a 
sustainable manner their potential.
    We will hear views today about the possibility of 
incorporating ecosystem management into a fisheries management 
regime. The witnesses before us will discuss how costly it may 
be, how long will it take for fisheries management councils and 
the National Marine Fishery Service to formulate plans of 
ecosystem management and how much research has been done and 
how much more is needed. If ecosystem management will improve 
the conservation and management of our resources, then it is 
incumbent upon us to address these issues head on.
    I want to thank the Chairman for holding this very 
important hearing.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Again, thank the witnesses for coming this morning. We look 
forward to your testimony.
    Dr. Hogarth, you may begin.

   STATEMENT OF WILLIAM T. HOGARTH, PH.D., ACTING ASSISTANT 
 ADMINISTRATOR FOR FISHERIES, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Hogarth. Thank you, Mr. Chairman and members of the 
Subcommittee. It is nice to be here today to talk about an 
extremely important issue for the future of fishery management. 
I am Bill Hogarth, the Acting Assistant Administrator for 
Fisheries for the National Oceanic and Atmospheric 
Administration.
    Landings of many marine fisheries worldwide have declined 
in recent years. The causes of these declines include 
overharvesting, habitat alteration and loss, pollution, and 
natural environmental change. Fisheries managers are 
increasingly required to address the potential direct and 
indirect impacts on fisheries from protected resources and 
other values and services the oceans provide.
    In addition, we are required to address the impacts of 
fisheries operations on protected resources such as sea turtles 
and marine mammals. Ecosystem-based management is one approach 
that will improve upon single-species management to ensure 
sustainability of fisheries and a healthy marine environment. 
Viewing fisheries in the ecosystem context, we can begin to 
understand how multiple factors affect fisheries and how our 
fishing activities affect the broader ecosystem.
    Implementing ecosystem-based management requires a more 
comprehensive understanding and approach to fisheries research 
than traditional single-species management approaches. The 
stock assessment models are limited only by our ability to 
collect and assimilate the relevant data. Successful 
implementation of ecosystem-based management requires 
considerations of such things as habitat requirements, 
hydrography, environmental and climate changes, predator-prey 
relationships, and physical and biological processes. It will 
also require adaptive management and a precautionary approach 
for recognizing the limits to our understanding of ecosystems.
    Information on human influences and impacts is as important 
as that for natural systems and must be included in any 
ecosystem research and management efforts. In particular, we 
need to more broadly implement economically and socially 
efficient management programs like the cooperatives in the 
Alaska factory trawling fleet or the Individual Fishing Quota 
(IFQ) system in the Pacific halibut sable fish fishery. These 
programs allow the industry to apply the appropriate level of 
capital investment and to make market-based allocations with 
unnecessary interference from the Federal Government.
    A reduction in capitalization will lessen the pressure to 
overfish, will reduce economic impacts, and will increase the 
safety of fishermen at sea. The complicated legislative and 
institutional framework that governs resource management 
decision-making poses a significant challenge for implementing 
ecosystem-based fisheries conservation and management.
    Although the Magnuson-Stevens Act is the principal 
legislation governing U.S. marine fisheries, other Federal 
laws, including the Marine Mammal Protection Act and the 
Endangered Species Act (ESA), as well as international 
agreements and state laws, provide for the conservation and 
management of marine resources. Coordination of these 
responsibilities, as well as the appropriate involvement of all 
stakeholders in the decision-making processes, is critical if 
we are to implement an ecosystem-based approach.
    Two recent reports, the National Research Council's (NRC) 
``Sustaining Marine Fisheries'' and NOAA's Fisheries' 
``Ecosystem-Based Fishery Management,'' provide some excellent 
insights and recommendations on ecosystem-based management, 
which are outlined in my written testimony.
    NOAA Fisheries applauds the panel's efforts to develop 
pragmatic suggestions to incorporate ecosystem approaches in 
the existing framework of the NOAA Fisheries Council system. 
NOAA Fisheries will be looking to these reports, and elsewhere, 
for ideas, as we continue to move toward ecosystem-based 
fishery management.
    NOAA Fisheries is also beginning to implement ecosystem-
oriented approaches to the management of a few living marine 
resources, including the Fisheries Ecosystem Plan being 
developed for the Chesapeake Bay, the Coral Reef Ecosystem 
Management Plan that is being developed by the Western Pacific 
Management Council, and the ecosystem-related provisions of all 
Fishery Management Plans (FMPs), particularly relating to 
essential fish habitat and ecosystem-based habitat restoration.
    Last July, the NOAA Chesapeake Bay Office convened a number 
of regional and national expert scientists and managers to 
build a framework and establish the guidelines of a Fishery 
Ecosystem Plan (FEP). Since then, the NOAA Chesapeake Bay 
Office and the interagency Chesapeake Bay Program have 
appointed a technical advisory panel of 16 prominent Bay 
scientists to guide the development of the FEP. The draft plan 
will include such important elements as ecosystem boundaries, a 
conceptual model of the food web, and indices of ecosystem 
health.
    Ecosystem effects of fishing and economic and social 
aspects also will be included. The draft is expected by the end 
of 2001, with a completed FEP by the spring of 2002. The FEP 
will undergo continual development, as understanding of the Bay 
ecosystem increases.
    Mr. Chairman, details of other ecosystem-based management 
plans that I mentioned are also included in my written 
testimony.
    Finally, I want to emphasize where we go from here. Based 
on good direction from the National Research Council's and the 
NOAA Fisheries, reports on the merits of an ecosystem approach 
to fisheries management, plus lessons learned from the 
Chesapeake Bay, the Bering Sea and the Northeast, I have asked 
my staff to host a national workshop this fall to develop the 
technical guidelines for marine ecosystem-based management. 
This workshop will lead to a better initial discussion and 
product as we pursue the ecosystem approach.
    As my testimony outlines, while we have a considerable way 
to go in conducting the types of research that would support 
true ecosystem management plans, some important steps have been 
made. I look forward to making additional progress in this 
area.
    Mr. Chairman, this concludes my testimony. However, Dr. 
Steve Murawski and Ms. Patricia Livingston, both of whom are 
well-known experts in the field, will provide a more detailed 
analysis of what NOAA Fisheries is doing in ecosystem 
management, as well as a more thorough discussion of the 
mechanism of this approach to fisheries management.
    Again, thank you for this opportunity, and we look forward 
to answering any questions you may have.
    Thanks.
    [The prepared statement of Dr. Hogarth follows:]

Statement of William T. Hogarth, Ph.D., Acting Assistant Administrator 
 for Fisheries, National Marine Fisheries Service, U.S. Department of 
                                Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to this hearing on ecosystem-based fishery management. I am 
William T. Hogarth, the Acting Assistant Administrator for Fisheries 
for the National Oceanic and Atmospheric Administration.
ECOSYSTEM-BASED FISHERY MANAGEMENT
    Landings of many marine fisheries worldwide have declined in recent 
years. The causes of these declines are complex and include 
overharvesting, habitat alteration and loss, pollution, and natural 
environmental change. At the same time, fisheries managers are 
increasingly called upon to address the potential direct and indirect 
impacts of fisheries on protected species and other values and services 
the ocean provides. Ecosystem-based management is one approach that is 
being developed to improve upon single species management to ensure 
sustainable fisheries and a healthy marine environment. By viewing 
fisheries in an ecosystem context, we can begin to understand how these 
multiple factors affect fisheries, and how our fishing activities 
affect the broader ecosystem.
    A basic premise of ecosystem-based management is that the 
relationships among living marine resources and the ecosystem within 
which they exist must be addressed. This requires a more comprehensive 
understanding and approach to fisheries research than is necessary for 
traditional single-species management approaches, although single-
species stock assessments have become increasingly sophisticated and 
some now incorporate environmental parameters. The stock assessment 
models are only limited by our ability to collect and assimilate the 
relevant environmental data. Successful implementation of ecosystem-
based management will require consideration of, among other things, 
habitat requirements, hydrography, environmental and climate changes, 
predator-prey relationships, and physical and biological processes. It 
will also require adaptive management and implementation that 
recognizes the current limits of our understanding of ecosystems.
    Humans, too, are part of the ecosystem. The interests, values, and 
motivations of participants in a fishery and others who use or benefit 
from the ocean must be understood and factored into fishery management 
decisions. Information on human influences and impacts is as important 
as that from natural systems and must be included in any ecosystem 
research and management effort. In particular, we need to more broadly 
implement economically and socially efficient management programs like 
the cooperatives in the Alaska factory trawling fleet or the individual 
fishing quota system in the Pacific halibut fishery. These programs 
allow the industry to apply the appropriate level of capital investment 
and to make market-based allocations without unnecessary interference 
from the federal government. A reduction in capitalization will reduce 
the pressure to over fish and its attendant economically disastrous 
side effects and increase the safety of fishermen at sea.
    In developing an ecosystem approach to research and management, it 
is important to recognize that a good deal is already known about 
marine ecosystems. Research into the oceans' role in climate 
variability has unlocked new understandings about how marine ecosystems 
function. However, this scientific information is not consistently 
applied in current management efforts, is insufficient data to 
construct the necessary models from which management frameworks can be 
derived. Therefore, emphasis must be placed on what new information is 
required and on how to effectively apply existing information. It must 
also be recognized that both science and management are ongoing 
processes and that new scientific, social, cultural, economic, and 
institutional information must be incorporated into the management 
process as it becomes available.
    The complicated legislative and institutional framework that 
currently governs resource management decision-making poses both a 
significant challenge to, and an opportunity for, the implementation of 
ecosystem-based fisheries conservation and management. Although the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act) is the principal legislation governing U.S. marine 
fisheries, other Federal legislation including the Marine Mammal 
Protection Act and the Endangered Species Act, as well as state laws 
and international agreements, provide for the conservation and 
management of marine resources. Coordination of these legislative and 
institutional responsibilities, as well as the appropriate involvement 
of all stakeholders in the decision making process, is currently 
conducted on a case-by-case and often ad hoc basis. Implementing an 
ecosystem-based management approach requires making this coordination 
far more integral and explicit.
Ecosystem-Based Management Reports
    Two recent reports addressed the use of ecosystem-based management 
in marine fisheries. The National Research Council published Sustaining 
Marine Fisheries and the National Marine Fisheries Service published 
Ecosystem-Based Fishery Management. I will briefly highlight the 
findings from both of these reports.
The National Research Council's Sustaining Marine Fisheries Report
    The National Research Council's Ocean Studies Board established the 
Committee on Ecosystem Management for Sustainable Marine Fisheries 
(Committee) to assess the current state of fisheries resources; to 
determine the basis for success and failure in marine fisheries; and to 
evaluate the implications of fishery activities for ecosystem structure 
and function. The Committee's findings are contained in its 1999 
Sustaining Marine Fisheries report. The Committee concluded that the 
most comprehensive and immediate ecosystem-based approach to rebuilding 
and sustaining fisheries and ecosystems is a significant overall 
reduction in fishing mortality. The Committee also recommended an 
ecosystem-based approach to fishery management that addresses overall 
fishing mortality. The Committee's specific recommendations were to use 
a conservative approach to single-species management; incorporate 
ecosystem considerations into management; deal with uncertainty; reduce 
excess capacity and use assignment of rights; use marine protected 
areas; reduce bycatch and discards; develop institutional structures; 
and get a better understanding of the structure and functioning of 
marine ecosystems.
The NOAA Fisheries Ecosystem Principles Advisory Panel Report
    An amendment to the Magnuson-Stevens Act in 1996 directed NOAA 
Fisheries to establish an Ecosystem Principles Advisory Panel (Panel) 
to provide expert guidance on how to incorporate an ecosystem approach 
in NOAA Fisheries' research, conservation and management activities.
    Composed of individuals with expertise in the structures, 
functions, and physical and biological characteristics of ecosystems, 
as well as representatives from the Fishery Management Councils, 
states, fishing industry and conservation organizations, the Panel 
produced a report that outlines basic principles, goals, and policies 
necessary to implement an ecosystem approach. It includes specific 
recommendations, including the adoption of Fishery Ecosystem Plans 
(FEP) for each ecosystem under the Regional Fishery Management 
Councils' (Council) areas of authority. The FEP is envisioned to be a 
document that serves as an umbrella under which individual Fishery 
Management Plans (FMPs) would be developed and with which they must be 
consistent. An FEP would contain information on the structure and 
function of the ecosystem in which fishing activities occur, so that 
managers can be aware of the effects that their decisions have on the 
ecosystem, and the effects other components of the ecosystem may have 
on fisheries. The adoption of this approach would help to ensure that 
individual FMPs do a better job of incorporating ecosystem 
considerations. The report concluded that the ultimate benefits of 
adopting ecosystem-based fishery management and research would be more 
sustainable fisheries and marine ecosystems, as well as more prosperous 
coastal communities.
    The Panel specified several steps that Councils should take to 
develop FEPs. These include: delineate the geographic extent of the 
ecosystems that occur within the Council's authority; develop a 
conceptual model of the food web; describe the habitat needs of the 
significant food web; calculate total removals, including incidental 
mortality; assess stock assessment uncertainty; develop indices of 
ecosystem health as targets for management; describe available long-
term monitoring data and how they are used; and assess elements of the 
ecosystem that most significantly affect fisheries. Taken together, 
these provide the information necessary for a Council to make fisheries 
decisions in an ecosystem context.
NOAA Fisheries' Response to the Reports
    Based, at least partially, on the Panel's report and on the NRC's 
report, ``Sustaining Marine Fisheries,'' the concept of ecosystem-based 
fishery management is gaining momentum. Taken as a whole, NOAA 
Fisheries applauds the Panel's effort to develop pragmatic suggestions 
to incorporate ecosystem approaches into the existing framework of the 
NOAA Fisheries/Council system. NOAA Fisheries is developing plans for a 
workshop to develop technical guidelines for implementation of the 
Panel's recommendations. NMFS will be looking to these reports and 
elsewhere for ideas as we continue to move toward ecosystem-based 
fisheries management.
    For example, NOAA Fisheries focused its National Stock Assessment 
Workshop last year on ecosystem based management. About 100 NMFS and 
academic scientists attended the workshop and evaluated where we are in 
developing ecosystem based management, and what research must be done. 
The research needs are broad and include economic analyses on the 
desirability of alternative ecosystem states; effects of changes in 
ocean conditions on species and the ecosystem; how fishing affects 
productivity; effects of discard of undersized or unwanted species on 
the target species and on energy flow in the ecosystem. They noted the 
importance of long-term, fishery independent ecosystem monitoring and 
research, and on observer programs for tracking ecosystem changes and 
building predictive models. Because there is much information needed, 
they noted the need for partnerships to collect and share data from 
comprehensive ecosystem monitoring programs. To have effective 
ecosystem based management, there is much we will need to learn and 
understand about ecosystems.
    NOAA Fisheries and the eight Councils have already begun 
investigating how ecosystem considerations can be incorporated into the 
existing fisheries management structure. Generally, the approach is to 
conduct detailed single-species assessments and embed them in an 
ecosystem context. In other words, consideration of ecosystem effects 
tends to be qualitative or semi-quantitative, rather than fully 
quantitative. Multi-species and ecosystem models are being developed in 
all NOAA Fisheries Science Centers and by a few academic institutions, 
but they are usually difficult to validate and frequently suffer from 
lack of adequate baseline biological and environmental data. Extensive 
monitoring programs for federally managed species, associated and 
dependent species, oceanographic data, habitat mapping, and climate 
effects are needed to completely fulfill the data requirements of 
ecosystem models.
    To address such needs and to implement the recommendations of the 
National Research Council report Improving Fish Stock Assessments, NOAA 
Fisheries is currently preparing a Stock Assessment Improvement Plan. 
The Stock Assessment Improvement Plan identifies three ``Tiers of 
Excellence.'' In brief, these Tiers are to enhance stock assessments 
using existing data, to elevate all assessments to nationally 
acceptable standards (which, among other things, will require adequate 
baseline monitoring for all managed species), and to develop and 
conduct ``next generation'' assessments involving ecosystem 
considerations and environmental and spatial effects. As part of the 
fiscal year 02 Budget Request, NOAA Fisheries has requested funding 
that will enable achievement of Tier 2, which includes adequate 
baseline monitoring of all managed species. When Tier 2 of the NOAA 
Fisheries Stock Assessment Improvement Plan is achieved, an important 
step towards ecosystem-based fisheries management will have been made. 
The next step will be to conduct the assessments needed to incorporate 
the baseline information into the decision making process for ecosystem 
and fishery management planning.
Examples of Ecosystem Approaches to Fishery Management
    Although fishery management based on an ecosystem approach is still 
a relatively new and evolving concept, NOAA Fisheries is beginning to 
implement ecosystem-oriented approaches to the management of a few 
living marine resources. Some examples of ecosystem-based approaches 
are: the FEP being developed for the Chesapeake Bay; the Coral Reef 
Ecosystem FMP being developed by the Western Pacific Council; the 
ecosystem-related provisions of all FMPs, particularly relating to 
essential fish habitat (EFH); and the ecosystem-based restoration 
planning that guides many of our habitat restoration projects.
Development of a Chesapeake Bay Fisheries Ecosystem Plan
    NOAA is a strong Chesapeake Bay Program (CBP) partner and is relied 
upon as an objective voice of science. The NOAA Chesapeake Bay Office 
(NCBO) is leading an exciting initiative to develop an FEP for the Bay 
that will result in gradual implementation of ecosystem-based fishery 
management. The Chesapeake Bay FEP will clearly describe the structure 
and function of the Bay ecosystem, including key habitats and species 
interactions. It will recommend actions to gradually implement 
ecosystem-based approaches to fisheries management for Bay resident and 
coastal species, and specific research needed to acquire knowledge of 
the ecosystem and its fisheries that will achieve long-range management 
objectives.
    In response to the Ecosystems Advisory Panel's recommendation to 
develop a demonstration FEP, and commitments in the Chesapeake 2000 
Agreement, the NCBO, together with the Program's Scientific and 
Technical Advisory Committee, convened regional and national experts, 
scientists, and managers to participate in the Chesapeake Bay FEP 
Workshop to build the framework and establish guidelines from which to 
develop an FEP for the Chesapeake Bay.
    As follow-up to the FEP Workshop, NCBO has appointed an FEP 
Technical Advisory Panel of sixteen prominent Bay scientists to: (1) 
develop an FEP for the Chesapeake Bay (with strong support from NCBO), 
(2) guide the implementation of ecosystem-based management of 
Chesapeake Bay fisheries, and (3) foster the continual development of 
the FEP to reflect expanded knowledge of the ecosystem.
    A draft of the initial FEP, which will include such important 
elements as ecosystem boundaries, a conceptual model of the food web, 
indices of ecosystem health, ecosystem effects on fishing, and economic 
and social aspects, is expected by the end of 2001, with a completed 
FEP by spring 2002. The FEP will be an iterative process; it will 
undergo continual development as understanding increases of the Bay 
fisheries within an ecosystem context.
Draft Coral Reef Ecosystem Fishery Management Plan
    The Western Pacific Fishery Management Council, with the assistance 
of NOAA Fisheries, is preparing a new Coral Reef Ecosystem Fishery 
Management Plan (CRE-FMP). Over 90% of coral reefs under U.S. 
jurisdiction are in the Pacific Ocean. However, the Council foresees a 
significant expansion of new fisheries for food, aquarium fishes, 
corals, and pharmaceuticals, especially given the increasing 
overfishing occurring in state waters. Addressing the potential 
ecosystem impacts of fisheries on protected species such as the 
Hawaiian monk seal is also an increasing concern. Key approaches that 
are being incorporated in the draft CRE-FMP are: including all reef 
species not currently covered by existing FMPs; using a precautionary 
approach based on a system of permits and reporting; incorporating 
zoning, which includes fully protected marine reserves as an integral 
component; prohibiting fishing gears known to damage coral reef 
habitats; and providing a framework for adaptive management. The 
Council hopes to finish work on the CRE-FMP in the near future.
Essential Fish Habitat
    The EFH provisions of the Magnuson-Stevens Act emphasize the 
importance of habitat in sustainable fisheries and the need to address 
unintended adverse effects of fishing activities on important habitats. 
The EFH provisions require every FMP to identify and describe EFH, 
minimize to the extent practicable the adverse effects of fishing on 
EFH, and identify other actions to encourage the conservation and 
enhancement of EFH.
    NOAA Fisheries and the Councils have identified EFH for all 41 
existing FMPs. The EFH designations take an ecosystem approach, 
consistent with the definition of EFH in the Magnuson-Stevens Act, by 
encompassing habitats needed throughout the full life cycle of managed 
species. Thus EFH designations include important habitat areas for all 
life stages of fish and not just the spawning grounds or the areas 
where adult fish are found in high densities. To provide additional 
focus for conservation and management, NOAA Fisheries encourages 
Councils to identify Habitat Areas of Particular Concern (HAPCs) within 
EFH to highlight priority areas that have especially important 
ecological functions, and/or areas that are particularly vulnerable to 
degradation. Importantly, the Councils are beginning to use EFH and 
HAPC information in fishery management decisions. For example, when the 
New England Council voted to reopen closed areas on Georges Bank to 
scallop harvesting, the Council specifically decided to exclude an HAPC 
for juvenile cod as well as other hard bottom habitats that are 
susceptible to impacts from scallop dredging. Likewise, the North 
Pacific Council last year approved a measure to prohibit directed 
fishing for corals and sponges because it recognized that those living 
substrates provide essential habitat for a variety of fishery 
resources. These types of ecosystem considerations are becoming 
increasingly important to the sustainable management of our nation's 
fishery resources.
Habitat Restoration Planning
    NOAA Fisheries is also applying ecosystem principles to our habitat 
restoration planning. Through the NOAA Restoration Center, we work with 
other agencies, industries, and interest groups to develop regional 
restoration plans at the spatial scale of a watershed or larger 
ecological unit. We are using regional restoration plans to restore 
important coastal and anadromous fish habitats in Washington State, New 
York, and Florida. These bay-wide approaches address habitat 
restoration needs in a comprehensive and systematic fashion, 
prioritizing and linking individual projects to increase the 
effectiveness and efficiency of restoration activities.
SUMMARY
    The need for a much more comprehensive understanding of living 
marine resources and the ecosystems that support them is clear. While 
we have a considerable way to go in conducting the types of research 
and implementing integrated and adaptive decision making processes that 
would support true ecosystem management plans, some important steps 
have been made. I look forward to continuing to work with the House 
Resources Committee and a wide range of stakeholders to make additional 
progress in this area.
CONCLUSION
    Mr. Chairman, this concludes my testimony. With me on the panel 
today are two of NMFS's finest scientists, Dr. Patricia Livingston and 
Dr. Steve Murawski. Dr. Livingston is the leader of our fishery 
ecosystem research in the Bering Sea and Gulf of Alaska. Dr. Murawski 
is our chief stock assessment scientist for our northeastern fisheries. 
They will each give you a synopsis on the state of our ecosystem 
knowledge and research in their respective geographic areas. Again, I 
want to thank you for the opportunity to testify today and discuss 
ecosystem management. I am prepared to respond to any questions that 
you and other Members of the Committee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    Dr. Fluharty, welcome.

   STATEMENT OF DAVID L. FLUHARTY, PH.D., CHAIRMAN, NATIONAL 
MARINE FISHERIES SERVICE ECOSYSTEMS PRINCIPLES ADVISORY PANEL, 
                    UNIVERSITY OF WASHINGTON

    Dr. Fluharty. Thank you, sir. Mr. Chairman, members of the 
Subcommittee, I am Dave Fluharty, associate professor, School 
of Marine Affairs, University of Washington, also a member of 
the North Pacific Fishery Management Council.
    I have prepared three topics that I think may be of 
interest. I had the distinct honor to chair the panel that 
developed the Ecosystem Based Fisheries report for you in 
Congress, and I am very pleased to have an opportunity to be 
here to discuss it with you; secondly, I wanted to touch on 
some of the implementation difficulties that we are 
experiencing and are likely to experience, as we move ahead 
with developing Fisheries Ecosystem Plans; and, finally, I 
would like to touch on some of the recommendations of where to 
go from here.
    The Ecosystem Principles Panel deliberately chose the term 
``ecosystem-based fishery management,'' as opposed to 
``ecosystem management,'' because we felt that that was 
something that we could actually get our hands around, that we 
didn't have to let the perfect be the enemy of the good, in 
terms of our understanding of the scientific basis and social 
basis for developing Fisheries Ecosystem Plans. We felt that 
ecosystem-based management, where we actually used the 
knowledge that we do have at the present time, is a way to get 
moving much more quickly than waiting until we have finished 
everything up. We, of course, acknowledged that there are many 
difficulties, many holes that we need to fill in with research.
    Secondly, and very importantly, ecosystem-based fishery 
management does not substitute for good fishery management. We 
need good fishery management measures such as have been 
developed and are being implemented under the Sustainable 
Fisheries Act to actually make progress to go beyond single 
species approaches and into a more ecosystem-based approach. So 
it is an absolute prerequisite to have full implementation of 
the Sustainable Fisheries Act.
    Our goal as a panel was not to produce another report that 
would land up on the shelf and get dusty. We wanted this one to 
get wet, to get in the water, and to make pragmatic 
recommendations that could be put into effect immediately, and 
we think that the Fisheries Ecosystem Plan is one of those 
measures.
    Our goal of sustaining ecosystem health is a shorthand way 
of basically expressing a desire for an improved state of the 
environment compared with today. We didn't define it, as you 
probably have seen, in any great detail, but we did try to make 
it very clear that the goal is important. It is one that 
fishing interests and environmental interests can attach to and 
find a great deal of meaning in.
    The Fisheries Ecosystem Plan that we propose is a way of 
starting to move regional fishery management councils, through 
existing institutions and processes, into consideration of 
ecosystem-based management, and I think will let Dr. 
Livingston's testimony explain how that is being done in the 
context of the North Pacific Council.
    While it should be possible to institute ecosystem-based 
management in the United States without additional legislation, 
the fact is it sometimes is necessary, one, to make clear the 
intent of Congress; two, to develop enforceable pathway to 
implementation; and, three, to provide a vehicle for funding 
and oversight.
    The biggest impediment that we see right now in terms of 
the development of a Fisheries Ecosystem Plan is the backlog of 
compliance with some of the basic environmental and 
administrative laws, as well as with the Sustainable Fisheries 
Act. I observe, and I think many people would also agree with 
me, that the Agency is working flat out. It is overtaxed, and I 
don't know quite how we get around this, but it has been given 
a lot of major tasks and has had relatively level funding. And 
this combination has made us very vulnerable to not doing the 
job that we do. I am speaking of this as a council member right 
now, watching in the North Pacific just how difficult it is to 
get Essential Fish Habitat in places, to comply fully with the 
National Environmental Policy Act, and with developing all of 
the measures that we need to, to properly manage the fisheries.
    This is really something that it is hard to expect the 
Agency to do more, in my opinion, if we don't provide it with 
adequate resources, and that is definitely a concern when it 
comes to the issue of whether or not to add or how to add the 
Fisheries Ecosystem Plan.
    In conclusion, I would say that I very much support the 
recommendation of Mr. Gilchrest and Dr. Hogarth to have more 
workshops, not only for the fishing industry, but for the 
council members and others with interest in fisheries 
management. All of us need to come to a better understanding of 
how ecosystem-based fishery management works. We are 
transitioning from a basically flawed system into one that will 
help us manage fisheries much better, and it is going to take 
some time, it is going to take resources, and it is going to 
take a lot of education.
    The most critical step I think right now is for Congress to 
understand, and that is what I understand is the purpose of 
this hearing, the need to move forward with developing 
ecosystem-based fisheries management. A good coach know what a 
team needs to motivate it and to fuel its performance, and a 
coach also recognizes when it is necessary to raise the bar 
higher, to challenge, but not discourage the team.
    Thank you, sir.
    [The prepared statement of Dr. Fluharty follows:]

  Statement of David Fluharty, Associate Professor, School of Marine 
                   Affairs, University of Washington

    Thank you for the opportunity to testify on ecosystem-based fishery 
management and Reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSFCMA). I am David Fluharty, 
Associate Professor, School of Marine Affairs, University of Washington 
and voting-member since 1994 of the North Pacific Fishery Management 
Council (NPFMC). I had the distinct privilege to serve as the Chair of 
the Ecosystem Principles Advisory Panel developing the report to 
Congress, Ecosystem-Based Fishery Management. Most recently, I was a 
member of the study committee of the National Research Council that 
produced the report, Marine Protected Areas: Tools for Sustaining Ocean 
Ecosystems. This combination of academic orientation and practical, 
direct involvement in fisheries management gives me a unique 
perspective to offer this Committee. The NPFMC has subvened my travel 
costs to this Hearing. However, the views I express are my own. While 
many of my views are informed by my work in the North Pacific area, I 
think there are similar issues and opportunities in the context of 
other regional fisheries management councils.
    I have prepared a series of talking points that touch on three main 
topics in response to your invitation to address the benefits and 
difficulties of developing and implementing ecosystem-based fishery 
management plans. First, I review some of the intent and rationale of 
the Ecosystem Principles Advisory Panel. Next, I discuss status of 
implementation of ecosystem-based fishery management with a focus on 
impediments to achieving that goal. Third, I will make observations 
about the steps and time frame needed for transition to ecosystem-based 
fishery management.
    The basic theme of this testimony is how to make the ``E'' word 
stand for Excellence in fishery management and Excellence in care for 
the environment. Ecosystem-``anything'' tends to scare the fishing 
industry. Similarly, ecosystem-``anything'' tends to give false comfort 
to the environmental community. I believe it is time that we translate 
ecosystem-based management from an abstract concept into practical 
management measures. In so doing, I detect that is a very important 
need to recognize a common goal, i.e., to maintain ecosystem health and 
sustainability. A healthy ecosystem is good for fisheries and good for 
the environment.
    I regard the benefits to be derived from ecosystem-based fishery 
management to be a perpetual, but limited, supply of fish for 
commercial and recreational use and an ecosystem that sustains 
biodiversity and habitats as well as other non-monetary conceptions of 
the environment. In the most simplistic sense, a conservative yield of 
fish from a healthy ecosystem is most likely greater than the yields 
currently extracted from stressed and overfished ecosystems. Even 
within the natural variability of ecosystem regimes there is greater 
resilience to effects of fishing and other uses under healthy versus 
stressed ecosystems. It is my view that experience over the last 25 
years under the MSFCMA in fisheries off Alaska demonstrates this point, 
however, fishery management there is still working hard to more fully 
incorporate ecosystem concerns [Attachment]. What achieves success in 
fishery management in terms of sustained yield may still have effects 
on other ecosystem components. Fishery management is increasingly being 
called to address these other interactions. I am convinced that the 
current fishery management institutions if given the right kinds of 
legislative mandates, incentives and support can make the transition to 
sustainable fisheries in an ecosystem context.
Ecosystem-Based Fisheries
    The previous speaker summarized very well the Ecosystem Principles 
Advisory Panel report. Some background on the Panel deliberations and 
intent may be useful to add. The Panel consciously chose to use the 
term ``ecosystem-based'' fishery management instead of ``ecosystem 
management.'' To us, ecosystem-based'' fishery management means using 
what is known about the ecosystem in the management of fisheries. 
Ecosystem management is much broader in scope and less defined in terms 
of management--especially for the marine environment. Using what is 
known about the ecosystem is a main component of scientific fishery 
management. The Panel is very aware of the inadequacies of fisheries 
and ecosystem data. We advise that precautionary policies be adopted 
where there is high uncertainty. What we are calling attention to is 
the failure to use what we know about ecosystems and the way they 
function. Overfishing is a ``no-brainer'' as far as ecosystems are 
concerned. At the same time fisheries managers, using fisheries 
dependent and independent data, do have a good understanding of how the 
fisheries work in an ecosystem context. Thus, ecosystem-based fishery 
management is using ecological knowledge to advise the policies under 
data limited conditions. Clearly, the Panel advises to avoid making 
perfect knowledge of the ecosystem the enemy of using the good 
knowledge we have.
    A second precept of the Panel was that ecosystem-based fishery 
management is not a substitute for full implementation of the fishery 
management requirements under the MSFCMA and especially the amendments 
in the Sustainable Fisheries Act of 1996. The SFA challenges fisheries 
managers to end overfishing, rebuild overfished stocks, address 
Essential Fish Habitat and fishing effects, account for and reduce 
bycatch, etc. If these basic fishery management functions are not 
carried out, there is no hope for an ecosystem-based approach being 
implemented. Ecosystem-based fishery management is not a panacea and it 
has prerequisites.
    Third, the Panel's goal was to make pragmatic recommendations that 
could be put into effect immediately without additional legislation and 
within the existing framework of fishery management councils.
    Fourth, the Panel's goal of sustaining ecosystem health is a 
shorthand way of describing a more desired state than the current one 
in most marine ecosystems in the United States. At a minimum, the 
benefits of a healthy ecosystem in terms of fisheries are modest but 
continuous yields from abundant fish stocks instead of low yields from 
overfished stocks. Managing to maintain abundance of fish means stocks 
have greater resilience to all forms of stress.
    Fifth, while much of the emphasis on ecosystems relates to 
biological and social processes, the socio-economic and institutional 
dimensions of fisheries management are, in some, respects more 
important especially with regard to managing human activities, like 
fisheries. Without the right kinds of incentives to conserve, fishing 
interests tend to ratchet up levels of fishing to compete with each 
other and this results in a downward spiral of fish stocks and 
eventually overfishing. Much discussion has been focused on the 
combined economic and political pressures to overfish under current 
management. The Panel observes that with political support, the 
necessary measures to start ecosystem-based management are largely 
economic and social dealing with allocating fishing rights and 
responsibilities. The Panel recommendation is very broad in this 
respect ``to make local incentives compatible with global goals''. We 
did not emphasize this as much as we might given the other charge given 
to the National Research Council under the SFA to investigate this 
component of fishery management [See NRC 1998, Sharing the Fish ; OECD 
2001, Sustaining Marine Fisheries]. Transition to healthy ecosystems 
demands making tough decisions, having adequate funding and people 
committed to making the system work. The strategy for implementing 
ecosystem-based fishery management depends heavily on economic and 
social as well as ecological understanding to inform the choice of 
measures
    Finally, the Panel's basic recommendation is the development of 
Fishery Ecosystem Plans [FEP] for each of the US ecosystems under 
fishery management. These FEPs provide directions for management into 
which the regular Fishery Management Plans could be assessed. The 
reason why the Panel did not choose to utilize the FMP process is 
because the FEP must look more broadly at ecosystem trends and the 
linkages between fisheries and the ecosystems. Cumulative effects of 
fishing for all species must be considered to the best of our knowledge 
while FMPs focus on species or groupings of like species..
    While it should be possible to institute ecosystem-based management 
in the United States without additional legislation, the fact is that 
it is sometimes necessary 1) to make clear the intent of Congress, 2) 
to develop an enforceable pathway to implementation and 3) to provide a 
vehicle for funding and oversight.
Impediments to Implementing Ecosystem-Based Fishery Management
    While there are scientific and other questions about how to move 
forward with ecosystem-based fishery management, I believe the largest 
set of issues concerns the backlog of implementation of basic 
environmental and administrative measures as well as the MSFCMA 
measures. How much additional work can be expected from an agency that 
is, in my view, overtaxed? Further, I believe there is confusion about 
the management goal for fisheries and ecosystems that needs resolution 
or, at least, additional direction. I will focus on the situation with 
which I am most familiar, the NPFMC region but I think that much of 
what I note can apply or soon will apply to other regions.
    Repeated law suits have demonstrated that the National 
Environmental Policy Act [developing of PEIS, SEIS] is not fully 
implemented in the current fishery management context in both its 
procedural and substantive aspects. NMFS is making compliance a top 
priority based on the statements of its leadership. This is a major 
task and one that in many cases is overdue. In the North Pacific 
Fishery Management Council we are literally wrestling with a 3,400 page 
document weighing in at 27.5 pounds Draft Programmatic Supplemental 
Environmental Impact Statement for the Bering Sea/Aleutian Islands and 
Gulf of Alaska Groundfish. This is the second update from the first 
document prepared in 1978 and redone in 1988 although Environmental 
Assessments of discrete management actions like annual setting of TACs 
and amending the management plans were done. Full Programmatic EIS work 
had not been done.
    This effort, being done under court order has produced this a 
tremendous reference document on the fisheries in this region and their 
management. The process which produced it and will lead to decisions on 
policies will help us move further toward ecosystem-based fishery 
management. Why did it take a legal challenge to push us into doing 
this review? I would argue that it has mostly to do with two factors. 
First, the perception that Council/NMFS NEPA was compliant given its 
string of EAs and high reliance on scientific analysis and advice in 
the management process. Second, given the enormous work load on Council 
and NMFS staffs it seemed a luxury we could ill-afford in terms of 
staff tasking. Development of full programmatic review of the 
groundfish fisheries is at least a 3-year process involving nearly 
every staff member of NPFMC, NMFS Regional offices and Science Centers, 
Consultants, staff from the States of Alaska and Washington and we hope 
that it will pass muster. Why, because, I believe, this same 
undertaking will be expected for every major fishery in the United 
States--as soon as possible. This is reality. While dealing with this 
major effort, nothing was taken off of the Council/NMFS plate and more 
was added.
    A second package of issues is very actively raised by Endangered 
Species Act and Marine Mammal Protection Act challenges with respect to 
Steller sea lions. I will not dwell on this issue as it is very complex 
and controversial but I will say that efforts to deal with findings of 
jeopardy in three fisheries has required a huge amount of effort in the 
development of Reasonable and Prudent Alternatives. This process also 
requires the completion of a NEPA EIS to precede final decisions. 
Again, not an easy set of responsibilities under other circumstances. 
This illustrates the point that conservative scientifically based 
fisheries management may not take into account the broader ecosystem 
issues that would be done in an ecosystem-based approach. Also, not 
having the NEPA Programmatic EIS from which to tier off, makes it 
difficult and somewhat redundant to perform a separate analysis 
simultaneously
    Again, with a focus on the NPFMC at the same time we were ramping 
up on the NEPA compliance issues, SFA was passed with its many 
requirements to upgrade fishery management. Implementation of Essential 
Fish Habitat provisions is a major stretch for the agency and for the 
NPFMC in particular. Even before the formal regulations were approved 
the Council and NMFS started to devote a large amount of effort to 
identifying EFH and amending all FMPs to take it into account. The 
initial focus was on getting the first part of the requirements done. I 
know that finishing the first part was seen as a major accomplishment 
by the NPFMC. We felt our record with respect to setting up no trawl 
habitat areas for red king crab in the Bering Sea [30,000 square 
nautical miles, which is considered twice the area of Georges Bank 
NPFMC Draft PSEIS 2001] and no trawl zones in the Southeast Gulf of 
Alaska [45,000 square nautical miles], plus requirements to use pelagic 
trawls, and an FMP banning fisheries on forage fish was a good start. 
We planned [and are] building further under the EFH provisions 
concerning Habitat Areas of Particular Concern. However, as was quickly 
pointed out in litigation, the fishing effects identification and 
mitigation components of EFH were performed inadequately. Now we are 
engaged in a major scoping process and NEPA process for actions to 
further define and mitigate fishing effects.
    The foregoing EFH discussion raises a very important point where 
policy direction is needed. The EFH and HAPC mechanisms can move the 
development of Marine Protected Areas ahead in the fishery management 
process. I am aware that new protective measures have been developed 
with regional fishery management council involvement in the Florida 
Keys National Marine Sanctuary [Dry Tortugas] and are under way in 
Channel Island National Marine Sanctuary. Further, the State of 
California has a major initiative to establish a network of marine 
protected areas in State waters. More and more interest is being 
expressed in the use of MPAs in fisheries management [NRC 2001 Marine 
Protected Areas: A Tool for Sustaining Marine Ecosystems]. Time and 
area closures and gear restrictions have long been part of fishery 
management and many measures taken have been significant. These types 
of areas are familiar to fishing interests and are one of the many 
types of MPAs recognized by the IUCN and in the MPA Executive Order of 
May 25, 2001. However, there is a large amount of pressure to discount 
any MPA that is not a ``fully-protected'', i.e., ``no-take'' zone in 
terms of fisheries. Clarifying the role of NMFS in developing MPA 
measures under the EFH/HAPC process could be very beneficial.
    Response to the SFA requirements to halt overfishing and to develop 
rebuilding plans is another key provision but one that takes time and 
resources to accomplish. Fortunately none of the groundfish stocks in 
the NPFMC area are overfished under the SFA definition [one crab 
species meets the overfishing definition and is so declared, despite 
scientific questions about the applicability of the definition to 
invertebrate stocks]. Formal procedures necessitate a couple of years 
to develop regulations, get regulations approved, develop rebuilding 
plans, get them approved and implemented. Then it takes time for the 
fisheries to respond. Most groundfish species require 3-10 years before 
results can be observed in the fisheries and, in some cases, much more 
time than that is necessary due to the life histories of the fish. In 
addition, favorable or unfavorable environmental conditions can 
accelerate or depress rate of recovery even without fishing taking 
place.
    Implementing the full force of the MSFCMA has proved problematic 
and the experience from SFA amendments should be instructive as we 
contemplate the more integrative step of ecosystem-based fishery 
management. This litany of just some of the environmental, 
administrative and MSFCMA issues before councils and NMFS is provided 
to illustrate the daunting realities facing fisheries managers [e.g., 
bycatch, observer programs, Vessel Monitoring Systems, etc. See Council 
Chair's Report on MSFCMA Reauthorization, June 2001]. More importantly 
for the standpoint of this hearing, it shows how many of the actions 
are building the information base and understanding that is needed to 
take the next steps toward ecosystem-based fisheries management. And 
they point to how ecosystem-based fisheries management could be useful 
in providing a strategic focus for what right now seems like a series 
of disparate actions.
Steps to Ecosystem-Based Management
    The United States is a leader in the development of theoretical and 
empirical studies of fisheries ecosystems. I would venture to say that 
we have more ecologically trained fisheries managers than any other 
nation. Does that translate into full use of what we know? 
Unfortunately, it does not. What we found in the Panel is there are 
very good examples of use of ecosystem knowledge but the application is 
inconsistent.
    The Fishery Ecosystem Plan is a logical extension of fishery 
management under the regional council process. The Panel has provided a 
sketch of what we believe to be key elements of how such a FEP could be 
constructed and put into use. We anticipate that, as with any new 
approach, it makes sense to phase-in the FEP concept by a process that 
allows experimentation and innovation at the regional level. The NPFMC 
Ecosystem Chapter, a part of the annual stock assessment and fishery 
evaluation documentation is an important example of what could be done. 
Ideally, Congress could encourage the further development and 
implementation of this concept. However, it is important to keep in 
mind that the success of ecosystem-based fishery management is 
contingent upon substantially complete implementation of the 
Sustainable Fisheries Act of 1996 an other environmental and 
administrative mandates. Fortunately, full implementation of these laws 
provides the building blocks for ecosystem-based fishery management.
    Adequate funding is critical for success. I do not know much about 
budgetary processes or allocations. I can observe that before SFA in 
1996 I felt the agency was already overtaxed in terms of work. SFA 
added a number of additional tasks and some modest increases in 
funding, which, due to budgetary cycles was not in agency hands until a 
significant amount of time had passed. In addition, since 1996, the 
urgency to deal with the backlog of NEPA compliance has become more 
acute. Please understand. This is not a whine. I understand and support 
the full implementation of federal laws and I believe that the fishery 
management system is equally committed, but frankly, NMFS, the 
Councils, the fishing industry and environmental advocacy groups are 
swamped with efforts to rapidly respond to the backlog and the new 
responsibilities.
    One discreet measure that would give Councils and NMFS more control 
over things that go on in the ecosystem would be to do as a few states 
have done and preclude new fisheries for species not under an FMP. 
Councils and NMFS could open these areas under experimental fishing 
permits or similar regulations with reporting and other controls that 
would identify the benefits and costs [ecological and economic] and 
would avoid rapid swings of effort into such fisheries
    Another set of measures that needs to be considered as well are 
those that focus on the human dimensions of fisheries and the need to 
develop the right kinds of incentives for support for ecosystem-based 
management. This is being dealt with in other legislative proposals, 
e.g., the IFQ proposal of Senator Snowe and Sen. McCain. Suffice it to 
say that the Ecosystem Principles Advisory Panel strongly urges the 
interrelationships to be recognized.
    The most critical step is for Congress to understand what is needed 
to move all of us forward who are involved in developing ecosystem-
based fishery management--forward as a team. A good coach knows what 
the team needs to motivate it and fuel its best performance. Above all, 
a coach recognizes when it is necessary to raise the bar higher to 
challenge but not discourage the team.
    Raising the bar. Congress needs to keep the pressure on fisheries 
management reform and to be a great coach for the ecosystem-based 
fishery management team. With time, financial support and legislative 
incentives, I believe US fisheries are already turning the corner and 
we will have healthy and sustainable marine ecosystems from which all 
of the natural service benefits can be supplied. Already there are 
signs of progress but it takes a lot of pressure, consistently applied, 
over substantial time to turn a large ship.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Fluharty.
    Dr. Murawski?

  STATEMENT OF STEVEN A. MURAWSKI, PH.D., NORTHEAST FISHERIES 
       SCIENCE CENTER, NATIONAL MARINE FISHERIES SERVICE

    Dr. Murawski. Good morning, Mr. Chairman
    Mr. Gilchrest. Good morning.
    Dr. Murawski. Thank you very much for the opportunity to 
testify before the Committee. My name is Steven Murawski, and I 
am the chief stock assessment scientist for the National Marine 
Fisheries Service in the Northeast Region. Today, I would like 
to discuss with you and share some insights about the role of 
ecosystem-based management and what it can, and perhaps has 
done in the past, specifically related to the Northeast Region.
    The Northeast shelf ecosystem supports about four dozen 
important species that contribute to the fisheries. These 
include species groups such as New England groundfish, summer 
flounder, sea scallops, monkfish, surfclam, ocean quahog, and a 
variety of other species. These species occur in perhaps one of 
the most well-studied ecosystems in the world. We have the 
benefit of a very long-time series of fishery monitoring data 
that has collected information about the abundance of fish 
species across the board for nearly four decades. As well, we 
have significant programs that Congress has funded in GLOBEC 
and NOAA's Coastal Ocean Program that have generated 
information on how various species interact between themselves 
and also with the environment.
    One of the most compelling issues relating to these four 
dozen species is that almost all of them have undergone bouts 
of serious decline and overfishing in the last two to three 
decades and one would ask the question whether the lack of an 
ecosystem approach has contributed to that. Generally speaking, 
it is well-understood now that had fishery managers followed 
prescriptive advice for single-species management, we probably 
wouldn't be in the circumstances we are. Nevertheless, there is 
a very compelling reason for us to go to some form of 
ecosystem-based management for this system, and there is a lot 
of things that are contributed by the development of Fishery 
Ecosystem Plans that we simply can't get out of the current 
system.
    There seems to be a general consensus forming around four 
basic questions that we, as fishery scientists and managers, 
have as it relates to the potential contributions of an 
ecosystem basis rather than simply doing more single-species 
work. The first of these is what might be accomplished by 
developing criteria for defining ecosystem overfishing and what 
could we get in addition to effective single-species 
management?
    Secondly, are single-species recovery strategies possible 
or desirable for complex ecosystems? Can we really restore the 
fishery biomass and yield potential on a species-by-species 
basis, given the limits of ecosystems.
    The third question we have is can fisheries research 
provide a quantitative basis for defining ecosystem 
overfishing, as opposed to single-species overfishing, and what 
are the standards by which we could measure ecosystem 
overfishing, and this is a challenge for us as scientists.
    And, fourth, what are the additional monitoring and 
research needs that would be necessary to support an ecosystem 
basis for fisheries management?
    To the first question, what might be accomplished, we 
really see four major things that can be accomplished in a 
Fishery Ecosystem Plan, as opposed to the single-species and 
species group approach. First of all, we can take a better look 
at predator-prey relationships. The way that Fishery Management 
Plans are done in New England and the Mid-Atlantic, they tend 
to focus around groups of interrelated species that are caught 
together, and that leaves predator-prey relationships and the 
tradeoffs between predators and prey in the margins. A Fishery 
Ecosystem Plan could certainly help there.
    Secondly, bycatch management. We have numerous examples 
where we have target species that are managed in one FMP that 
generate bycatch interactions that are regulated in another 
FMP, and that is not well-done.
    A third issue that we could address in this context is the 
issue of comprehensive effort control. We have seen effort 
regulated, for example, in New England groundfish and scallops, 
with the excess effort being pushed off to different fisheries 
to create other problems. A comprehensive approach is certainly 
necessary.
    And last, the inclusion of accounting for impacts of mobile 
fishing gear is certainly important to issues of habitat 
research, and that is not well-covered in the current 
management approach.
    To the second question, single-species recovery strategies, 
we certainly need to look more deeply at issues related to the 
possibility to have BMSY and MSY values for all individual 
species and is the whole less than the sum of its parts, which 
is an important question.
    Now, as far as canned fishery science, provide us new 
insights, on a quantitative basis, for ecosystem overfishing 
definition. This is an area of current active research. There 
are a whole host of things like species diversity indices that 
have only started to be applied to these kinds of problems. We 
see this as an area of great importance, and certainly in terms 
of the definitions, a very critical issue.
    And last, what new research should we do? First of all, we 
think that predation studies need to be improved and completed, 
and that includes things like food habits, estimates of 
consumption not only by the fish species, but also marine 
mammals and other species, and a greater reliance on the 
spatial processes that happen, rather than looking at fish, as 
a group, as if they didn't spread out and interact at the 
margins.
    Secondly, we need to develop quantitative measures of 
biodiversity. We hear a lot about managing for increased 
biodiversity, but we, as scientists, and certainly the managers 
don't really have a good working definition of that.
    Third, we need more field studies of the Marine Protected 
Areas (MPAs) and other closed areas that currently exist. In 
our region, we have about 20,000 square kilometers closed. 
These are providing new insights into the potential use of MPAs 
as an ecosystem tool. We need to improve our models of species 
and habitat interactions and, last, we need to improve our 
monitoring capabilities to work across the trophic levels.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Murawski follows:]

    Statement of Steven A. Murawski, Ph.D., Chief Stock Assessment 
   Scientist, National Marine Fisheries Service, Northeast Fisheries 
               Science Center, Woods Hole, Massachusetts

    Thank you, Mr. Chairman, for your kind invitation to provide 
testimony regarding ecosystem-based management and specifically aspects 
related to the Northeast United States continental shelf. My name is 
Steven Murawski, and I am the Chief Stock Assessment Scientist for the 
Northeast Fisheries Science Center, in Woods Hole, Massachusetts. In my 
oral and written testimony I will detail a case history of overfishing 
on an ecosystem-wide basis. The Northeast shelf ecosystem is one of the 
best-studied areas of the world's oceans. Fishery-independent 
monitoring programs have been in place for nearly four decades, and the 
predator-prey interrelationships and effects of variation in the marine 
environment on species of the Northeast have been extensively studied. 
Had prescriptive scientific advice, based on traditional models and 
data, been followed, many of the difficulties we now face in stock 
rebuilding could have been avoided. Nevertheless, there is a critical 
need for the inclusion of ecosystem considerations in the management of 
this system, and ecosystem issues will have an increasingly important 
and central role in setting biomass rebuilding targets, optimizing 
yields from interrelated species and fisheries, minimizing habitat 
damage caused by gear, and in dealing with overcapacity of a mobile, 
efficient, and adaptable fishing fleet.
The Northeast USA: A Case History of Ecosystem Overfishing
    Off the Northeast USA (Cape Hatteras to the Canadian Maritimes) 
there are about four dozen important finfish and shellfish stocks that 
require intensive monitoring and scientific advice to support fishery 
management plans. These stocks include New England groundfish (a 
complex of about 15 species and 25 managed stocks), summer flounder, 
sea scallop, Atlantic herring and mackerel, striped bass, surfclam and 
monkfish, to name a few. Virtually all of these important stocks have 
undergone dramatic population declines during the past two or three 
decades, necessitating the development of restrictive management 
measures to address overfishing (Exhibit 1). In a number of important 
cases these plans, which have usually been developed for individual 
species or sets of species caught together when fishing, have resulted 
in some level of stock rebuilding. Thus, for example, we have seen 
increases in the stock sizes and landings of striped bass, summer 
flounder, sea scallop, and some stocks in the groundfish complex. 
Rebuilding of these stocks has required substantial cuts in fishing 
mortality through the imposition of strategies to reduce fishing 
pressure (effort), the closure of large areas of productive ocean 
waters to fishing, in some cases the adoption of low annual landings 
quotas, and other measures.
    It is often suggested that the depletion of these Northeast fishery 
resources (and more generally those throughout the nation and the 
world) stems in part from our failure to adopt an holistic ``ecosystems 
approach''--fisheries management and resource conservation being too 
focused on single-species stock status and control strategies (Murawski 
2000). The primary cause of the collapse of many Northeast stocks 
clearly was excessive fishing--scientific advice from single-species 
stock assessments predicted as much. Nevertheless, it is appropriate to 
consider how systems might be assessed and managed, and what additional 
benefits could be expected from an explicit ecosystem orientation. The 
important questions in this regard are, then:
    <bullet> LWhat might be accomplished by developing criteria for 
defining ecosystem-level overfishing and management measures that could 
not be accomplished under effective single- or multiple species fishery 
management plans?
    <bullet> LAre single-species recovery strategies possible or 
desirable for complex marine ecosystems, and if so, what 
characteristics of ecosystems should be considered when developing 
stock rebuilding targets and thresholds?
    <bullet> LCan fisheries research provide a quantifiable basis for 
defining ecosystem overfishing and acceptable standards to measure 
progress against those definitions?
    <bullet> LWhat additional monitoring and research would be 
necessary (over and above that necessary to support species management) 
to support ecosystem-based fishery management?
    The situation off the Northeast USA provides some useful insights 
into these questions; as a case history, these fisheries are often 
regarded as a prime example of ecosystem-level overfishing (Hall 1999; 
Fogarty and Murawski 1998).
    While overfishing of some species was evident as early as the late 
1920s (i.e., Georges Bank haddock and Atlantic halibut), overfishing on 
an ecosystem scale did not occur in the Northwest Atlantic until the 
early 1960s, with the massive influx of effort from European and later 
Asian distant-water fleets. The scale of the effort increases in the 
1960s and early 1970s was so massive that the system showed rapid and 
broad-scale declines in the fish populations off the coast (Exhibit 1). 
These fleets of large vessels could not survive on low catch rates and 
thus the distant-water fleets engaged in a strategy of switching from 
one abundant target species to another in a now classic pattern termed 
``sequential depletion'' (Orensanz et al. 1998). In this fishing 
pattern, multispecies catch rates are maintained, for a while, by re-
targeting fisheries to abundant or valuable resources, with fishery 
management structures unable to anticipate or keep up with the changes 
in fishing patterns. The severe depletion of traditional USA groundfish 
species such as haddock, whiting (silver hake), red hake, and 
yellowtail flounder was followed by shifts and collapses in herring, 
mackerel, and other species important to the functioning of the fish 
component of the ecosystem (Exhibit 1; Fogarty and Murawski 1998). The 
fishery initially focused on predators and other high level consumers, 
and later on fish species of lower position in the food web (Sissenwine 
et al. 1984), consistent with a strategy of ``fishing down the food 
web'' (Pauly et al. 1998). The collapse of herring and mackerel 
stocks--primary prey for a number of predators such as cod, whiting, 
dogfish, and pollock, resulted in substantial shifts in diet 
composition and consumption rates by these predators (Overholtz et al. 
2000), and resulted in substantial increases in other species including 
sand eels (Fogarty et al. 1991).
    A comprehensive fishery research strategy to index all the marine 
fish components of the Northeast ecosystem was introduced in the early 
1960s, coincident with the influx of distant-water fleet effort. The 
delivery of the R/V Albatross IV in 1962 provided for the first time an 
adequate platform from which to mount system-wide bottom trawl surveys 
in the nearly 250,000 km2 Northeast continental shelf ecosystem. These 
surveys, undertaken in a statistically rigorous manner for nearly 40 
years, provide the basis for single-species stock assessments and other 
data about the ecosystem. It is these data (Exhibit 1) that documented 
clearly the impacts of fishing on individual stocks and species groups. 
In addition to abundance and biological measurements of individual 
stocks, stomach sampling information obtained from the surveys has 
allowed for modeling of the impacts of predator-prey interactions 
(Overholtz et al. 2000).
    Fishery management in the 1970s was primarily undertaken through 
the auspices of the International Commission for the Northwest Atlantic 
Fisheries (ICNAF). Eventually ICNAF adopted comprehensive quota 
management systems for primary target species, and an overall cap on 
fisheries removals (similar to that now in effect in the Bering Sea) to 
address predator-prey and bycatch problems. This regime ended in 1976 
with the adoption of the Magnuson Act.
    With the adoption of domestic management programs, most quota-based 
management of finfish resources was phased-out in the early 1980s in 
favor of ``indirect'' controls on fishing such as minimum fish and mesh 
sizes. Although stock assessments showed increased fishing mortality 
rates and declining biomasses of the valuable stocks, fishery 
management responses were too slow to respond and generally inadequate. 
Landings of groundfish stocks increased in the early 1980s due to good 
recruitment from the mid 1970s, but later declined severely due to high 
harvest rates and recruitment failure (Exhibit 2). Beginning in the 
early 1990s, fisheries management again instituted systems of direct 
controls including ``hard'' quotas for a number of Mid-Atlantic species 
(summer flounder, surfclam, ocean quahog, mackerel, scup, squids), and 
effort control for New England groundfish, sea scallop, and monkfish. 
Combined with the large scale closure of productive fishing grounds in 
New England (Exhibit 3), management has achieved lower mortality rates 
for most valuable stocks and abundance has improved.
    For some stocks such as herring and mackerel, domestic fisheries 
have never generated fishing mortality rates as high as those achieved 
under the foreign fishing regime, and these stocks increased rapidly to 
very high levels after 1976 (Exhibit 1). Currently, herring and 
mackerel are abundant and relatively productive, and are consumed by a 
wide variety of fish, seabirds, and marine mammals. The recovery of 
these species was an early indication that the effects of ecosystem-
level overfishing were not necessarily irreversible--that important 
components of the ecosystem could be recovered despite the complexity 
of species interactions and fisheries.
    Studies of the food web supporting the shelf fisheries have 
demonstrated just how complex the system is (Link 1999). However, 
despite this complexity, research has demonstrated that the system is 
not so tightly bound that recovery potential is severely limited by 
dominant predator-prey relationships. One of the most important 
observations of the Georges Bank GLOBEC research program is that 
environmental variability has a significant influence of the survival 
of young fish (Fogarty and Murawski 1998). Other recent studies have 
also shown that there are substantially greater odds of getting strong 
replenishment of groundfish occurring when spawning biomasses are high 
(Brodziak et al. 2001). The empirical observations of the recovery of 
prey species like herring and mackerel, combined with information 
demonstrating the importance of adequate spawning biomass, and the 
roles of oceanographic variability, have all strengthened the case for 
aggressive management for stock recovery and eventual fisheries 
sustainability at levels approaching MSY.
The Role of Ecosystem Considerations
    All of the stocks regulated under Federal FMPs have, as their 
fundamental basis, the definitions of overfishing and attendant control 
rules set so that fishing mortality rates do not exceed the level that 
is necessary to achieve maximum sustainable yield (MSY). Further, 
biomass targets are established for each of the major stocks, based on 
the likely recovery potential by using analyses of historical fisheries 
and research data. It is clear that the establishment of target 
biomasses under the single species approach leaves many unanswered 
questions. A primary question of great current importance is: what is 
the biomass and yield potential for stocks that have been chronically 
overfished throughout the period for which there are landings and 
population data? It is possible that the yield potentials of some 
stocks, like Georges Bank haddock and yellowtail flounder, sea scallop, 
and summer flounder are different than those indicated by single-
species models of stock recovery and yield. In these cases we simply 
may not be able to ascertain these quantities de novo from the 
historical data--an adaptive, cautious management approach to exploring 
the yield and biomass potentials of stocks may be required. By the same 
token, a comprehensive approach to defining biomass necessary for MSY 
for each stock individually may not be feasible given the limits on 
fish biomass and yield imposed by primary production (photosynthesis) 
and zooplankton production. Simply stated, the whole may be less than 
the sum of the parts. It is clear that the current approach, as 
implemented in Northeast FMPs for individual species and species 
assemblages, has no mechanism to incorporate ideas regarding predator-
prey relationships and the feasibility of biomass goals and possible 
trade offs. Likewise, bycatch interactions, wherein the target 
fisheries regulated in one FMP generate bycatches of species controlled 
by another, are also not now addressed in a systematic manner. An 
umbrella fisheries ecosystem plan would be a valuable addition to 
address these concerns.
    Another issue that could be better addressed with an ecosystem 
focus to FMP development is the effect of effort control programs on 
non-target species. The depletion of groundfish and other high values 
species was followed by a more recent round of shifting fisheries to 
alternative target species (Exhibit 4). In this scenario, effort from 
the traditional groundfish and scallop fisheries was diverted to non-
traditional stocks including monkfish, spiny dogfish and squids. In the 
case of groundfish, effort was halved in the mid-1990s, with some of 
the remaining effort flowing to these alternative targets. Managers 
have had to play catch up to address overfishing concerns of these 
secondary target species. This scenario could have been addressed 
through a comprehensive approach to fishing effort and capacity 
management--the current system recognized the potential of effort 
movement between fisheries but has not managed capacity in a 
comprehensive manner. Clearly, recognizing that fishing effort can be 
deployed in flexible and efficient ways should be an important 
consideration in managing fishery ecosystems.
    Fishery managers in New England and the Mid-Atlantic have been 
among the first to adopt the use of large-scale year round fishery 
closures in order to achieve management goals for target species 
(Exhibit 3; Murawski et al. 2000). Large areas (over 20,000 km2 in the 
case of groundfish closures) of productive fishing grounds were closed 
beginning in 1994. These areas have proved to be a significant element 
in the plan to increase groundfish abundance. At the same time, the 
enactment of these areas have had serendipitous effects demonstrating 
the value of closed areas as a strategy for increasing the abundance of 
sea scallop and other species (Murawski et al. 2000). These closures, 
although enacted for very specific and limited fishery management 
goals, have coincided with a heightened interest world-wide in the use 
of marine protected areas (MPAs). Although most monitoring studies have 
focused on the overall status of regulated stocks, some limited field 
study conducted by the NEFSC and academic partners have revealed 
changes in the benthic community structure and habitat associated with 
the closures (Collie et al. 1997). Prior to the limited resumption of 
scallop dredging in portions of the groundfish closure areas, 
comparative habitat studies were initiated--the results of which are 
only now being interpreted. Based on preliminary analyses, it is clear 
that the cessation of fishing in these habitats has had measurable 
effects on the biota in the closed areas. We do not yet know the 
significance of these changes to either the target species (improved 
juvenile survival?) or on other non-resource species. There is an 
indication of increased biodiversity of the fish component of the 
resource since the adoption of these closures, and there are some 
similar effects outside the closures (Exhibit 5; Brodziak and Link 
2001). However, intensive studies of the effects of these closures and 
their roles within the broader ecosystem have not been initiated. 
Closed areas (rotational, seasonal, year-round, and marine reserves 
wherein no fishing activity at all is allowed) will be a significant 
component of fishery and ecosystem management in the years to come, and 
programs to evaluate the potential costs (through lost fishing 
opportunities) and benefits of such closed areas are a priority. 
Fishery closures in New England have resulted in trawl fishing effort 
moving into habitats that heretofore were not as heavily utilized 
(Exhibit 6). These effects need to be better understood as MPAs become 
more widely established as fishery and ecosystem management tools.
Summary
    Overfishing of Northeast fishery resources occurred primarily as a 
result of the lack of direct controls on fishing mortality. As a wider 
array of species comes under intensive management, and stocks begin to 
recover, there is an even greater need to address ecosystem 
considerations. It is not clear that we can achieve biomass targets 
determined based on single-species models and data for all managed 
stocks simultaneously, and it is likely that species interactions will 
increasingly modify the rates of recovery of stocks. Fishery management 
plans for individual species and species groups do not allow a 
convenient forum in which to assess inherent tradeoffs due to predator-
prey or bycatch interactions. Furthermore, the current structure does 
not allow a comprehensive effort control and management system. 
Comprehensive effort management has been identified as an essential 
component of ecosystem-based fishery programs. The effects of mobile 
fishing gears on the characteristics and productivity of benthic 
habitats has also been identified as a priority, but studies of these 
phenomena and their importance in managing exploited ecosystems has not 
been adequately assessed anywhere in the world. The Northeast USA shelf 
ecosystem has been intensively trawled and dredged for 100 years, and 
changes in these habitats have no doubt occurred. Marine protected 
areas have the potential to mitigate some of these effects, but the 
extent and direction of habitat changes with the cessation of trawling 
and dredging is only now beginning to be appreciated, especially in New 
England. This issue will take on a central role in fisheries management 
and research in the years to come.
    In the absence of a quantitative understanding of species 
interactions and impacts of habitat alterations, there is a growing 
consensus of scientific opinion that prescriptive management provided 
by conservative single-species approaches will provide the balance 
among ecosystem components and high and relatively sustainable fishery 
yields. A better understanding of these issues will allow managers to 
assess the potentials and tradeoffs that will result from more active 
management of the various components of the ecosystem.
Research Needs to Support Ecosystem Considerations:
    Ecosystem approaches, whether implemented as perspectives on 
traditional overfishing approaches, or through explicit ecosystem-based 
definitions, require research and advisory services not typically 
provided by fish stock assessment science. Regardless of the approach, 
additional ecosystem monitoring and research is necessary with 
increased emphasis on species interactions, diversity (at all levels of 
organization) and variability (at various temporal and spatial scales). 
However, this does not necessarily imply that traditional programs 
collecting fishery-dependent and fishery-independent information should 
be abandoned. On the contrary, existing programs will need to be 
expanded to allow monitoring of catches and abundances of a wider array 
of species, to complement research and modeling on trophic interactions 
and other processes. Such research is necessary if ecosystem 
considerations are to assume a greater role in resource management, 
particularly as habitat protection becomes a priority, and measures 
such as marine protected areas are used more widely to enhance resource 
and non-resource species protection. Specifically, I foresee added 
research emphasis in these areas:
    <bullet> Lpredation studies
    <bullet> Lmeasures of species diversity and their relation to 
harvesting
    <bullet> Lfield studies of closed areas (emphasizing their role as 
essential fish habitat)
    <bullet> Lmodels of species and habitat interaction (spatially 
explicit)
    <bullet> Lenhanced capabilities to comprehensively monitor 
components of the ecosystem through fishery independent surveys
References
    Brodziak, J.T.K. and J.S. Link 2001. Ecosystem-based fisheries 
management: What is it and how can we do it? Bulletin of Marine Science 
(in press).
    Brodziak, J.K.T., W.J. Overholtz and P.J. Rago. 2001. Does spawning 
stock affect recruitment of New England groundfish? Canadian Journal of 
Fisheries and Aquatic Sciences 58(2): 306-318.
    Collie, J.S., G.A. Escanero, and P.C. Valentine. 1997. Effects of 
bottom fishing on benthic megafauna of Georges Bank. Marine Ecology 
Progress Series 155: 159-172.
    Fogarty, M.P., E.B. Cohen, W.L. Michaels, and W.W. Morse. 1991. 
Predation and the regulation of sand lance populations: an exploratory 
analysis. ICES Symposium of Marine Science 193: 120-124.
    Fogarty, M.P. and S.A. Murawski. 1998. Large-scale disturbance and 
the structure of marine systems: fishery impacts on Georges Bank. 
Ecological Applications 8(1, Supplement): S6-S22.
    Hall, S. 1999. The effects of fishing on marine ecosystems and 
communities. Blackwell Science, London. 274 pp.
    Link, J. 1999, (Re)Constructing food webs and managing fisheries. 
Ecosystem Approaches for Fisheries Management. Alaska Sea Grant College 
Program. AK-SG-99-01. 571-588.
    Murawski, S.A. 2000. Definitions of overfishing from an ecosystem 
perspective. ICES Journal of Marine Science 57: 649-658
    Murawski, S.A., R. Brown, H.-L. Lai, P.J. Rago and L. Hendrickson. 
2000. Large-scale closed areas as a fishery-management tool in 
temperate marine systems: the Georges Bank experience. Bulletin of 
Marine Science 66(3): 775-798.
    Orensanz, J.M., J. Armstrong, D. Armstrong, and R. Hilborn. 1998. 
Crustacean resources are vulnerable to serial depletion -- the 
multifaceted decline of crab and shrimp fisheries in the Greater Gulf 
of Alaska. Reviews in Fish Biology and Fisheries 8:117-176.
    Overholtz, W.J., J.S. Link and L.E. Suslowicz. 2000. Consumption of 
important pelagic fish and squid by predatory fish in the northeastern 
USA shelf ecosystem with some fishery comparisons. ICES Journal of 
Marine Science 57: 1147-1159.
    Pauly, D., V. Christensen, J. Dalsgaard, R. Froese and F. Torres, 
Jr. 1998. Fishing down marine food webs. Science 279:860-863.
    Sissenwine, M.P., E.B. Cohen and M.D. Grosslein. 1984. Structure of 
the Georges Bank ecosystem. Rapports et Process verbaux des Reunion 
International de Conseil de Exploration de la Mer 183: 243-254.
                                 ______
                                 
    [Exhibits attached to Dr. Murawski's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T3085.001
    
    [GRAPHIC] [TIFF OMITTED] T3085.002
    
    [GRAPHIC] [TIFF OMITTED] T3085.003
    
    [GRAPHIC] [TIFF OMITTED] T3085.004
    
    [GRAPHIC] [TIFF OMITTED] T3085.005
    
    [GRAPHIC] [TIFF OMITTED] T3085.006
    
    Mr. Gilchrest. Thank you very much, Dr. Murawski.
    Ms. Livingston, welcome.

 STATEMENT OF PATRICIA A. LIVINGSTON, ALASKA FISHERIES SCIENCE 
           CENTER, NATIONAL MARINE FISHERIES SERVICE

    Ms. Livingston. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate being invited to this hearing on 
ecosystem-based fishery management. I am Patricia Livingston, 
the program leader of the Resource Ecology and Ecosystem 
Modeling Program at the Alaska Fisheries Science Center of 
NMFS. Today, I want to tell you a little bit about the Alaskan 
experience with implementing ecosystem-based management.
    Our challenge in the last year or so has been how to 
summarize our ecosystem knowledge and bring it to the attention 
of fisheries management. We have produced three different 
analyses this last year that attempt to do that.
    The first one is the Ecosystem Considerations Chapter that 
accompanies our Stock Assessment and Fishery Evaluation Reports 
that provide single-species stock assessment advice to the 
North Pacific Fisheries Management Council. In this ecosystem 
chapter, we have attempted to provide information on the status 
and trends of various ecosystem components and ecosystem 
indicators, including ecosystem management indicators, that we 
can relate to the ecosystem-based goals of the Council, which 
include maintaining diversity, habitat sustainability, and 
humans as components of the ecosystem.
    For example, we can compute an index looking at the trophic 
level of the catch to see if we are fishing down the food web, 
which is an issue related to diversity and sustainability. What 
is lacking in this effort is its link to real quantitative 
ecosystem-based management objectives. Right now it is serving 
more of an information service.
    We have also produced programmatic Alaska groundfish, SEIS. 
It was a very broad-based ecosystem assessment, and it contains 
virtually all of the elements of a Fishery Ecosystem Plan, as 
envisioned by the NMFS Ecosystem Principles Advisory Panel. It 
covered a broad range of issues from habitat to predator-prey 
interactions, protected species, target and nontarget species, 
ecosystem effects of fishing and socio-economic benefits.
    It was clear when we evaluated the present fishery 
management regime, using the performance standards of the 
Sustaining Marine Fisheries Report of the NRC, that we have 
made progress in ecosystem-based management. We have 
conservative single-species-based management. Our catches are 
below the allowable biological catch levels recommended by 
scientists. We have established substantial no-trawl zones. 
There are significant controls not only on target species 
discards, but also on the bycatch of prohibited species. We 
have an overall cap on total catch. There is a prohibition on 
new fisheries for forged species, and we have designated 
sensitive bottom organisms, such as corals and sponges, as 
prohibited species.
    When we took the next step and tried to identify future 
possible improvements to the system, with regard to protecting 
various ecosystem components or improving socio-economic 
benefits, it really highlighted our lack of quantitative 
knowledge with regard to ecosystem processes. For example, when 
we tried to recommend future habitat protection, it was 
unclear, in a quantitative way, how that might translate into 
increased fish production. We required more information on the 
effects of fishing on habitat. We had inadequate space/time 
resolution of our predator-prey information and abundance. We 
need more information on nontarget species distribution, 
taxonomy and life history and improvements in our fishery catch 
statistics so that we can track nontarget species catches.
    The final document we worked on was our Comprehensive 
Biological Opinion, looking at groundfish fisheries from an ESA 
perspective. Again, this was a qualitative analysis that 
highlighted our lack of knowledge of the seasonal distribution 
of key Steller sea lion prey, such as walleye pollock and 
Pacific cod, and the seasonal distribution and foraging needs 
of Steller sea lions.
    In that opinion, we provided some conservation 
recommendations that we hope would help us avoid future adverse 
effects. The primary one was to expand our stock assessments to 
consider the space and time distribution of stocks, and the 
removals, and how those overlap with protected species, and 
also to include environmental influences on fish stock 
distribution and abundance. These are some of the same 
recommendations that have been made in the NMFS Stock 
Assessment Improvement Plan.
    So it is clear that we have made incremental progress 
toward ecosystem-based FMPs with various plan amendments we 
have had. We have identified some possible policy directions 
for future improvements. We require improvements in stock 
assessments, as identified by the NMFS Stock Assessment 
Improvement Plan. We need to continue in and enhance our long-
term monitoring of ecosystem components, and we need more 
quantitative ecosystem-based objectives in order to move 
forward.
    I think the key elements here are the involvement of a 
broad spectrum of scientific experts to reflect the concerns 
beyond target species and enhancing our research to reflect 
those concerns.
    Thank you very much.
    [The prepared statement of Ms. Livingston follows:]

 Statement of Patricia A. Livingston, Program Leader, Resource Ecology 
   and Ecosystem Modeling, Alaska Fisheries Science Center, National 
         Marine Fisheries Service, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to this hearing on ecosystem-based fishery management. I am 
Patricia A. Livingston, Program leader of Resource Ecology and 
Ecosystem Modeling at the Alaska Fisheries Science Center of the 
National Marine Fisheries Service (NMFS).
Implementing Ecosystem-Based Fisheries Management: The Alaskan 
        Experience
    Implementing ecosystem-based fishery management requires an 
expansion of our fishery management advice beyond assessments of 
species that are targets of fisheries. Although there have been 
advances in multispecies and ecosystem modeling approaches, these 
approaches have not yet been completely embraced by the scientific 
community for purposes of fishery management. In some cases this is so 
because of the difficulties in validating these models and in other 
cases because of the lack of sufficient data and knowledge of the 
critical processes to develop an appropriate model.
    We are making progress, however, in providing ecosystem advice to 
managers while we wait for these approaches to mature. There are many 
GLOBEC and GLOBEC-like research efforts going on throughout the world, 
which bring oceanographers, marine ecologists, and fisheries scientists 
together to examine the potential impact of global climate change on 
ocean ecosystems. Coordinated ecosystem research programs along these 
lines are being conducted in the Gulf of Alaska through the U.S. GLOBEC 
program, which is seeking to understand effects of climate variability 
on marine production, particularly looking at salmon and zooplankton. 
NMFS and NOAA's Office of Oceanic and Atmospheric Research have been 
working together in Alaska to understand the effects of climate on 
pollock production through its Fisheries Oceanography Coordinated 
Investigations joint program. These programs have highlighted the 
significant gaps in knowledge in the link between zooplankton and fish 
production. There is also increasing emphasis on habitat research, 
ongoing trophic interactions work, and long-term monitoring of non-
commercial species, which all provide useful information on ecosystem 
status and trends. Some of this ecological information can be used to 
gauge the success of various management schemes that have been put in 
place to meet ecosystem-based management goals that have been put 
forward by the scientific community.
    The Alaska Fisheries Science Center and other collaborators have 
provided the North Pacific Fishery Management Council (NPFMC) with some 
of this ecosystem research information in an Ecosystems Considerations 
document that accompanies the traditional single-species stock 
assessment advice to the Council. We have also just completed a draft 
programmatic Supplemental Environmental Impact Statement (SEIS) for our 
Alaskan groundfish fisheries that provides a comprehensive analysis of 
our present knowledge of the effects of the groundfish fisheries on the 
environment. This draft programmatic SEIS takes a broad view of the 
present fishery management regime and examines policies and potential 
future actions from a variety of environmental perspectives. A 
comprehensive Biological Opinion on Alaskan groundfish Fisheries 
provides a protected species impacts analysis and management approaches 
to be used to avoid jeopardy under the Endangered Species Act. A broad 
range of scientific expertise is required to provide the ecosystem-
based advice in these types of documents. I will discuss aspects of 
these documents, their relationship to development of ecosystem-based 
fishery management plans, and some of the present gaps in our 
scientific knowledge.
Ecosystem Considerations Chapter
    The North Pacific Fishery Management Council's Groundfish Plan 
Teams began in 1994 to broaden the scientific information provided to 
the plan teams beyond the single-species stock assessment advice 
contained in the Stock Assessment and Fishery Evaluation Report (SAFE) 
provided to the Council. A new Ecosystem Considerations Chapter was 
added to this SAFE document. Originally, the chapter contained 
information summarizing ecosystem-based management objectives from 
recent research articles, status and trend information of protected 
marine mammal species such as Steller sea lions and northern fur seals, 
and research summaries of a variety of ecosystem-related research. 
There was not much standardization of the content of the report from 
year to year. However, it served as information to the plan teams and 
as a vehicle for discussing research priorities.
    Three years ago, NMFS proposed that the chapter serve as an 
ecosystem status and trends document with a more standardized content 
from year to year. The idea was to draw upon a broad range of 
scientific experts in the areas of physical oceanography and climate, 
biological oceanography, habitat and effects of fishing research, 
marine pollution, predator-prey interactions, forage fish and other 
non-target species, and marine mammals and seabirds. Information would 
be presented on the time trends of these ecosystem components in the 
document and discussion would include the possible factors influencing 
change. Experts providing information to this chapter include those 
from NMFS, other NOAA components, state agencies, U.S. Fish and 
Wildlife Service, academia, and those representing native or other 
local-based knowledge groups.
    The purpose of these ecosystem status and trends indicators is to 
1) bring the results of ecosystem research efforts to the attention of 
stock assessment scientists and fishery managers in order to provide 
stronger links between ecosystem research and fishery management and 2) 
bring together many diverse research efforts into one document, which 
would spur new understanding of the connections between ecosystem 
components and the possible role that climate, humans, or both may have 
on the system.
    In addition to the ecosystem status and trend information, NMFS 
proposed that the document also contain ecosystem management 
indicators. These indicators would be ones that measure how we are 
meeting ecosystem-based management goals. The indicators would: 1) 
provide early signals of direct human effects on ecosystem components 
that might warrant intervention by management or 2) provide evidence of 
the efficacy of previous management actions. The North Pacific Fishery 
Management Council adopted an ecosystem policy that has the following 
four ecosystem-oriented management goals and the indicators are 
arranged to measure aspects of the management system that could 
influence achievement of those goals.
    1. LMaintain biodiversity consistent with natural evolutionary and 
ecological processes, including dynamic change and variability.
    2. LMaintain and restore habitats essential for fish and their 
prey.
    3. LMaintain system sustainability and sustainable yields for human 
consumption and non-extractive uses.
    4. LMaintain the concept that humans are components of the 
ecosystem.
    For example, Exhibit 1 shows an ecosystem measure, trophic level of 
the catch, that can be used to examine whether we are ``fishing down 
the food web,'' an issue related to system biodiversity and 
sustainability. We have now completed two annual revisions of the more 
standardized ecosystem considerations document of the NPFMC (Livingston 
1999, 2000). The documents are available on the web at:
http://www.refm.noaa.gov/docs/ecocons99.pdf
http://www.refm.noaa.gov/docs/Ecocon2000.pdf
    NMFS is working closely with the North Pacific Fishery Management 
Council to apply ecosystem level information to fishery management 
decisions. The Ecosystem Considerations Chapter now contains some parts 
of a Fishery Ecosystem Plan such as ecosystem status and trend 
information for many ecosystem components. It also has management 
indicators such as: amount of habitat closed to fishing, changes in the 
amount of fishery discards over time, and trophic level of the catch. 
The document provides a way for ecosystem research scientists from a 
variety of organizations to inform stock assessment scientists of their 
results and for managers to link management actions with ecosystem 
observations and ecosystem-based management goals such as protection of 
habitat, maintaining diversity, and sustainability.
    Future work includes the development of more quantitative 
management objectives and ecosystem indicators linked to management 
triggers. Semi-quantitative approaches, such as those used in 
Environmental Impact Analysis, linked to a pre-negotiated set of 
management actions are now being discussed by the scientific community 
(e.g., Caddy 1999; Koeller et al. 2000). This is a key step needed to 
advance this ecosystem considerations chapter beyond research 
communication towards a true ecosystem assessment that triggers 
ecosystem-based management actions.
Draft Alaska Groundfish Fisheries Programmatic Supplemental 
        Environmental Impact Statement (SEIS)
    The National Environmental Policy Act (NEPA) requires federal 
agencies to analyze potential impacts of federal actions on the 
environment. The draft SEIS examines the impacts of the authorization 
of the groundfish Fisheries off Alaska. It is an ecosystem-based 
assessment in that it covers the broad range of issues from the effects 
of groundfish Fisheries on the decline of sea lions and other protected 
species, the effects of fishing gear on benthic habitat, excess fishing 
and processing capacity, target and non-target species effects, and the 
effects of harvesting on the North Pacific marine ecosystem. The 
programmatic SEIS identifies and evaluates combinations of management 
tools available for improving the fishery management regime with 
respect to protecting and conserving various ecosystem components and 
increasing socioeconomic benefits.
    The SEIS document also contains virtually all of the elements of a 
Fisheries Ecosystem Plan as outlined by the Report of the NMFS 
Ecosystem Advisory Panel including:
    <bullet> LDelineation of the ecosystems within Council authority, 
including characterization of the biological, chemical and physical 
dynamics of those ecosystems (Chapter 3)
    <bullet> LDescription of the food webs of the ecosystems (Chapter 
3)
    <bullet> LDescription of the life history characteristics and known 
habitat needs of different life stages of animals (Chapter 3)
    <bullet> LTotal fishery removals including incidental mortality and 
assessment of how those relate to ecosystem effects (Chapters 2 and 4)
    <bullet> LA description of the Fisheries management plan policy 
statements, goals, and objectives that includes how uncertainty is 
included in conservation and management actions (Chapter 2)
    <bullet> LEcosystem indicators are used in the assessment process 
(Chapter 4)
    <bullet> LDescription and, through the cumulative effects analysis, 
an assessment of the ecological and human elements of the ecosystem 
which most significantly affect Fisheries (Chapter 4)
    The status quo fishery management regime is explained and evaluated 
with respect to the performance standards for fishery management 
outlined in the Sustaining Marine Fisheries report of the National 
Research Council. It is clear from this evaluation that Alaska has 
already accomplished a great deal in terms of ecosystem-based 
management through conservative single species management (Exhibit 2), 
establishment of substantial no-trawl zones (Exhibit 3), programs to 
reduce overcapacity , significant controls on discards and monitoring 
of bycatch (Exhibit 4), and reducing fishery interactions with 
protected species. The North Pacific Fishery Management Council has 
established an Ecosystem Committee, whose purpose is to discuss and 
recommend possible approaches to incorporating ecosystem concerns into 
the fishery management process and to provide the Council and 
stakeholders with information on ecosystem-based management in the 
North Pacific Ocean. Other precautionary measures that have been taken 
include a 2 million mt per year optimum yield upper limit to restrict 
total allowable catch of the Bering Sea groundfish complex, a 
prohibition on new Fisheries for forage fish species, and designating 
sensitive bottom organisms such as corals and sponges as prohibited 
species.
    It is intended that the programmatic SEIS will serve as the central 
environmental planning document for both the BSAI and GOA Groundfish 
FMPs, which are presently not oriented to promote ecosystems. The full 
document can be viewed on the web at: http://www.fakr.noaa.gov/
sustainablefisheries/seis/intro.htm
    The SEIS is Alaska's most complete analysis to-date of our 
scientific understanding of the effects of groundfish Fisheries on the 
environment and it highlighted many of our gaps in knowledge in 
determining ecosystem effects, particularly in a quantitative way. We 
had incomplete knowledge of the seasonal distribution and habitat needs 
of important groundfish in order to make determinations of how 
protection of habitat might improve stock abundance. Similarly, lack of 
knowledge of both the seasonal foraging requirements of Steller sea 
lions and the seasonal changes in distribution of key prey stocks such 
as walleye pollock and Pacific cod prevented us from making 
quantitative assessments of the effect of fishing removals of these 
species on Steller sea lions. The effects of fishing on benthic habitat 
research is just beginning and we require additional work to understand 
how fishing gear and fishing removals affect benthic diversity. 
Increased benthic habitat mapping in conjunction with fishing gear 
experiments are needed. Although we have a variety of predator-prey 
models, we need data at finer space and time scales and better 
knowledge of the space/time distribution of prey, particularly forage 
fish and zooplankton to determine how predators may switch according to 
prey availability. More research on non-target species distribution and 
taxonomy in association with improvements to our fishery reporting 
system are needed to move some of these species into tier 1 assessments 
defined in the NMFS Stock Assessment Improvement Plan. Moving towards 
more quantitative or semi-quantitative analyses on which to base our 
ecosystem-based management advice and to advance our stock assessments 
beyond tier 1 will require additional research along these lines.
Comprehensive Biological Opinion on Alaska Groundfish Fisheries
    NMFS has put considerable effort into analyzing ecosystem level 
impacts of Fisheries pursuant to the requirements of the ESA. On 
November 30, 2000, NMFS released a biological opinion which evaluates 
the impacts of Alaskan groundfish Fisheries on listed species. The 
purpose was to determine if the FMP framework contained the necessary 
conservation and management measures to insure protection of listed 
species and their critical habitats. The scientific analysis in this 
opinion was qualitative and highlighted our lack of understanding of 
seasonal distribution of key Steller prey and the seasonal distribution 
and foraging needs of Steller sea lions.
    The comprehensive biological opinion provides conservation 
recommendations to minimize or avoid adverse effects of a proposed 
action. Key conservation recommendations were first to expand stock 
assessments to consider space/time distribution of stocks and removals 
and include environmental influences on fish stock distribution and 
abundance. Multispecies considerations and risk analyses would also be 
included as part of the growing trend towards a ``comprehensive 
assessment'' process. Fishery rationalization programs for all 
groundfish Fisheries were also recommended to reduce the ``footprint'' 
of Fisheries at smaller time/space scales. Appropriate improvements to 
the existing catch monitoring programs (i.e., observer program, 
reporting and record keeping requirements, and vessel monitoring 
programs) would also be necessary. Many of these recommendations are 
also being made under the NMFS Stock Assessment Improvement Plan.
Relationship to Ecosystem-based Fishery Management Plans
    As we discussed in the analysis contained in the programmatic SEIS, 
we are moving incrementally towards ecosystem-based fishery management 
plans with various ecosystem-based plan amendments. Both the 
programmatic SEIS and Comprehensive Biological Opinion for Alaska 
Groundfish Fisheries have identified possible policy directions for 
further improvement of ecosystem-based management under NEPA and ESA 
and showed the qualitative status of our ecosystem-based scientific 
advice. With the addition of a more structured assessment framework 
similar to that used in the programmatic SEIS, the Ecosystem 
Considerations Chapter of our SAFE has potential for providing year-to-
year advice in meeting our NEPA obligations for TAC setting. 
Improvements in stock assessments identified by NMFS will advance our 
ecosystem-based management advice and allow single-species stock 
assessments to be embedded in an ecosystem context in a more 
quantitative way. Key to all these activities is involvement of a broad 
spectrum of scientific expertise to reflect concerns beyond species 
that are targets of Fisheries and enhancing our research to include 
those broader concerns.
Research and Data Gaps
    Some important research and data gaps identified in the 
programmatic SEIS, comprehensive Biological Opinion, and Ecosystem 
Considerations Chapter include research and data collection on:
    <bullet> Lstructure and functioning of marine ecosystems 
(including: the role of habitat, predator-prey interactions, factors 
affecting stability and resilience including mechanisms at the 
population and community levels of organization, and effects of fishing 
on benthic habitat and overall ecosystems)
    <bullet> Llong-term research and fishery independent monitoring 
programs on target and non-target species, oceanography and climate, 
and habitat mapping
    <bullet> Ldevelopment of fishery stock assessment models that 
incorporate unobserved fishing mortality, environmental variability, 
spatial distribution of fish and Fisheries removals, and multispecies 
interactions
    <bullet> Lbiological effects of fishing on gene pools and 
population structures
    <bullet> Lmarine protected areas and using MPAs as research tools
    <bullet> Lextent and nature of Steller sea lion foraging habitat
    <bullet> Leffects and effectiveness of various forms of rights-
based management approaches
    <bullet> Limprovement in the observer program, reporting and record 
keeping requirements, and vessel monitoring programs
    <bullet> Loverall improvement in the research and data collection 
efforts with regard to understanding processes at finer time and space 
scales
Summary
    The Alaska region has done extensive work on analyzing and 
incorporating ecosystem-based management objectives into its Fisheries 
management but we still have far to go. These analyses have many of the 
components identified in a Fisheries Ecosystem Plan as envisioned by 
the NMFS Ecosystem Advisory Panel Report. We have identified policy 
directions and management actions that need to be taken to make 
substantial progress in moving towards more prescriptive and adaptive 
ecosystem-based fishery management plans. We are broadening our stock 
assessment advice to include ecosystem-based research and will be 
working towards identifying more quantitative ecosystem-based 
management objectives and ecosystem indicators linked to management 
triggers and actions. Increased ecosystem-based research and 
involvement of multidisciplinary analysis and management teams are key 
to the process.
Conclusion
    Mr. Chairman, this concludes my testimony. Again, I want to thank 
you for the opportunity to testify today and discuss ecosystem-based 
management. I am prepared to respond to any questions that you and 
other Members of the Committee may have.
References
    Caddy, J.F. 1999. Deciding on precautionary management measures for 
a stock based on a suite of limit reference points (LRPs) as a basis 
for a multi-LRP harvest law. NAFO Sci. Coun. Studies, 32: 55-68.
    Koeller, P., L. Savard, D.G. Parsons, and C. Fu. 2000. A 
precautionary approach to assessment and management of shrimp stocks in 
the Northwest Atlantic. J. Northw. Atl. Fish. Sci., Vol. 27:235-246.
    Livingston, P.A. (Editor). 1999. Ecosystem considerations for 2000. 
Appendix D: Stock Assessment and Fishery Evaluation Report for the 
Groundfish Resources of the EBS/AI and GOA. North Pacific Fishery 
Management Council, 605 W. 4th Ave, Suite 306, Anchorage, AK 99501. 
140p.
    Livingston, P.A. (Editor). 2000. Ecosystem considerations for 2001. 
Appendix: Stock Assessment and Fishery Evaluation Report for the 
Groundfish Resources of the EBS/AI and GOA. North Pacific Fishery 
Management Council, 605 W. 4th Ave, Suite 306, Anchorage, AK 99501. 
119p.
    NMFS. 2000. Endangered Species Act -- Section 7 Consultation. 
Biological opinion and incidental take statement for Authorization of 
Bering Sea/Aleutian Islands and Gulf of Alaska groundfish fisheries 
based on the Fisheries Management Plans for Bering Sea/Aleutian Islands 
Groundfish and Groundfish of the Gulf of Alaska. U.S. Dept. Commer., 
NOAA, NMFS Protected Resources Division. 352p +Appendices.
    NMFS. 2001. Alaska Groundfish Fisheries Draft Programmatic 
Supplemental Environmental Impact Statement. U.S. Dept. Commer., NOAA, 
NMFS, Alaska Region, Juneau, AK.
                                 ______
                                 
    [Exhibits attached to Ms. Livingston's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T3085.007
    
    [GRAPHIC] [TIFF OMITTED] T3085.008
    
    [GRAPHIC] [TIFF OMITTED] T3085.009
    
    [GRAPHIC] [TIFF OMITTED] T3085.010
    
    Mr. Gilchrest. Thank you, Ms. Livingston.
    Dr. Crowder?

     STATEMENT OF LARRY B. CROWDER, PH.D., PROFESSOR, DUKE 
                     UNIVERSITY MARINE LAB

    Dr. Crowder. Thank you, Mr. Chairman, members of the 
Committee. I appreciate the opportunity to testify at this 
hearing on ecosystem-based management and the reauthorization 
of the Magnuson Act.
    Fisheries in the U.S. have been managed with increasing 
rigor over the past 25 years since the Magnuson Act was passed, 
but they continue to be plagued with problems, including 
overfishing, habitat damage, and bycatch of valuable resource 
species, as well as protected species.
    We need to begin thinking about any comprehensive approach 
to fisheries management, including ecosystem-based management, 
by critically assessing the issues of capacity and resource 
allocation in the fishery. One year after the Magnuson Act was 
originally passed, Peter Larkin, eminent fisheries biologist, 
published his famous epitaph for the concept of maximum 
sustainable yield, but we continue to make decisions that put 
severe pressure on these resources and fail to buffer the fish 
and the fishing industry from variability rocked by both 
natural forces and human hands.
    Structural engineers have much better reputations for 
designing reliable systems. Our society approves of building 
safety factors into these manmade systems. Credible engineers 
simply would refuse to build the ``Minimum Sustainable 
Bridge.'' Why do we not require similar caution with designing 
management regimes for complex ecosystems that support 
fisheries?
    Productive fisheries rely on healthy marine ecosystems. 
Degraded habitats cannot produce fish. Healthy marine 
ecosystems provide society with a wide variety of valuable 
ecosystem services that can be altered by a suite of factors, 
including nutrient enrichment, fishing invasive species and 
climate change. Fishing that focuses on removal of large 
predatory fishes and bottom fishes can lead to marine food webs 
that enhance small fishes. In highly compromised systems, like 
we have seen in the Black Sea, they can become dominated by 
jellyfish predators, yielding little benefit to humans. In the 
U.S., enriched systems like Chesapeake Bay, the Albemarle-
Pamlico estuary, and the Gulf of Mexico are already showing 
similar signs of stress.
    If we are to respond to interactions among multiple 
stressors, like fishing pressure and eutrophication, we must 
use an ecosystem perspective. Managers must also take a 
precautionary approach. This will come at a cost. Building safe 
bridges simply costs more than tossing up minimum sustainable 
ones.
    Ecosystem-based approaches to management will have to 
construct strategies that are robust to both natural and 
anthropogenic changes. I want to share with you a case study 
that I worked on closely, and that was the estuarine-dependent 
fishes of North Carolina estuaries. It shows the impact of 
eutrophication on fish and fisheries in the context of 
environmental variation on a scale from day-to-day changes in 
the weather to large-scale effects of hurricanes.
    North Carolina's coastal rivers drain into Pamlico Sound. 
This estuary supports 90 percent of North Carolina's commercial 
fishing and commercial fishing along much of the Atlantic 
Coast. Pamlico Sound is also a major fishing ground in North 
Carolina. All of the blue crabs, most of the shrimp, and much 
of the fisheries' take occurs inside the estuary. The Pamlico 
Sound is a large lagoonal system that is highly impacted by 
water inputs and nutrient inputs from upstream. We have all 
seen the headlines about the impacts on the coastal rivers in 
North Carolina, the Neuse and the Pamlico, but until recently, 
the Pamlico Sound itself was assumed to be relatively 
unaffected.
    I want to focus today on the effects on the blue crab 
fishery itself, which is the most valuable fishery in North 
Carolina, worth $40.5 million in 1998. The state developed a 
Fishery Management Plan modeled after the sorts of things that 
are required in the Magnuson Act. Stock assessments were 
completed which showed that the fishery was managed at or near 
capacity. Many managers expressed doubts about how close to the 
edge the fishery might be, and the crabbers resisted effort 
controls. This was a fishery operating at a full speed in a 
compromised environment. Like the crew of the Titanic, we were 
watching for icebergs, but not expecting a problem.
    In the fall of 1999, however, North Carolina was struck by 
three hurricanes, which led to 40 inches of rainfall in the 
watershed. Coastal rivers that were at half seawater became 
fresh for 2 months. Flood waters displaced 80 percent of the 
volume of Pamlico Sound, depositing at least half the annual 
nutrient load in a 1-month period. The responses that followed 
included bottom water hypoxia, physiological stress due to 
rapid salinity change, algal blooms, displacement and death of 
many fishes, crabs and their food, and an unprecedented rise in 
fish disease.
    By spring 2000, the blue crab fishermen were reporting 
reduced catches. Recently released data for fisheries landings 
in 2000 showed blue crab takes were down 30 percent Statewide 
and 50 percent in the Neuse River. Blue crabbers reported 
financial losses, many stopped fishing, changed fishing 
operations or took second jobs.
    We have entered a period of increasing storm frequency. We 
need to better understand how climate change will interact with 
eutrophication and fisheries production, but we also need to 
manage these systems with appropriate safety factors to buffer 
both the fishes and the fishers from the impact of natural and 
anthropogenic stressors.
    To manage exploited populations in the context of healthy 
marine ecosystems, we will need additional research to better 
understand the linkages between fish populations and their 
variable environment. Fisheries are supported by ecosystems 
that are under assault from multiple stressors that can 
interact in unpredictable ways, but the stressors are also 
managed by different Government agencies.
    From a scientific perspective, watersheds are part of 
marine ecosystems, and degraded landscapes yield inputs to the 
coastal marine ecosystems that can compromise fisheries 
production. Solutions will require both enhanced scientific 
understanding and changes in governance, including increasing 
cooperation across boundaries.
    Thank you very much for the opportunity.
    [The prepared statement of Dr. Crowder follows:]

    Statement of Larry B. Crowder, Stephen Toth Professor of Marine 
  Biology, Duke University Marine Laboratory, Nicholas School of the 
            Environment and Earth Sciences, Duke University

Introduction
    My name is Larry Crowder and I appreciate the opportunity to 
testify at this hearing on ecosystem-based management and the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. My formal training is in quantitative ecology and since 
the late 1970s I have conducted research on population and community 
ecology, fisheries, and marine conservation. My interests have centered 
on predator-prey interactions and marine food webs, but I have also 
conducted research on fisheries recruitment, bycatch, and fisheries/
protected species interactions. I was the lead investigator on a joint 
NOAA/Academic research project, the South Atlantic Bight Recruitment 
Experiment (SABRE), which examined the influence of environmental 
variation on year class strength of estuarine-dependent fishes of the 
South Atlantic Bight. I have been studying food webs in North Carolina 
estuaries for over 15 years. I have also examined bycatch in trawl and 
longline fisheries and worked with NMFS on population assessments of 
threatened and endangered sea turtles. I served on the NOAA Coastal 
Ocean Program Scientific Advisory Panel on Coastal Fisheries Ecosystems 
and the NMFS Expert Panel on the Status of Sea Turtles. I currently 
serve on the Science Steering Committees for the Global Ocean Observing 
System (GOOS), the Global Ocean Ecosystems Program (GLOBEC), and was 
recently appointed to the Ocean Studies Board for the National Research 
Council. I am testifying today as an individual, not representing any 
organization or interest group. I will comment upon the importance of 
an ecosystem perspective for successful fisheries management and 
outline some of the key issues that may impede implementation of this 
approach.
Fisheries--The Problem
    Fisheries in the US have been managed with increasing rigor over 
the past 25 years, but they continue to be plagued with problems 
including overfishing, habitat damage, and bycatch of valuable resource 
species as well as protected species (Ecosystem Principles Advisory 
Panel 1999, NRC 1999). Many of these problems are related to 
overcapacity in various fisheries. Assessments have suggested that we 
could enhance the value of many of our fisheries by fishing less and 
allowing stocks to rebuild. Any comprehensive approach to fisheries 
management (including ecosystem-based management) must critically 
address the issues of capacity and resource allocation. We continue to 
manage these resources extremely close to the edge. One year after the 
Magnuson Act was passed, Peter Larkin published his famous--An epitaph 
for the concept of MSY (Maximum Sustained Yield)''. But we continue to 
make decisions that put severe pressure on these resources and that 
fail to buffer the fish (and the fishing industry) from variability 
wrought by both natural forces and human hands. In general, structural 
engineers have much better reputations for designing reliable systems. 
This is because our society approves of building safety factors into 
these man-made systems--credible engineers simply would refuse to build 
the ``Minimum Sustainable Bridge''. Why do we not require similar 
caution with designing management regimes for the complex ecosystems 
that support fisheries?
Ecosystem-Based Solutions
    Because of failures to successfully manage fisheries populations, 
we began casting about for solutions. These took two routes--those that 
sought to control fishing effort and provide for fair and equitable 
allocation of fisheries resources and those that sought to understand 
what supported (or constrained) excess production of fish for removal 
by humans. I will focus here on the second point. Productive fisheries 
rely on healthy marine ecosystems--degraded habitats cannot produce 
fish. The Magnuson-Stevens Act (1996) required that Fisheries 
Management Plans designate Essential Fish Habitat. Habitat that 
supports fisheries has been compromised by a number of factors 
including direct effects of fishing gear, marine pollution, invasive 
species, and climate change. But habitat itself is but one of the 
structural features of a healthy marine ecosystem--we must also be 
concerned with the functional aspects of ecosystems.
    Healthy marine ecosystems provide society with wide variety of 
valuable ecosystem services (NRC 1999) that can be altered by a suite 
of factors including nutrient enrichment, fishing, invasive species, 
and climate change. Fishing that focuses on the removal of large 
predatory fishes and bottom fishes leads to shifts in marine food webs, 
often enhancing yields of small fishes. Highly compromised systems can 
become dominated by jellyfish predators and yield little of use to 
humans as we have seen in the Black Sea (Caddy 2000). In the US, 
enriched systems like Chesapeake Bay, the Albemarle-Pamlico estuary and 
the Gulf of Mexico are already showing similar signs of stress (NRC 
2000, Boesch et al. 2001). If we are to respond to the interactions 
among multiple stressors, like fishing pressure and eutrophication, we 
must manage fisheries resources not only in a multispecies context, but 
also with an ecosystem perspective. Further, managers must take a 
precautionary approach that will buffer both fish populations and the 
fishing industry from unexpected changes in the ecosystems that support 
them. This will come at a cost to both the industry and to the 
management infrastructure--building safe bridges simply costs more than 
tossing up ``minimum sustainable'' ones. But given that some very 
costly changes in fisheries ecosystems (like Georges Bank) may be 
difficult or impossible to reverse, this cost is fully justified.
    Marine Protected Areas provide one tool for protecting the 
structure and function of marine ecosystems. MPAs are a valuable part 
of a comprehensive strategy of ecosystem-based management that could 
provide substantial fisheries benefits (NRC 2001). But some caveats 
are, again, necessary. MPAs as with other ecosystem-based approaches 
can only be successful if overall fishing effort is constrained. As 
commonly proposed, MPAs would be promulgated in addition to (rather 
than in place of) current fishing regulations. No-take marine reserves 
(one kind of MPA) close portions of the marine ecosystem to fishing. 
But displaced fishing effort could do further damage to the structure 
and function of the fisheries ecosystem that remains open to fishing. 
As the citizens of the US become increasingly aware of the whole range 
of goods and services provided by ocean ecosystems we will need to more 
seriously consider the need for zoning or space-based management of 
these systems.
    As we consider ecosystem-based approaches to management we will 
have to construct strategies that are robust to other natural and 
anthropogenic changes. Recruitment variability due to environmental 
variation from year-to-year is a challenge for managers and 
particularly for fishers who would prefer to operate their businesses 
in a more stable, predictable world. But recruitment variability is a 
fact of life in fisheries. We can seek to understand it and even to 
predict it, but we are unlikely to be able to control it. Recruitment 
variation is, however, a far less difficult problem for the industry 
than the wholesale structural changes that occur due to longer-term 
climatic variation. At scales from El Nino-La Nina to Pacific Decadal 
Oscillations, ocean ecosystems alter the distribution and abundance of 
fishes in ways we are only beginning to understand. These changes often 
come unexpectedly and fishermen and managers simply have to cope. 
However, fishing itself can also play a role in restructuring fisheries 
ecosystems either through habitat damage from mobile gear or through 
food web alternations that may be difficult or impossible to reverse.
A Case Study: The Neuse-Pamlico Estuary, North Carolina
    I want to share a case study that I have worked on closely, the 
estuarine-dependent fisheries of North Carolina estuaries. It shows the 
impact of eutrophication on fish and fisheries in the context of 
environmental variation on the scale of day-to-day changes in weather 
to large-scale effects of three hurricanes that crossed the North 
Carolina coast in fall 1999 (Paerl et al. 2001).
    North Carolina's coastal rivers drain into Pamlico Sound, the US'' 
second largest estuary. This system is a major fish and shellfish 
nursery for the entire Atlantic coast. It supports more than 90% of 
North Carolina's commercial and 60% of recreational finfish and 
shellfish catches. In addition to serving as a nursery habitat, it is 
also a major fishing ground in North Carolina. All of the blue crabs, 
most of the shrimp and much of the fisheries take occur inside the 
estuary. Pamlico Sound is a large, shallow lagoonal ecosystem with very 
limited water exchange with the Atlantic Ocean through four narrow 
inlets. Although nutrient enrichment has led to water quality problems, 
algal blooms, hypoxia, and fish kills in the Neuse and Pamlico rivers 
that have made headlines for 20 years, the Pamlico Sound was assumed to 
be relatively unaffected. However, the system traps particulate and 
dissolved materials, retaining and processing nutrient inputs from the 
entire watershed. Nutrient loading and subsequent water quality and 
fish effects link directly to landscape modification and to activities 
in the watershed. We have recently shown that intermittent hypoxia, 
which occurs chronically in this system, can substantially reduce the 
growth rates of fish in this critical nursery habitat. Fish and crabs 
respond to low oxygen by crowding into the edge of the system where 
competition and predation can compromise their productivity.
    The blue crab fishery is the most valuable in North Carolina. In 
1998, hard crab landings totaled 27 metric tons and were worth $40.5 
million. In the same year, the state developed a fisheries management 
plan, modeled after those required in federal waters under Magnuson. 
Stock assessments conducted by university scientists suggested that the 
fishery was being managed at or near capacity. In fact, removals had 
exceeded the estimated MSY for several recent years. Although the 
crabbers recognized they were fishing harder for fewer crabs, the state 
took no action to control the number of pots individual crabbers could 
fish. Many managers expressed doubts about how close to the edge the 
fishery might be and the crabbers resisted effort controls. This was 
fishery operating at full speed in a compromised environment. Like the 
crew of the Titanic, we were watching for icebergs, but not expecting a 
problem.
    In fall 1999, North Carolina was struck by three sequential 
hurricanes, Dennis, Floyd and Irene. They dropped almost 40 inches of 
rainfall in the watershed, causing 50-500-year flooding. Coastal rivers 
that were at salinities of half-strength seawater became completely 
fresh for at least two months. Floodwaters displaced nearly 80% of the 
volume of Pamlico Sound, depositing at least half the annual nutrient 
load in a little over a month. Carbon loading doubled relative to 
normal conditions. A series of responses followed including bottom 
water hypoxia, physiological stress due to rapid salinity change, algal 
blooms, displacement or death of many fishes, crabs and their food, and 
an unprecedented rise in fish disease (Paerl et al 2001). Large blue 
crabs appeared to move ahead of the flooding--smaller ones may have 
died. Larval blue crabs that should have been re-entering the estuary 
in the fall were met with freshwater flooding out the inlets.
    By spring 2000, blue crab fishermen were reporting reduced catches. 
Bottom oxygen concentrations continued to be reduced in both the Neuse 
River and Pamlico Sound. Although salinity had returned to normal, it 
is likely that benthic foods eaten by young fish and crabs were still 
suppressed. Our fishery independent data suggested that crab 
populations were down by a factor of ten in the most impacted areas. 
Recently released data for fisheries landings in 2000 showed blue crab 
takes were down 30% statewide and nearly 50% in the Neuse River. Blue 
crabbers reported financial losses; many stopped fishing, changed 
fishing operations or took second jobs. The good news was that the 
shortage of crabs led to higher prices to fishermen, but the excess 
fishing effort potentially pushed the crab populations still lower.
    The only period of record in North Carolina with similar hurricanes 
and flooding was in 1955, when NC was also struck by three hurricanes 
bearing a similar amount of rainfall. Analysis of landings data from 
that period also suggest reduced landings of 6 of 9 most commonly taken 
fishes. For most of them landings peaked in 1952-53 and declined 
through the rest of the 1950s. Oldtime fishermen remember the losses of 
the 1950s, and draw parallels with the 1999 storms. These declines in 
the 1950s landings were likely to be related to declines in fish 
populations as fishing effort over this period remained fairly stable.
    If the climatologists are correct, we have entered a period of 
increasing storm frequency (and perhaps intensity). We need to better 
understand how climate change will interact with eutrophication and 
fisheries production. But we also need to manage these systems with 
appropriate safety factors to buffer both the fishes and the fishers 
from the impact of natural and anthropogenic stressors..
Summary
    Ecosystem-based management will be critical to supporting fisheries 
in the 21st century. In order to manage exploited populations in the 
context of healthy marine ecosystems, we will need additional research 
to fully understand the linkages between fished populations and their 
variable environment. We will also need to understand the linkages 
between target populations and other key species in their food web. 
Finally, we will need to develop management strategies that are robust 
to both anthropogenic and natural environmental variability. These are 
all topics that will need additional research investment to avoid 
costly losses to fisheries.
    We will also need to consider some significant reorganization of 
the governance structure. Fisheries are supported by ecosystems that 
are under assault from multiple stressors that can interact in 
unpredictable ways. But these stressors are also managed by different 
government agencies. For example, landscape development is managed by 
cities and counties, nutrients and other pollutants are managed by 
Departments of Natural Resources at the state level and regulated by 
the EPA, fisheries are managed by Departments of Marine Fisheries, by 
the regional councils and by NMFS. From a scientific perspective, 
watersheds are part of marine ecosystems and degraded landscapes yield 
inputs to coastal marine ecosystems that can compromise fisheries 
production. Solutions will require both enhanced scientific 
understanding and changes in governance including increased cooperation 
across boundaries. I would be pleased to answer any questions regarding 
this testimony, or to supply additional testimony or information.
References
    Boesch, D.F., R.H. Burroughs, J.E. Baker, R.P. Mason, C.L. Rowe and 
R.L. Siefert. 2001. Marine pollution in the United States. Pew Oceans 
Commission, Arlington, VA.
    Caddy, J.F. 2000. Marine catchment basin effects versus impacts of 
fisheries on semi-enclosed seas. ICES Journal of Marine Science 57:628-
640.
    Ecosystem Principles Advisory Panel. 1999. Ecosystem-based fishery 
management. A report to Congress.
    NRC. 1999. Sustaining marine fisheries. National Academy Press, 
Washington, D.C.
    NRC. 2000. Clean coastal waters: Understanding and reducing the 
effects of nutrient pollution.. National Academy Press, Washington, 
D.C.
    NRC. 2001. Marine protected areas: Tools for sustaining ocean 
ecosystems. National Academy Press, Washington, D.C.
    Paerl, H.W., J.D. Bales, L.W. Ausley, C.P. Buzzelli, L.B. Crowder, 
L.A. Eby, M.Go, B.L. Peierls, T.L. Richardson and J. S. Ramus. 2001. 
Ecosystem impacts of three sequential hurricanes (Dennis, Floyd and 
Irene) on US's largest lagoonal estuary, Pamlico Sound, NC. Proceedings 
of the National Academy of Sciences 98(10):5655-5660.
                                 ______
                                 

    [An attachment to Dr. Crowder's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3085.011
    
    [GRAPHIC] [TIFF OMITTED] T3085.012
    
    [GRAPHIC] [TIFF OMITTED] T3085.013
    
    [GRAPHIC] [TIFF OMITTED] T3085.014
    
    [GRAPHIC] [TIFF OMITTED] T3085.015
    
    [GRAPHIC] [TIFF OMITTED] T3085.016
    
    Mr. Gilchrest. Thank you, Dr. Crowder.
    Mr. Hinman?

  STATEMENT OF KEN HINMAN, PRESIDENT, NATIONAL COALITION FOR 
                      MARINE CONSERVATION

    Mr. Hinman. Thank you, Mr. Chairman and members of the 
Subcommittee. I, too, very much appreciate this opportunity to 
speak with you about a subject to which I have devoted a large 
portion of my time over the last 4 years.
    My name is Ken Hinman. I am president of the National 
Coalition for Marine Conservation. Since 1973, my organization, 
and our efforts to ensure a healthy future for ocean fishing, 
have co-evolved along with the Nation's fishery management 
system. I am here today because we believe that an ecosystem-
based approach to management is a natural progression in the 
evolution of fishery management. It is a natural outflow of our 
increasing knowledge of the ocean and our expanding circle of 
concern for all marine species. Its time, we believe, is now.
    Mr. Chairman, I am also here today as a co-chair of the 
Marine Fish Conservation Network, an alliance of 105 fishing, 
environmental, and scientific organizations working to reform 
the Magnuson-Stevens Act. My remarks reflect the position of 
our many allies in the Network.
    In 1996, Congress, as was mentioned, appointed a panel to 
look at ecosystem principles in fisheries management. As a 
member of that panel, and since the publication of that panel's 
report in 1999, I have spent considerable time writing and 
traveling to meetings and workshops in an effort to promote its 
recommendations. In my conversations with policy makers, 
fishery managers and congressional aides, the three most 
frequently asked questions about ecosystem-based fishery 
management are: do managers want to manage fisheries on an 
ecosystem basis; can they do it; and will they do it, and more 
specifically, how will they do it?
    The short answer to the first question, do they want to do 
it, is yes. Indeed, they have already begun. As some of the 
previous speakers have noted, there are some pretty concerted 
efforts to move toward ecosystem-based management being begun 
by some State and Federal organizations. Fishery scientists and 
managers alike recognize the need to address ecological 
considerations, and the question is not do fishery managers 
want to do this, they don't really have a choice. Ecosystem-
based management is gaining increased attention and interest 
because the effect that fishing of one species has on other 
related species is an issue in a number of current fishery 
management debates.
    We have the interactions among striped bass, menhaden, and 
blue crab in Chesapeake Bay; the perceived competition between 
cod and dogfish sharks up in the Northeast; the effect of high 
harvests of horseshoe crabs on migratory shore birds; questions 
about removing an entire tier at the top of the food chain, the 
large pelagic predators, swordfish, tunas, large coastal 
sharks, marlins, all overfished, some severely depleted; and 
the related concern of increasing catches of squid and herring, 
a dominant food source for all of these species, as well as 
some in-shore species, such as cod and bluefish. Each of these 
is managed separately, and in some cases by different 
management agencies.
    The reality is that ecosystem-based management will occur, 
already is occurring, shaping not only perceptions about the 
wisdom of our management decisions, but also the decisions 
themselves, and in each of these and in other debates, 
fisherman and conservationists are demanding action, sometimes 
conflicting action. Unfortunately, sound responses have been 
hampered by questions or misperceptions about the nature and 
extent of predatory-prey interactions, inadequate or 
unavailable data, and most of all, the lack of an established 
process for taking interspecies relationships into 
consideration.
    Mr. Chairman, we are obliged to make sure that ecological 
issues are addressed correctly, based on science and agreed-
upon goals, adhering to a process that we can all understand 
and believe in. So it is a not a question of whether we take on 
this challenge, but how. The most dangerous course is the one 
that we are on right now, forced, as we are, to deal with these 
issues, but with no guidance as to what information is needed, 
and most importantly, how it should be used in the real world 
of making fishery management decisions.
    The next frequently asked question is can we manage on an 
ecosystem basis, and again I think the answer is yes. The body 
of information available to fishery scientists and managers is 
large and constantly expanding. There is an immensity of raw 
data out there that has not been synthesized or analyzed for 
ecosystem-based purposes. There are also new tools for 
ecosystem modeling, such as ECOPATH, into which this 
information can now be plugged. In many instances, there is 
adequate information, if made available to fishery managers, 
and the modeling tools necessary to predict fundamental 
ecological responses to fishing removals and to make informed 
decisions that might minimize the adverse impacts of fisheries 
on trophically-related species.
    Ecosystem-based management is an ambitious goal, no 
question about it, and we will never know or understand 
everything about how fisheries operate in an ecosystem context. 
But as the Ecosystems Principles Advisory Panel stressed, this 
is not an acceptable excuse to delay implementing an ecosystem-
based approach. Significant relations, in many cases, are known 
and understood. We know enough right now to ask the right 
questions, identify the critical information and information 
needs, and to establish a context for considering what we know 
and applying it to fishery management decisions. Right now 
fishery managers have the authority to consider predatory-prey 
and interspecies relationships in fishery management. They are 
not explicitly required to do so, however, nor are they 
provided with any guidance as to how.
    What we believe Congress needs to do, therefore, is provide 
both drive and direction to this process, and by that I mean 
amending the Magnuson Act to require that the National Marine 
Fisheries Service and Regional Fishery Management Councils, A) 
carefully consider the effects of fishing each species on other 
species in the food web, and B) begin devising Fishery 
Ecosystem Plans to serve as overarching guidance and a context 
for future management decisions.
    We believe that Congress should require that all Fishery 
Management Plans be reviewed and revised to consider predatory-
prey interactions, assess how associated species are affected 
by fishing allowed under each FMP, and establish conservation 
measures that will protect associated species and their 
respective roles in the ecosystem as well as the health and 
integrity of the ecosystem as a whole.
    Fishery ecosystem plans, as was pointed out earlier by 
another witness, would not be intended as a substitute for 
Fishery Management Plans, but rather as a means to augment 
their effectiveness. The FEP would be an umbrella document, 
which would include information on the structure and function 
of the ecosystem in each region where fisheries are managed, so 
that fishery managers are aware of the potential impacts of 
fishing on the various components of the ecosystem, as well as 
how changes in the ecosystem might affect certain fisheries. 
Councils would continue to employ FMPs as the primary 
regulatory vehicle for managing marine fisheries, however, each 
council FMP should be required to demonstrate that its 
objectives and conservation and management measures are 
consistent with the findings and the recommendations of the 
FEP.
    We, also, along with other witnesses, urge Congress to 
authorize sufficient funds, new funds, to assist the Secretary 
and the councils in applying ecosystem principles to fisheries 
research and management under the Act.
    In our written statement, we have a number of specific 
recommended changes to the Magnuson Act that reflect these 
overall goals. But if I may, in one final comment, I do want to 
emphasize that considering fisheries in an ecosystem context, 
despite what some people have said, does not diminish the need 
to regulate fishing conservatively or downplay the effect of 
fishing on fish populations. It cannot be used to justify 
overfishing one species in order to maximize yields of another 
species, nor does it diminish the need to fish selectively to 
avoid bycatch and minimize bycatch mortality.
    It supports taking the precautionary approach to conserving 
and managing marine fisheries, especially when the ecosystem 
effects of fishing are uncertain or unknown. It is our firm 
belief that an ecosystem-based approach cannot and should not 
substitute for aggressively implementing existing mandates to 
prevent overfishing, minimize bycatch, and protect essential 
fish habitat. In fact, it makes achieving these goals and doing 
more to achieve them even more critical.
    Thank you for considering our views, and we look forward to 
working with the Subcommittee and staff during the 
reauthorization to improve management of all marine fish.
    Thank you.
    [The prepared statement of Mr. Hinman follows:]

   Statement of Ken Hinman, President, National Coalition for Marine 
                              Conservation

    Mr. Chairman and members of the Subcommittee, I very much 
appreciate this opportunity to speak with you about a subject to which 
I have devoted a large portion of my time over the last four years--
promoting ecosystem-based fishery management.
    My name is Ken Hinman and I am President of the National Coalition 
for Marine Conservation, the nation's oldest public advocacy 
organization dedicated exclusively to conserving ocean fish and their 
environment. Since 1973, my organization, and our efforts to ensure a 
healthy future for ocean fishing, have co-evolved along with the 
nation's fishery management system. We would like to think we have 
played a role in shaping that system for the better.
    I am here today because we believe that an ecosystem-based approach 
to management is a natural progression in the evolution of fishery 
management. It is a natural outflow of our increasing knowledge of the 
ocean and our expanding circle of concern for all marine species. It's 
time, we believe, is now.
    Mr. Chairman, I am also here as a co-chair of the Marine Fish 
Conservation Network, an alliance of over 100 fishing, environmental 
and scientific organizations working together to reform fisheries 
management, specifically by strengthening the Magnuson-Stevens Fishery 
Conservation and Management Act. My remarks reflect the position of our 
allies in the Network, as laid out in its ``Agenda to Protect, Restore 
and Conserve the Nation's Marine Fish.''
    It is widely believed that some fishery declines, or difficulties 
in restoring overfished species, are caused at least in part by 
violations of basic ecosystem principles. In 1996, Congress directed 
the National Marine Fisheries Service to establish an advisory panel to 
review and recommend application of ecosystem principles to federal 
marine fisheries management. As a member of that panel, I saw how our 
goal of developing ``fishery ecosystem plans'' to guide management 
decisions would come about only through an incremental strategy. Not in 
one giant leap, but in carefully measured steps. The first step is to 
understand and preserve the interdependency of key predator and prey 
species.
    Since publication of the panel's Report to Congress, entitled 
``Ecosystem-Based Fishery Management,'' in 1999, I have spent 
considerable time writing and traveling to meetings and workshops, in 
an effort to promote its recommendations. In my conversations with 
policy makers, fishery managers and Congressional aides, the three most 
frequently asked questions are:
    (1) Do managers want to manage fisheries on an ecosystem-basis?
    (2) Can they do it? and
    (3) Will they do it? More specifically, how will they do it?
    The short answer to the first question, do they want to do it, is 
yes. Indeed, they have already begun. The state and federal agencies 
that co-manage the fisheries of Chesapeake Bay are in the initial 
stages of developing a multispecies, or ecosystem plan for the bay's 
living resources. The South Atlantic Fishery Management Council, which 
oversees many valuable commercial and sport fisheries from North 
Carolina to the Florida Keys, has also started this process.
    The fact is, fishery scientists and managers alike recognize the 
need to address ecological considerations, with emphasis on ``need.'' 
Actually, the relevant question is not, do fishery managers want to do 
this; they really don't have a choice. Ecosystem-based management is 
gaining increased interest and consideration because the effect that 
fishing for one species has on other, related species is receiving 
attention in a number of current fishery management debates.
    The reality is that ecosystem-based management will occur--already 
is occurring--shaping not only perceptions about management decisions 
but also the decisions themselves. Decisions are already being made, 
often based on misperceptions about ecological relationships, because 
there is no established process for making such decisions. For example:
    <bullet> LThe resounding success in rebuilding striped bass along 
the Atlantic coast has been followed by worries that the newly 
resurgent bass are finding too little to eat because harvests are too 
high on one of their most important prey species--menhaden. In 
Chesapeake Bay, the problem is compounded by fears the low availability 
of menhaden is causing stripers to increase consumption of blue crabs, 
already in low supply due to over-harvest.
    <bullet> LConcerns about high, unregulated harvests of horseshoe 
crabs in the mid-Atlantic area, largely for use as bait in other 
fisheries, have been heightened by fears that depleted populations of 
horseshoe crabs would leave shore birds that feast on the crabs' eggs 
without enough fuel to complete their long migrations. State and 
federal agencies are moving to limit the number of horseshoe crabs 
commercial fishermen may land, limits that traditionally are set 
according to the bait needs of the fishing industry.
    <bullet> LSome New England fishermen and fishery managers have 
argued that the target population level in the rebuilding plan for 
dogfish sharks should be lowered, and thus restrictions on fishing for 
dogfish relaxed, because dogfish consume significant amounts of cod, a 
higher-value species that is also in need of restoration. Significant 
predation on cod, however, has not been supported by analyses of 
dogfish stomach contents. In fact, scientists advising the Regional 
Fishery Management Councils determined that adult cod are more 
significant predators of juvenile cod than are dogfish. Nevertheless, 
the perception of dogfish as an ``undesirable'' species, whose 
abundance jeopardizes the abundance of other, more desirable species, 
not only persists but may influence decisions, even if at a subliminal 
level.
    <bullet> LQuestions have been raised about the ecosystem effects 
created by the fisheries that remove some of the ocean's apex 
predators. In the Atlantic Ocean, swordfish, the large tunas (bluefin, 
bigeye), blue and white marlin and large coastal sharks are overfished, 
with several species considered severely depleted. By removing so many 
of these predators, we are weakening an entire tier at the top of the 
food chain, which may have dire biological consequences throughout the 
ecosystem. (Predator removal may be more disruptive than prey removal, 
since predators are generally longer-lived than their prey, and are 
thus slower to respond to changes in their environment, or to fill 
niches left by the disappearance of other predators.)
    <bullet> LAn additional concern is the effect of increased harvest 
of pelagic forage species on their large pelagic predators, many of 
which are overfished and the object of national as well as 
international rebuilding programs. Increasing harvests of squid and 
herring on the northeast Atlantic shelf raise questions about how this 
unprecedented growth in fishing mortality might impact the 
effectiveness of recovery efforts for species for whom squid and 
herring are a dominant food source.
    In these and other debates, fishermen and conservationists are 
demanding action, sometimes conflicting. Unfortunately, sound responses 
have been hampered by misperceptions about the nature and extent of 
predator-prey interactions, inadequate or unavailable data about them, 
and the lack of an established process for taking inter-species 
relationships into consideration.
    We are obliged to make sure that ecological issues are addressed 
correctly, based on science and agreed upon goals, adhering to a 
process that we can understand and believe in. So it is not a question 
of whether we take on this challenge, but how. The species-by-species 
approach cannot address certain critical issues and problems that will 
no longer be ignored. The most dangerous course is the one we're on 
now, forced as we are to deal with these issues, but with no guidance 
as to what information is needed and, most importantly, how it should 
be used in the real world of making fishery management decisions.
    The next frequently asked question is, can we manage on an 
ecosystem basis, at least in an informed and effective manner? Again, 
the answer is yes. The body of information available to fishery 
scientists and managers is large and constantly expanding. Most 
recently, the new bycatch and essential fish habitat provisions of the 
Magnuson-Stevens Act have prompted the gathering and synthesis of 
available information on a wide range of species and habitats, from a 
broad range of sources.
    There is an immensity of raw data out there that has not been 
synthesized or analyzed for ecosystem-based management purposes. There 
are also new tools for ecosystem modeling, such as ECOPATH, into which 
this information can now be plugged. In many instances, there is 
adequate information -- if made available to fishery managers -- and 
the modeling tools necessary to predict fundament ecological responses 
to fishing removals and natural predation, and to make informed 
decisions that might minimize the adverse impacts of fisheries on 
trophically-related species.
    Ecosystem-based management should strive to include as much 
information as possible on the structure and function of the ecosystem 
in which fishing activities occur, including its biological, physical 
and chemical dynamics, a description of the significant food web, and 
the habitat needs of different life stages of species that make up the 
significant food web. This is an ambitious goal, and we will never know 
or understand everything about how fisheries operate in an ecosystem 
context. But as the Ecosystem Principles Advisory Panel advised, this 
is not an acceptable excuse to delay implementing an ecosystem-based 
approach. Significant relationships are known and understood. We know 
enough, right now, to ask the right questions, identify the critical 
information and information needs, and establish a context for 
considering what we know and applying it to fishery management 
decisions.
    As I said earlier, some fishery management bodies are already 
taking the first steps toward an ecosystem-based approach. That's 
because they already have the authority and the discretion, without any 
changes to current law, to consider predator-prey relationships and 
species interactions in fishery management plans. They are not 
explicitly required to do so, however, nor are they provided with 
guidance as to how.
    What Congress needs to do, therefore, is provide both drive and 
direction to this process. By that I mean, amending the Magnuson-
Stevens Act to require that the National Marine Fisheries Service and 
the Regional Fishery Management Councils:
    (A) carefully consider the effects of fishing each species on other 
species in the food web; and
    (B) begin devising Fishery Ecosystem Plans to serve as overarching 
guidance and a context for future management decisions.
    We believe that Congress should require that all Fishery Management 
Plans (FMP) be reviewed and revised to consider predator-prey 
interactions, assess how associated species are affected by fishing 
allowed under each FMP and establish conservation and management 
measures that will protect associated species and their respective 
roles in the ecosystem as well as the integrity and sustainability of 
the ecosystem overall. This will require determining the effects of 
fishing on the food web, setting optimum population levels to account 
for ecological factors, and justifying total allowable catches with 
respect to interspecies relationships.
    As the Ecosystems Principles Advisory Panel recommends, Fisheries 
Ecosystem Plans, or FEPs, would not be intended as a substitute for 
Fishery Management Plans, but rather a means to augment their 
effectiveness. The FEP would be an umbrella document which would 
include information on the structure and function of the ecosystem each 
region's managed fishing activities are occurring in, so that fishery 
managers are aware of the potential impacts of fishing on the various 
components of the ecosystem, as well as how changes in the ecosystem 
might affect certain fisheries. The FEP would also establish indices 
for measuring ecosystem health. Councils would continue to employ FMPs 
as the primary regulatory vehicle for managing marine fisheries, 
however, each council FMP should be required to demonstrate that its 
objectives and conservation and management measures are consistent with 
the findings and recommendations of the FEP.
    We also urge Congress to authorize sufficient new funds to assist 
the Secretary and the councils in applying ecosystems principles to 
fisheries research and management under the Act.
Needed Changes to the Magnuson-Stevens Act:
    Following are recommended amendments to the Magnuson-Stevens Act 
supported by the National Coalition for Marine Conservation and the 
members of the Marine Fish Conservation Network:
    <bullet> LAdd consideration of ecosystem principles in fisheries 
management to the Purposes and Policy section of the Act
    <bullet> LAmend the definitions of optimum yield and overfishing to 
make more explicit the directive to consider impacts on ecosystems, 
including predator-prey relationships, in the setting of total 
allowable catch levels
    <bullet> LAmend the Act to require that all fishery management 
plans or amendments describe and assess the likely effects on other 
species in the ecosystem
    <bullet> LAmend the Act to require that each council develop a 
Fisheries Ecosystem Plan for the major ecosystem(s) under its 
jurisdiction
    <bullet> LAppropriate necessary funds for the application of 
ecosystems principles to fisheries research and management.
    Finally, it is essential to emphasize that considering fisheries in 
an ecosystem context does not diminish the need to regulate fishing or 
downplay the effect of fishing on fish populations. It cannot be used 
to justify overfishing one species in order to maximize yields of 
another species. Nor does it diminish the need to fish selectively to 
avoid bycatch (the incidental capture of non-target species) and 
minimize bycatch mortality. In fact, ecosystem-based fishery management 
supports taking the precautionary approach to conserving and managing 
marine fisheries, especially when the ecosystem effects of fishing are 
uncertain or unknown. It is our firm belief that an ecosystem-based 
approach cannot and should not substitute for aggressively implementing 
existing mandates to prevent overfishing, minimize bycatch and protect 
essential fish habitat.
    Thank you for considering our views, and I look forward to working 
with the Subcommittee members and staff during the reauthorization to 
improve management of all marine species.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Hinman.
    The first question I have any single person or anybody on 
the panel can certainly answer. Basically, the question is what 
does ecosystem-based management mean? Now let me sort of give 
you a frame of reference upon which my perspective is for 
ecosystem management, and we would like to be able, as a result 
of this hearing and maybe a few more, to put language in the 
Magnuson Act that will move us in a very clear, specific 
direction that will, I don't want to say accelerate, but begin 
the process of implementing and incorporating Ecosystem 
Management Plans, Fisheries Ecosystem Plans with that umbrella 
concept. So the Fishery Management Plan can draw on this 
information to better manage the fishery.
    So what does Ecosystem-Based Management Plan mean? Dr. 
Crowder, you mentioned Pamlico Sound, the problem in North 
Carolina. We heard that about a billion fish died with this 
huge outbreak of what some people are calling Pfiesteria, and 
we've had similar incidents in the Chesapeake Bay with 
menhaden, and the NOAA Office of the Chesapeake Bay Program 
Office is sort of implementing this pilot project I guess I 
could describe or Ecosystem Management Plan in the Chesapeake 
Bay.
    Now, my simple understanding of an ecosystem approach is 
let's take menhaden, for example. You have a population of 
menhaden, which is a food source for rockfish. Menhaden also 
are filter feeders for the Chesapeake Bay, and they eat I guess 
phytoplankton. Do they eat zooplankton, too?
    Dr. Crowder. When they are small they do.
    Mr. Gilchrest. When they are small.
    So the problem with phytoplankton and zooplankton is that 
the Bay has become too rich in nutrients, and there has been 
problems with oxygen, hypoxia, and then the next step is the 
growth of dinoflagellates, which live in a different water 
quality regime, which means the menhaden don't get the type of 
nutrients they need because dinoflagellates are less 
nutritious.
    And so if we manage the Chesapeake Bay, we want to make 
sure a number of things; one, that land use is a part of the 
ecosystem for the fishery, and what are you going to do with 
the nutrients being washed into the Bay? So that is an aspect 
of it. If the menhaden population goes down, the rockfish don't 
have as many to eat, and they will be looking for a new food 
source, which could be crabs, which could be something else. So 
human activity comes in, and then we sort of, not to mention 
the huge reduction of oyster population over the last 100 
years, and list of things to understand and pursue, and then 
put into a recognizable form so that you can come up with a 
Fisheries Management Plan seems, I don't want to use the word 
``daunting,'' I want to use the word ``stunningly curious'' to 
pursue this fascinating issue of the mechanics of creation.
    And so some of what I remember about managing the Bay, 
especially menhaden, Chesapeake Bay, is that the commercial 
fishermen will get an allocation of menhaden. The rockfish will 
get an allocation of menhaden. The Bay itself, for filtering 
water quality, will get an allocation of menhaden, and so on 
down the line.
    Is that some semblance of an Ecosystem-Based Management 
Plan that councils would undertake and pursue?
    Dr. Crowder. I would like to comment on that, Mr. Chairman, 
you have a very thorough understanding of what is going on in 
these systems. They are complex, and there are really two 
alternatives, in terms of trying to manage fisheries in that 
context. What we have done historically is manage fisheries as 
if they are isolated from all of those other effects that you 
catalogued. Clearly, that is not working.
    The two alternatives I see from there are to ignore all of 
those other issues, but make fisheries management decisions 
that are extremely conservative. In other words, we need to 
buffer ourselves against all of those uncertainties we are not 
officially taking into account, like water quality and so on. 
Or we could make our assessments account for the key complex 
issues. You have identified a series of linkages that 
scientists have become more and more aware of over just the 
last 10 or 15 years. So we are in a position to take into 
account many of those factors that link landscape practices to 
fisheries production. So I think that on the science side, we 
can do a much better job than we are currently doing, taking 
into account ecosystem components. Obviously, we manage people, 
not ecosystems and not fisheries, so we have to figure out how 
one goes about altering the behavior of people to enhance these 
habitats so that they can produce the fish they currently 
produce.
    One of the constraints on that is that the Magnuson Act 
deals with managing fisheries and works through NOAA. Many of 
those other factors that are having an impact on Chesapeake Bay 
and the Albemarle-Pamlico Sound are regulated through entirely 
different acts, through entirely different Government agencies. 
So how to achieve the sort of cooperation it will take to do 
ecosystem management will be a daunting task, both from a 
scientific perspective and from a governance perspective. But I 
think we have little choice, but to move in that direction.
    Mr. Gilchrest. Now we want to replace the word ``daunting'' 
with challenging, and fascinating, and curious.
    Dr. Crowder. Well, for scientists, these are challenging, 
fascinating, fun tasks to get involved in, but it is also 
something that is not inexpensive to jump into. If we could 
manage these fisheries at the population level, that would 
simplify our tasks substantially. What we have discovered 
empirically is that we cannot successfully do that, so we at 
least have to take something of the ecosystem context into 
account when we develop Fisheries Management Plan.
    Mr. Gilchrest. Thank you.
    Dr. Fluharty?
    Dr. Fluharty. Mr. Chairman, I think what you have said has 
very well-portrayed the set of issues we wrestled with in the 
panel. What you projected is what we would generally term 
``ecosystem management,'' and I think that that is the broad 
context under which a more limited approach which was our focus 
was how do you manage fisheries more ecologically. So that is a 
really a subtask of the broader task that you have put out 
before us. I think there may be--it may be useful to think of 
these in two related actions: one in terms of Magnuson-Stevens 
Act, in terms of the authorities that exist within the 
management councils; and, two, within the context of the Ocean 
Commission that is being established and getting started. I 
think that what you express is really the leading edge and 
would be a great organizing principle for that group is how do 
you bring the watersheds, the marine pollution, the various 
other kinds of activities, as well as the natural dynamics of 
the system into a common management framework. How do we start 
looking at that more holistically across Government? So I would 
suggest there might be two ways to do this, and two vehicles 
that would help us move along as quickly as we can.
    Mr. Gilchrest. Thank you.
    Mr. Hinman?
    Mr. Hinman. Using your Chesapeake Bay example, every 
description I have seen and heard of how a fishery ecosystem 
plan would operate in those kind of situations would begin with 
defining the structure and the composition of the ecosystem and 
mapping out the significant food web which, in this case, would 
include species such as striped bass, menhaden, blue crab, but 
also on the predator level the bluefish and weakfish, and at 
the prey level, the shad. And I think you would find that 
certain solutions would arise out of this. You can do certain 
things, such as be more conservative in the harvest of 
menhaden, do more to restore the runs of shad in the Bay, which 
are an important food source for striped bass, and it is the 
absence of those species and menhaden or the scarcity of 
menhaden that may be increasing the consumption of blue crabs. 
I think you would find that there are ways that you can work 
with that system and actually produce a variety of abundance of 
all of these species in the Bay and provide a lot of benefits 
for most of the users of the Bay. It is not a matter, I don't 
think, of one user over another.
    I think we are in a situation right now where we have 
people saying, ``Let us kill more striped bass so that we can 
kill more blue crabs or we can kill more menhaden or 
whatever,'' this kind of micromanaging the system to produce 
certain yields, levels of yields which is I think bound to 
fail. It is extremely risky, and it is a kind of a 
micromanipulation of an ecosystem that is the opposite of what 
we are talking about. Since this issue was raised by Steve 
earlier, of rebuilding all of these populations, I don't know 
that there is any scientific reason to believe that an 
ecosystem in balance cannot support a variety of species in 
abundance. I think they can, and I think by managing for 
abundance of both predator and prey species, we will have 
healthier populations that will provide those commercial and 
sport, as well as ecological benefits that we are trying to 
achieve.
    Mr. Gilchrest. I guess when we talk about an ecosystem in 
balance, to some extent, each of the species in that ecosystem 
is dynamic and the population goes up and down, depending on 
who is eating who and whatever. So it is really, it is moving, 
and it is dynamic, and it is cyclical. So, when you incorporate 
humans in there, they are the, I would suspect, to a large 
extent, they are the only aspect, since humans are a part of 
the ecosystem, of that ecosystem that is not dynamic. It is 
just steady. You want to catch so many pollock, and so many 
crabs, and so many rockfish, and if your effort is much 
greater, you still need to come out with that certain number in 
order to be financially stable.
    So what type of wrinkle does that pose to the ecosystem 
approach to a very dynamic, natural process?
    Dr. Crowder?
    Dr. Crowder. At least in North Carolina, and I think this 
is true for many fisheries, historically, fishermen were also 
fishing those systems adaptively; that is, they didn't fish 
just in one fishery, they were able to move from one fishery to 
another. And I think, as our fisheries have expanded, we have 
ended up with fisheries that are highly specialized and require 
essentially a single resource, based on the gear and the 
fishing technique, and they have a difficult time, as resources 
come and go, making a move from one to another. It is pretty 
typical for watermen in North Carolina to fish in five or six 
different fisheries. This, of course, requires them to have a 
lot of equipment of different kinds, and so on, to make those 
moves, but they respond to fluctuations in the abundance of 
prey, and that generates lots of problems with being permitted 
and licensed to fish in a variety of different fisheries.
    So it could be that as we managed things toward 
specialization, we put fishermen in the position of requiring a 
stable resource when that is just not physically possible in 
the world that we live in. All of these stocks fluctuate up and 
down naturally, and we can seek to understand that, but if it 
is environmentally driven, we cannot control it. So we have 
economic processes that would like nice, stable yields in a 
world that does not produce nice, stable yields.
    Mr. Gilchrest. Yes, sir?
    Dr. Murawski. Yes, it is certainly the case that fisheries 
can have a tremendously de-stabilizing effect in complex 
ecosystems. In the Northeast, we have seen the effect of 
fishing on the downside because natural fluctuations are 
perturbed even more as fisheries seek to maintain their catch 
rates. And so they tend to basically exert this negative 
feedback on these populations that drive them even farther down 
than they would normally be under sort of a natural cycling.
    One of the things that we have discovered in looking at 
these kinds of systems, both in the real world and in 
computers, is that if the broad array of fish stocks are fished 
at reasonable levels, ecosystems tend to be very resilient. A 
lot of the species that we are talking about are relatively 
long lived, and so even if you have recruitment failure for a 
year or 2 years or 3 years in a row, because you have got a lot 
of older adults in the population, you have the potential to 
pick up the stocks relatively quickly. But if you have 
fisheries that are bouncing around from target to target in a 
system that we call sequential depletion, which is very well-
understood now, that we can destabilize a whole ecosystem in a 
sequential basis, and that makes recovery in these systems much 
more difficult.
    Mr. Gilchrest. Sequential depletion, could you explain 
that?
    Dr. Murawski. Yes. The term basically has been defined 
based on two interesting examples. First of all, back 30 years 
ago, we had large foreign factory fleets show up off the 
Northeast United States, and they bounced around from one 
target to the next because they needed to maintain very high 
catch rates for these large factory ships. And so as they 
depleted haddock, and then cod, and yellowtail and then started 
to move down the food chain, as Pat said, to herring and 
mackerel, we saw the catch rate stay stable, although there was 
a lot of target species shift.
    We have also seen this in the Alaskan fisheries for shell 
fish, where things like shrimp, and crabs, and others, we had a 
mobile fleet that was capable of switching from fishery to 
fishery, and this whole concept is very well-understood now, 
and it argues for a comprehensive effort control across 
fisheries, rather than just simply managing one target species 
in an FMP over here and another one over there, recognizing 
that that effort is very efficient. It can seek new targets 
very effectively.
    Mr. Gilchrest. Unfortunately, we are going to have a series 
of votes, which means we will probably, rather than keep you 
here for a half-hour or 40 minutes doing nothing, and perhaps 
just myself coming back, I have just a couple other quick 
questions. I would like to stay in touch with all of you, 
whether I will come to Alaska the next time, North Carolina or 
whatever.
    In an ecosystem approach, what impact do you suppose we 
might have with exotic species, invasive species? Has that been 
taken into consideration over the past several years with some 
of these projects?
    Dr. Fluharty?
    Dr. Fluharty. I am probably bolder than the scientists who 
really know this topic. But in these discussions with respect 
to marine protected areas and marine ecosystems, an ecosystem 
that is intact, is healthy, is thought, in simple terms, to be 
more resistant to invasion and thus less likely to be invaded--
it doesn't mean it can't be, but it is less likely--you haven't 
created openings within the ecological niches by depleting, 
say, a stock that would allow something to come in.
    I will stop there because that is the limit of my 
knowledge.
    Mr. Gilchrest. There is another comment?
    Dr. Crowder. I would add to that. I think that there is 
increasing evidence from experimental systems, that 
conservationists have worked on in both terrestrial freshwater 
aquatic systems that systems that maintain a high level of 
biodiversity, a broad cross-section of species, are more 
resistant to invasion by nonnative species. And as we modify 
these systems with pollutants, with losses of species or severe 
depletions of species stocks, we actually make them open to 
increasing opportunities for invaders.
    Many of the invasive species that we have causing problems 
now have had many, many opportunities to invade, and didn't 
seem to invade until just recently. So it causes at least some 
concern that its alterations to the systems that we have made 
that, in fact, make them more vulnerable.
    Mr. Gilchrest. It sounds like an ecosystem approach is 
going to be beneficial in a number of ways, including a healthy 
ecosystem which is more resistant and resilient to exotic 
species.
    One other quick question. With all of the complexities that 
we see, that you have mentioned in your testimony, that you 
have seen over the last number of years, Dr. Fluharty, in your 
ecosystem-based fishery management proposal, research document, 
you laid out some specific steps that could be taken by the 
Congress in the authorization of the Magnuson to put in place 
an implementation plan to the councils for an ecosystem 
approach.
    Now, if anybody on the panel has read those steps, would 
you comment on them because they seem to be positive things for 
us to do to put in the Magnuson Act, and do you have any 
reservations about that? I guess we can just lift the language 
right out of the report then.
    Mr. Hinman. Well, I was a member of that panel, and I can 
also point out that a lot of those recommendations were the 
basis for the Marine Fish Conservation Network's 
recommendations to Congress for the Magnuson Act changes, and 
they have also been very influential in everything from the 
Chesapeake Bay Program's approach to multispecies management 
and some of the councils that have undertaken this task. So I 
think there is a broad understanding and support for those 
recommendations as the way to go.
    Mr. Gilchrest. I am sorry. We are a typical Congress day. 
We have a vote. What I would like to do is just turn the chair 
over to Mr. Underwood. Unless somebody has to catch a plane, I 
will be back as fast as I can, and Mr. Underwood can continue 
the line of questioning.
    Thank you.
    Mr. Underwood. [Presiding] Thank you, Mr. Chairman. Since I 
am a little out of the flow of the questions, let me just, as a 
general question, Dr. Fluharty, you mentioned in your testimony 
or you made the analogy that Congress could be the coach for 
ecosystems management. How directive do you want this ``coach'' 
to be? Do you want them to be more a manager?
    Dr. Fluharty. Mr. Underwood, I think that this follows 
directly along the line that we were pursuing with the Chairman 
concerning just what steps could Congress do. I think that the 
steps we outlined might be seen as timid by some people who 
would like to see us move much more quickly, but the Committee 
or the panel talked about this quite a bit and felt like this 
was pretty much a sure-fire way, that these are things we could 
actually get moving on over a period of years.
    The key element of that, as I tried to emphasize, is the 
National Marine Fisheries Service, the councils, the 
environmental groups that work with us and the industry groups 
that work with us all are very much overloaded with 
implementation of the issues that have been brought before us 
by the Sustainable Fisheries Act. This is rightly so. I am not 
whining. I think that we are headed in the right direction and 
doing the right kinds of things. But I think, as we add more 
tasks, as the coach might say we are going to raise the bar 
higher, we need to recognize the need to really either get some 
new recruits in to help with the effort or to provide more 
resources so that we can actually, have the energy to be 
innovative and to get on with the task.
    Mr. Underwood. Well, Dr. Hogarth, do you have a response to 
that?
    Dr. Hogarth. I think I just would echo what Dr. Fluharty 
said. The 1996 amendments to the Magnuson-Stevens Act put great 
expectations on the Agency. The manpower and dollars to get the 
work done were not there. I think that is one of the reasons we 
are paying the price today with many lawsuits, and the other 
thing we have is that we have a tremendous increase in what we 
should be doing and really not have the means to get it done.
    Looking here at what is recommended, I do not think the 
Agency has any reservation of undertaking ecosystem-based 
management. If you look at some of the requirements, with 900 
species or so to deal with and 540 of those whose status is 
unknown, implementing this system into law would create, I 
think, a tremendous backlash from industry, in terms of 
additional lawsuits, questions about having a lot more vessels, 
or the need to have a lot more people to really gather 
necessary data.
    I don't think any of us are fighting ecosystem-based 
management. I think it depends on how much you would put into 
law that has to be an impact on the Agency.
    Mr. Underwood. So has the Agency considered costing out 
what some of these recommendations might entail?
    Dr. Hogarth. We are in the process of that now. I don't 
know if you heard me say we are going to have a workshop this 
fall to try to outline more of the system requirements, what 
would it take the Agency to implement the system, what would be 
the cost, and what would be the best way to go.
    For example, the coral reef ecosystem plan that we are 
developing in Hawaii right now, costs us about $1 million, with 
consultants and others just to write the plan. That dollar 
figure for the number of ecosystem plans we would be doing, in 
that district, includes writing the plan. It doesn't include 
having all of the data or filling in all of the holes that you 
have.
    The Groundfish Ecosystem Plan that Alaska prepared is about 
a 3,600-page document that still has holes in it. People are 
getting answers about now, and developing more definite 
alternatives, especially alternatives for management.
    I don't want to sound negative because I am not negative. 
What I am trying to say is it is a tremendous amount of work. 
It is going to take a lot of additional data to do these plans 
and do them properly so that you do not have the Agency back in 
court trying to defend the plan. My concern is that we have got 
to have the resources if we want to go to this process.
    We are going to try to work on this in the Agency. We are 
trying to do it now. We have several plans that we are working 
on to see how it works, but it has not been an easy process. It 
has not been a cheap process, and we have lots of holes that we 
need to fill.
    Mr. Underwood. I think the appropriate response to that, 
Dr. Hogarth, would be to see some resource statements about 
what the costs would entail, what the costs would be to 
implement some of these recommendations.
    Yes, sir, you had a comment? I am sorry. I cannot see your 
nameplate.
    Okay. Mr. Hinman?
    Mr. Hinman. In answer to your question of how directive 
Congress should be on this issue, I have a couple of comments.
    First of all, I think Congress clearly has to do a lot more 
than just say to fishery managers, ``Consider ecological 
relationships, consider the effects on ecosystems.'' I think 
those are the kind of soft mandates that our experience has 
shown really do not produce results. They are akin to saying, 
``Prevent overfishing. Minimize bycatch.'' And I think in both 
those cases, when there is an absence of some kind of directive 
of how to do that or some kind of goals or standards that are 
set attached to them or some kind of prescriptive measures, 
very little is done in either case. That was the case with 
preventing overfishing for 20 years. Now things are starting to 
change because some prescriptive things have been put in there, 
some ways of holding them accountable.
    Minimize bycatch. I do not think a lot is happening, and I 
think it is because that is pretty much as far as the act has 
gone. So if you do that with the ecosystems approach, I think 
that will be the result; (A) that very little will be done; or 
(B) things will be done, but it will be in an uncoordinated or 
piecemeal manner or, possibly, in an improper manner.
    I think what Congress has to do is put some requirements in 
the act, and it has to require that the Councils look at these 
issues and go through a process to show, to demonstrate that 
they have looked at the issues of what information is available 
and give them some kind of guidance on how they are to consider 
these things, how they are to weigh them. And I think both 
those things can be done in the Magnuson Act and should be 
done.
    I think that guidance is what people have talked about, in 
terms of putting together some kind of FEP, demonstration FEP, 
and I am glad to hear that the National Marine Fisheries 
Service is beginning to look at what kind of guidance they can 
give the managers. But if you do not give the managers that 
kind of guidance, I think we are going to continue on the path 
we are on right now, and I think decisions will not be very 
well-educated and well-informed.
    And worse, I think, from Congress's standpoint and from a 
political standpoint, we have, as I said in my testimony, 
decisions being affected by these kinds of perceptions of what 
people think is going on, and they are demanding some kind of 
action. And if we do not have a very established process for 
dealing with that, where we show people what information was 
considered, the things that happen or the things that are done 
are not going to be very credible either to fishermen or the 
public, and those problems will continue, and people won't have 
much faith in the fisheries management system, as it gets into 
those issues, as it must.
    And one last point. The Advisory Panel's report does 
recommend that we do this through an incremental strategy, and 
tries to stress that we should not be overwhelmed by the 
enormity of the task or the amount of information we need, but 
that there are certain things that can be done, and we should 
begin doing things where we have information available and 
where we can recognize what kind of relationships are going on 
and what the impacts are. And we can begin doing those things 
in some fisheries right now, rather than waiting until we have 
the resources to collect all of the information to cover every 
aspect of the ecosystem, which will not happen in our lifetime.
    Mr. Underwood. Thank you for that.
    Dr. Murawski?
    Dr. Murawski. Yes. To your question about developing 
resources in order to do the job, the Agency has developed a 
document called the ``Stock Assessment Improvement Plan,'' and 
this is in reaction to a National Research Council study to 
improve stock assessment. The strategy that we have been 
pushing forward is a three-tier strategy to, one, fully analyze 
the data that we already have collected; two, improve the basic 
data collection that we do to support the FMPs, as they are 
currently constructed, and that would include better observer 
coverage, more fishery independent surveys, and better 
fisheries landings data; and a third tier is to extend these 
stock assessments into the ecosystem realm, where we start to 
better study the fishery interactions, et cetera.
    Certainly this is an expensive proposition and one that we 
see as an incremental proposition. As was stated before, this 
kind of enterprise doesn't necessarily throw out the basic data 
that we need. It really just adds to it, and we see this as our 
vehicle to improve the ecosystem basis for management.
    Mr. Underwood. Dr. Fluharty?
    Dr. Fluharty. Mr. Underwood, as part of the incremental 
approach that Ken was mentioning that we, the panel, 
recommended, if we look at the thrust right now, in terms of 
both litigation and Agency effort, to become NEPA compliant, if 
we look at the implementation of essential fish habitat, and 
particularly the habitat areas of particular concern and the 
fishing effects components of that, these are all major 
activities that involve councils, and the National Marine 
Fisheries Service, and users, as well, and environmental 
organizations.
    If we think of that in terms of providing the building 
blocks that we are going to need for ecosystem-based fishery 
management, basically, looking at sort of what we are doing, 
but recognizing the significance of those activities right now, 
I think that that is a really good start for the Fisheries 
Ecosystem Plan. Even just looking at what is being done as we 
go more consciously, in an ecosystem context, is the kind of 
thing that really provides some legs to this concept.
    Mr. Underwood. I am getting the sense, and correct me if I 
am wrong, I am getting the sense that part of the difficulty in 
trying to perhaps ensure public confidence, and this is one we 
are constantly assessing, and that is a normal part of the 
process, and now we are positing, trying to implement this 
ecosystem management plan, and now we are talking about in 
terms of implementing it incrementally. What do we mean by 
incrementally? I mean, what is the time frame that we are 
hoping to give to this?
    Dr. Fluharty. Mr. Underwood, I guess I would say that I 
would see a time frame, and this is my perspective alone, of 2 
to 3 years, where we, through various workshops, programs, 
bringing ourselves up to speed on essential fish habitat, 
especially fishing effects, totally implementing the 
Sustainable Fisheries Act, and further refining the concept of 
ecosystem-based fishery management and building a better 
concept of the fishery ecosystem plan, we would be in a 
position where we would have the wherewithal to get moving.
    This doesn't mean that I am suggesting we wait until then 
to start using the information we have, and I don't think that 
will happen. But it is, in terms of a process, I think we have 
got about 3 years of ramping up on this and then a year or two 
of finalizing the concept and getting it into regulations so 
that, people can know what to expect.
    That would be my perspective. I expect others may have 
ideas.
    Mr. Underwood. Yes, sir?
    Dr. Crowder. Thank you, Mr. Underwood.
    I agree with Dr. Murawski that there is an awful lot of 
data that has been collected about these ecosystems and a lot 
of understanding with these ecosystems not only with Government 
agencies, but within oceanographic institutions and the 
academic institutions that have cooperated. Under GLOBEC and 
under the NOAA Coastal Ocean Program, there have been very 
useful programs of collaboration across academic/Government 
boundaries--we are trying to make them bridges--so that we 
don't have to start over collecting a bunch of new information. 
We need to look at the information we have got and figure out 
what the critical holes are that need to be filled.
    So I think that, in addition to the resources that are 
available through Government, there are ample resources in the 
U.S., through the oceanographic institutions, to contribute to 
these issues.
    Mr. Underwood. Anyone else?
    Mr. Hinman?
    Mr. Hinman. Yes. It is hard to say exactly how long it 
would take to put together a fishery ecosystem plan, whether it 
is a couple of years. I think, as soon as--as Larry just said--
as soon as we start trying to put together these plans to 
gather and synthesize this information, I think people are 
going to discover that there is a lot more information, and we 
know a lot more than we may think we do, which I think would 
probably lead to being able to put it into implementation 
sooner, rather than later. But I think part of the incremental 
strategy, I firmly believe that a requirement of taking into 
consideration some of the significant predator-prey 
relationships is something that needs to be in the 
reauthorization, and I think they are things that can be done 
right now, that can be done even before a fishery ecosystem 
plan is completed. We do know of some very significant 
relationships among predators and prey that are being 
harvested, being caught at very significant levels, and that we 
have gathered tremendous amounts of information on over the 
years.
    Some of the examples we have talked about today, we were 
talking about them because there is a tremendous amount of 
information. So I think those things don't have to wait at all. 
Fishery ecosystem plans will take probably a couple of years to 
put together, but again I think we will find, as we do that, 
that we know a lot more than we think we do and that we can do 
a lot more than some people think, sooner than we think.
    Mr. Underwood. Dr. Hogarth?
    Dr. Hogarth. Just one last point, one of the other 
considerations is the human considerations in this effort. We 
are in a need for a lot of social economic-type data, and the 
impacts on communities and all, not only the biological 
impacts, but you are going to have to look at communities, the 
socioeconomic effects. That is the type of data that we, in the 
Agency need, but have had a lack of funding for a number of 
years, and I think it is one of the critical issues.
    The second thing is that our workshop will look at the 
process for ecosystem management. If we can develop a process 
or a model, so to speak, that we will use for these type plans, 
then I think that you could focus more on the type of data 
needed, the assumptions necessary, and this type of thing. It 
will focus the discussion a little more once we can come to an 
agreement on the process or a model on how these plans will be 
done. That is what we want our workshop to focus on this fall.
    Mr. Underwood. Explain what you mean by socioeconomic data.
    Dr. Hogarth. Well, you have to know what the fishery and 
the value of some of the ecosystems from a fishery standpoint; 
if it is whale watching or if it is, the whole ecosystem in 
terms of the economics, the social aspects of the ecosystem and 
what impacts of management would be. When you look at the 
ecosystem, you are looking at it, from a management standpoint, 
of all the uses, including fisheries, but also the other uses.
    Mr. Underwood. Okay. Dr. Fluharty, under this ecosystem-
based fishery management, when you prepared this report, what 
elements of it were perceived in the final recommendations you 
made as perhaps the most controversial or what elements did you 
leave out, as well, that people wanted?
    Dr. Fluharty. I think that some of the discussion today 
reflects the sort of underlying concerns that we had. As 
scientists, as managers, and as economists who were involved in 
putting this report together, I think there was a real interest 
in moving this concept ahead. The question was how quickly 
could we do it and what were the best methods? And we gave our 
best shot at that.
    And so I think that, clearly, there were people that wanted 
us to move to, as Ken has suggested, to a much more enforceable 
and action-oriented Fishery Ecosystem Plan. I mean, what would 
the plan be, what kinds of management actions would flow from 
that document? We adopted a somewhat more conservative 
incremental implementation approach, knowing that it is going 
to take some while to gather information together to get people 
up to speed, understanding there is a lot of education that 
needs to go on throughout the fishery management process.
    I think, if there was any controversy, that might have been 
it. I think another area where we struggled quite a bit was on 
how to discuss marine protected areas and what were their roles 
in fishery management. Clearly, fishery management has a wide 
variety of what are generally termed ``marine protected 
areas,'' but they are not fully protected areas or no take 
areas.
    And so these were some of the dynamics that were here, and 
our approach emphasized the fact that fishery managers already 
are using, already are putting marine protected areas together 
in large areas like Georges Bank in the North Pacific where you 
have no trawl zones to protect habitat or to achieve different 
kinds of things. But other people looking at that say, well, 
you still allow some fisheries to take place in there. 
Therefore, they don't count. Well, scientifically, they mean a 
huge amount and really solve some of the major problems where 
we have threats.
    So just about every debate I am sure you had been brought 
into on this Committee relative to fisheries was hashed out--
    Mr. Underwood. Part of the discussion.
    Dr. Fluharty. --in this discussion.
    Mr. Hinman. Even ITQs came up.
    Mr. Underwood. Pardon me?
    Mr. Hinman. Even ITQs.
    Can I add something to that?
    Mr. Underwood. Sure, a couple of comments and then--go 
ahead.
    Mr. Hinman. Yes, I agree with Dave that we were trying to 
strike a balance between how action oriented the recommendation 
should be and being a little bit more conservative on that and 
recognizing a lot of the information needs.
    One area that was not necessarily controversial, but we 
really didn't get that far into because our mandate was to look 
for changes under the Magnuson-Stevens Act was this sort of 
interjurisdictional ecosystem of institutions that are under a 
lot of different Federal laws. For example, a lot of the 
species in the ecosystems that we are going to be mapping out 
in Fishery Ecosystem Plans are managed by other laws, such as 
the Marine Mammal Protection Act, the Endangered Species Act, 
interstate compacts and other things.
    There was some discussion about eventually needing to 
somehow harmonize our ecosystem objectives and considerations 
among these various different Federal laws because they are all 
going to impact things. Once you get into the habitat issue, 
you get into a whole bunch of other laws and agencies, and it 
becomes pretty, the word ``daunting'' comes up again, but I 
think that was one thing that we did look at. And I think some 
of them are more compelling than others, some of the marine 
wildlife issues that we need to harmonize that because we have 
fisheries issues that are now bumping up against Endangered 
Species Act issues and the Marine Mammal Act issues, and I 
think those will become even more focused as we get into the 
ecosystem context, and that will have to be dealt with.
    Mr. Underwood. Dr. Murawski?
    Dr. Murawski. You would think, from the witnesses' 
testimony here this morning, that this is rather 
noncontroversial in terms of implementing--
    Mr. Underwood. I don't think so.
    Dr. Murawski. --Fishery Ecosystem Plans as a tier on the 
way we currently do business. If we look at the broader issue, 
there is a large dichotomy in people's approach to this issue. 
Some would have us scrap fishery management the way we do it 
now and go with a broad and ill-defined ecosystem basis for 
managing fisheries, recognizing or at least stipulating that 
what we are doing is a failed paradigm.
    Most of us in the business feel that conservative single-
species management is the foundation that would improve stocks, 
that would buffer against unanticipated changes in the 
ecosystem, and it is really far along the line. We feel that 
this approach gives us a foot in the door, with a lot of the 
mechanisms that we do know work, that can recover depleted 
species, in most cases, and move forward. But I wouldn't 
discount the controversy, particularly among some of the groups 
that are out there, that this is not the way to go.
    Mr. Underwood. Thank you for those remarks.
    We will stand in recess until the return of the chair.
    Thank you.
    [Recess.]
    Mr. Gilchrest. [Presiding] The Subcommittee will come back 
to order.
    We appreciate your patience, and I also want to thank Mr. 
Underwood for continuing the hearing. It seems as if the most 
productive time during any hearing is the recess time.
    [Laughter.]
    Mr. Gilchrest. But I guess it is not always that people 
have an opportunity to discuss these critical issues with other 
people from different parts of the country. And when they do 
so, it provides a great benefit.
    I, also, want to thank all of you for waiting and being 
patient with us. I had just a few more questions to finish up 
with.
    Dr. Hogarth, in this Chesapeake Bay NOAA ecosystem 
approach, could you tell me who the collaborative partners are 
in this.
    Dr. Hogarth. Judith Freeman is here.
    Mr. Gilchrest. Judith just stepped out.
    Dr. Hogarth. We will get them right now; Peter Hill is 
here.
    Mr. Gilchrest. That is fine, Dr. Hogarth.
    Dr. Hogarth. If not, we will get those to you. I don't know 
all of them, but, yes, I know EPA is involved, but we will get 
it to you.
    Mr. Gilchrest. Thank you. The Chesapeake Bay NOAA Office is 
that a, the ongoing effort to gather data to an ecosystem 
approach then is contained within the Chesapeake Bay proper, 
the Chesapeake Bay fisheries itself, and not outside the 
Chesapeake Bay?
    Dr. Hogarth. There are some outside the Bay, yes, sir.
    Mr. Gilchrest. And would that have an impact or could that 
have an impact, and is there any collaboration with the Mid-
Atlantic Fisheries Council on that program?
    Dr. Hogarth. I am not sure at this point. I will have to 
take a look at that. I know we are looking at some of the 
species that migrate in and out of the Bay. I don't know what 
we are working with the Council itself or just the Mid-Atlantic 
States.
    Mr. Gilchrest. We will wait until Judith comes back. Thank 
you.
    Ms. Livingston, could you give us some idea of what you 
see--to me, and perhaps to all of you, as well, would you agree 
that we are at the very early stages of two things: 
understanding how to create a Fishery Ecosystem Plan and then, 
once you had the scientific data or ongoing understanding of 
how it all works, what would you say the difficulties of that 
would be for us to appropriately place language in the 
reauthorization bill so that a management council would then be 
required to proceed with those steps to implement this umbrella 
of a Fishery Ecosystem Plan that we are talking about, upon 
which information would be drawn for a Fisheries Management 
Plan?
    Ms. Livingston. Mr. Chairman, I think we have somewhat of a 
grasp on what is involved in producing a Fishery Ecosystem 
Plan, as outlined by the Advisory Principles group.
    As I mentioned in my testimony, we have struggled with that 
in the last year, although we didn't use the term ``FEP.'' What 
we did with our last Groundfish SEIS is clear that we did a lot 
of the work that would be required under an FEP.
    In listening to Mr. Hinman's recommendation that the 
Magnuson Act be amended to include consideration of predatory-
prey interactions sounds very good, but when we look at what we 
have done so far in our work, trying to develop indicators that 
look at how we are performing in terms of protecting forage 
species, what we are doing with top-level predators, it is very 
difficult to say what we should do with it in a quantitative 
way. I would say that is the biggest difficulty. How much is 
enough? And if there is some way to put it in a framework, that 
would be the most useful because I would say we still have a 
very big lack of scientific knowledge about how much is enough.
    Mr. Gilchrest. You are saying if, when we reauthorize the 
Magnuson Act, we create a framework to move in a direction of 
ecosystem management, with each council having a clear 
direction to go in, but then enough flexibility to deal with 
all of the various variables, could you give us some idea, from 
your perspective, if and when we move in this direction to give 
some framework to ecosystem management approaches, to do it 
effectively, as some of you mentioned about the backlog of 
compliance with existing regulation, and part of that is not 
enough data, part of that is not enough people collecting that 
data and so forth, what would it take, you know, from being on 
the Council and you want to pursue this new adventure, what 
would it take?
    Ms. Livingston. Well, we have heard two things of what it 
would take. It would take the manpower to come into compliance, 
to do the Environmental Impact Statements on EFH, to have the 
other regions do, as we did with our programmatic EISs, to look 
very comprehensively at that. That takes a lot of manpower. 
When I look at what we did last year, we nearly burned 
ourselves out trying to do that. So that is one aspect.
    Mr. Gilchrest. On the North Pacific Management Council you 
need manpower to continue to pursue this.
    Ms. Livingston. On the Council and at NMFS.
    Mr. Gilchrest. What does that mean--five people with 
certain degrees, ten people with certain experiences?
    Ms. Livingston. I would have to get back to you on the 
exact numbers. I haven't computed that. But given that we have 
the EFH EIS, and I know that on the Council itself a lot of 
action has been stopped, at the moment, on a lot of our habitat 
issues and other things because staff have been so busy with 
other things.
    Mr. Gilchrest. So, besides manpower then, what was the next 
thing?
    Dr. Hogarth. One aspect is the manpower at NMFS and on the 
Councils to deal with doing these comprehensive assessments; 
and the next is, as Dr. Murawski talked about, the research 
aspects that are outlined in the NMFS Stock Assessment 
Improvement Plan. There are some dollar amounts and manpower 
associated with that in the plan itself.
    Mr. Gilchrest. Dr. Hogarth, is that a quantifiable number 
that we could get from the councils--the manpower to pursue the 
process of an ecosystem approach, what is necessary to complete 
the implementation of the backlog of existing regulations, and 
then what each council would need in terms of scientific 
expertise? Is that something that we could actually see? When 
we implement this into our amendment, it would be helpful to us 
if we could say we need ``X'' number of dollars to do this 
appropriately, and here is where those ``X'' number of dollars 
are going to be spent?
    Dr. Hogarth. Yes, I think we can develop estimates of that. 
That is what we are planning to do internally. We have not 
dealt totally with the councils yet. We are dealing internally, 
but that would then translate to the councils. But if you give 
us a time frame, we will try to get it done.
    Mr. Gilchrest. Let us see, what is Monday's date?
    [Laughter.]
    Dr. Hogarth. A little bit more realistic--
    Mr. Gilchrest. A couple more weeks. We will meet down at 
Barrent Island and plant some more marsh grass.
    Dr. Hogarth. That would be great. That was fun.
    We are in the process of doing this. We are looking at the 
existing problems we have in NEPA and trying to resolve that, 
and we are meeting with the councils at the end of July, so we 
are looking at existing problems.
    Mr. Gilchrest. Dr. Fluharty, is that something you think 
can be--can you establish a number where you would have people 
doing ecosystem approach? What does it take to take care of the 
existing backlog? Because I would assume that that backlog of 
implementation of existing regulations has, I would guess, a 
negative impact on the whole picture of the council.
    Dr. Fluharty. Mr. Chairman, that is correct. I think it has 
a number of effects. I have heard staff talking to us in the 
North Pacific about the Sustainable Fisheries Act essentially 
tripling the workload. If you look at numbers keying off that, 
and dollars keying off of that, that is pretty substantial, but 
I don't think that is entirely out of the question. In part, 
that is why we proposed a more incremental approach to this.
    One of the things in the council and NMFS process we found 
to be extremely effective is the fact that, particularly where 
you are integrating across these things, you are using existing 
personnel who have specific expertise to contribute to a joint 
project. So it is not always just a new position here or there, 
although you could conceive of it: If each council had or each 
region had a Fishery Ecosystem Plan coordinator whose job it 
was to bring everyone together and work on this, that would be 
a big help.
    This would be just bringing together the information that 
we do have available, not going out and doing additional 
research. I think that the additional research, we have some 
good understanding of what that needs to do, but again it is 
integrated across everything that the Agency and the councils 
are currently involved in. So I would certainly defer to Dr. 
Hogarth and the people here in terms of how you actually think 
of this, in terms of the management institutions. But I suspect 
that the number is daunting, as well, and I think that that is 
realistic, in terms of what we want to do in the marine 
environment.
    And I think you, in your leadership role, have seen that we 
are far behind what is going on in the terrestrial environment, 
in terms of really understanding what it is that needs to be 
done and developing the institutions to accomplish that. So 
there is a tremendous opportunity and need for moving in these 
kinds of directions.
    Mr. Gilchrest. Dr. Fluharty, you are suggesting that each 
council would have a possible designated position referred to 
as an ecosystem coordinator?
    Dr. Fluharty. I could see it at the council level, but I am 
also concerned, and this is why, you know, I would benefit from 
discussions with others. Since this is an ecosystem-based and 
scientifically-based concept, much of the work takes place in 
the science centers of the National Marine Fisheries Service, 
as well as with partner agencies, the various States who are 
members of council areas, and tribes and others that are 
involved. So there is a tremendous effort here, and I am not 
sure where I would necessarily think the best place to put such 
a coordinator would be, but I could see a regional coordinator 
position would be extremely valuable.
    Mr. Gilchrest. On each council.
    Dr. Fluharty. At a minimum, yes, and probably one for the 
highly migratory species billfish area as well. That is a much 
different type of ecosystem concern, but I could see that very 
easily, as necessary.
    Mr. Gilchrest. Dr. Hogarth, does that look like something 
that is feasible?
    Dr. Hogarth. I would say I think we can make the estimate. 
They will be somewhat ballpark.
    The other thing we have got to be concerned about is the 
State's involvement. For example, summer flounder, we need to 
look at the problems we have had with summer flounder. When you 
get into ecosystem management of summer flounder, you have a 
number of states involved. We would have to make sure they were 
brought into the fold to work with us.
    I think we can give you an estimate of what it takes. And I 
think, as Dr. Fluharty said, we have already done some work 
internally. It is some large number of people and dollars. It 
is something we have discussed. We have not put it on paper 
yet, but we have discussed it and looked at estimates of the 
cost of the projects. Because we were trying to figure out how 
to implement a system, we may take it in stages that Steve was 
talking about earlier this morning, how we would implement it 
in stages on a trial basis and this type of thing.
    Mr. Gilchrest. Well, we will do everything we can up here 
to inform our colleagues of the importance and, to some extent, 
the sense of relative urgency. Everything is urgent up here, 
but it would be useful for us to understand the picture of 
ecosystem management as clearly as possible, from all its 
varied aspects, so that if we were going to implement this in 
stages, we would make sure that that was done in a fashion that 
moved us in the right direction with reasonable appropriations 
as quickly as possible.
    Dr. Hogarth, you mentioned the states, and if I could, 
since he is in the room, I am going to paraphrase something 
Jack Dunnigan said I think it was last week or the week before, 
and he certainly can stand up if I am missing the mark, but we 
did have a brief discussion about menhaden, and crabs, and 
rockfish at the previous hearing from the gentleman from North 
Carolina. And Jack, I thought, gave a pretty good answer in 
that he said that there were many more interested parties in 
menhaden than there used to be, and as a result of that, the 
regime for managing that species had changed, but it was not 
for some particular political purpose.
    But then I think Jack Dunnigan made a comment, in reference 
to ecosystem management, that he said the Atlantic State Marine 
Fisheries Commission needs some clear direction as to which way 
we are going, and so what we are trying to do at this hearing 
is to give people some idea as to the direction we would like 
to go in, and one of those directions will be to understand how 
to incorporate an ecosystem management approach to our 
fisheries.
    I was handed a question here. Oh, okay.
    Dr. Hogarth?
    Dr. Hogarth. I do have an answer for you on the people that 
are working on the FEP. There are representatives from the 
Maryland Department of Natural Resources, the Virginia 
Institute of Marine Science, University of Maryland, Chesapeake 
Biological Labs, and the Academy of Natural Sciences, Maryland 
Sea Grant, United States Marine Fishery Commission, the U.S. 
Geological Survey, the Mid-Atlantic Council and the South 
Atlantic Councils. And Judith Freeman just told me we have a 
lot of scientists who have given us time, devoting time to work 
with it that no one is paying for. It is just an undertaking 
they are doing, and NOAA is not paying them for it. They are 
just giving their time to help with the process.
    Mr. Gilchrest. Thank you very much. We would like to come 
down and visit on a somewhat regular basis to see the progress.
    Can you have an ecosystem management approach to highly 
migratory species?
    Mr. Hinman?
    Mr. Hinman. Well, since that question sort of crosses over 
two issues I spend most of my time on, I hope I have an answer.
    Yes. In our written testimony, we pointed out that two of 
the issues that are on the table right now in front of managers 
that are ecosystem issues, predator-prey issues, involve highly 
migratory species. We have to take a look at the fact that we 
have a whole tier at the top of the food chain, our large 
pelagic fish, that are some of our most overfished species. 
About a fifth of the species on our list of overfished species 
in the United States are highly migratory species--coastal 
sharks, big tunas, big-eye and bluefin, swordfish and both 
marlins, and this can have dire biological consequences on the 
ecosystem. We have taken out so many of those fish from that 
part of the food web.
    As a number of studies have shown, and something that Dr. 
Peter Larkin and some others have published on, is the belief 
that actually removing the predator is going to cause more 
enduring damage to an ecosystem than removing some of the prey 
species because the predators are less responsive, because they 
are longer lived, slower growing. They are less quickly 
responsive to changes in the environment, openings of niches 
because of competitors being overfished or changes of 
availability of prey. So I think this is a big concern.
    I am answering the question I guess that, yes, we 
definitely should consider and should be applying the ecosystem 
approach to highly migratory species. So should the related 
concern that so many of these species are now the object of 
rebuilding plans, both national and international plans, and 
that we have a lot of their forage species that we are 
increasing our harvest of--squid, herring, mackerel. And those 
catches have gone up tremendously in the 1990's, and we are 
still allowing them, as of decisions being made right now at 
the council level, allowing those catches to increase even 
more, but we are not considering whether that food source is 
going to be out there on the shelf for the returning 
populations of pelagic species.
    I guess you are getting into the question for highly 
migratory species, can we do ecosystem management on an 
international level? And that is the institutional question. We 
can't effect that, I don't think, through the Magnuson Act, 
except to the extent that we can require a Fishery Ecosystem 
Plan to be developed by the U.S., by the National Marine 
Fisheries Service, HMS Division, looking at all of these issues 
I have been talking about, and others, and trying to map out 
those significant relationships within the highly migratory 
species community, as well as their important forage species, 
and make recommendations on what kind of actions we should be 
taking, and then they could become the basis of both domestic 
actions, as well as U.S. positions when negotiating 
international treaties.
    Mr. Gilchrest. I guess this sounds like something that 
would be, at least as far as the Magnuson Act was concerned, 
appropriate for an ecosystem manager at each council on a 
collaborative effort between the other councils and the State 
associations, and on an international arena would have to be 
obviously an international agreement for an international 
treaty.
    But I guess if we moved in that direction, and the data was 
collected and the U.S. took a leadership role in it, it would 
be more easily understood and possibly accepted.
    Dr. Murawski?
    Dr. Murawski. I think your question, in an ironic way, 
applies equally to the Chesapeake Bay. We had a scoping meeting 
that Judith and her colleagues put together several years ago, 
and we talked about the first question of what are the 
boundaries of the Chesapeake Bay? And we came to the 
conclusion, obviously, that you had to include the migratory 
predators in the system, and so that it rapidly extends its 
boundaries out.
    Now, large marine predators like the top predators have 
wide boundaries. They cross across defined ecosystems. But as 
Ken Hinman said, the failure to include them as actors in the 
ecosystem leaves a big hole in what we are doing. So we 
obviously need to be flexible in those definitions of 
boundaries.
    Mr. Gilchrest. Thank you.
    I have just one more question. In some areas in the United 
States, where States or regions are trying to protect wildlife 
habitat, they have conservation corridors between one hub to 
another hub in which the ideal situation is the wildlife, when 
they are going from one acreage to another acreage, they will 
have a path to travel through.
    Is there a mirrored concept, a similar concept in the 
oceans, where you can have corridors maybe connecting marine 
protected areas to another marine protected area, and is that 
something of a consideration now or down the road with 
ecosystem management?
    Yes, sir?
    Dr. Crowder. Yes. Both the Marine Conservation Biology 
Institute and the National Resources Defense Council have 
sponsored workshops within the last year to look at corridors. 
And we have been talking about resource species, but many of 
the protected species, the sea turtles, for example, undergo 
extremely wide migrations. And what we have been trying to do 
is put together what we know about the habitat they use at 
various stages in their life history, what their annual 
migration patterns look like, in an effort to string together 
that kind of protection.
    We need to know where the organisms are at particular 
seasons and which fisheries they interact with as they are 
moving around those systems. So I think people in marine 
fisheries, marine conservation, are starting to think about 
those issues, and we do have some information on which to base 
some preliminary estimates. I think there is an NRDC report out 
just recently that deals with the Atlantic coast that involved 
the input of 20 or 30 experts on different taxon groups about 
which portions of the Atlantic coastline might be appropriate 
to consider for some sort of protection, and one of the issues 
was migratory species.
    Mr. Gilchrest. Dr. Hogarth?
    Dr. Hogarth. Judith is back, but she just passed me a note, 
and she may want to follow up on this, but she said in the 
Chesapeake Bay they are using a corridor-type management for 
blue crabs to protect the females move from one area to the 
other.
    Mr. Gilchrest. So the corridor for blue crabs is an area 
set aside--
    Dr. Hogarth. So that the females could, yes, move on--
    Mr. Gilchrest. So that is an area that you can't fish in.
    Dr. Hogarth. Right.
    Mr. Gilchrest. You can't catch the blue crabs in.
    Dr. Hogarth. Right.
    Mr. Gilchrest. And that goes down through Virginia?
    Ms. Freeman. It is in Virginia.
    Mr. Gilchrest. It is in Virginia.
    Ms. Freeman. Yes. It is in effect during certain times of 
the year, but the intention has been described as a protected 
corridor.
    Mr. Gilchrest. That is great.
    I have a few more. I think they are a little bit, they are 
ecological questions, El Nino, El Nina, climate change, that 
kind of thing, but I think, through conservations you have 
stated here, I think the obvious answer to a question about El 
Nino is that it is going to have a, depending on the size of 
the El Nino, a smaller, dramatic effect on a particular species 
or a number of species.
    Yes, sir?
    Dr. Fluharty. Excuse me, Mr. Chairman. I know you didn't 
ask that as a question, but I happen to be involved with some 
work in the North Pacific, and this whole concept of El Nino, 
La Nina, Pacific Decadal Oscillation (PDO), longer term 
fluctuations, are very relevant to understanding what is going 
on in the ecosystem, and it is an area where, for example, in 
the North Pacific, are we looking at a decline in Steller sea 
lion populations that it is mediated, to a large extent, as an 
alternative equilibrium state or Steller sea lions, because of 
change in the ecosystem, and a fair amount of study has been 
put into this, and it is a major contributor to what is 
actually going on. So you are right on, in terms of the kinds 
of things that would have to be taken into account in the 
ecosystem-based approach.
    Salmon management in the North Pacific, you have a very 
strong North-South signal in Nino years and with the Pacific 
(Inter)Decadal Oscillation, where you have an inverse 
production regime between Washington State, and Oregon, and 
California versus Alaska. So, when things are really bad in 
Western Oregon and California, as they have been for the last 
20 years, they have been extremely good, i.e., world record 
catches of salmon in Alaska.
    This inverse regime may be breaking down now. We may be 
seeing some recoveries along the Pacific Coast, Columbia River 
stocks, that is related to this shift. So there is a lot to be 
understood, and it really does need to be brought into the 
fishery management context and is being brought in, in the 
Pacific setting.
    Mr. Gilchrest. A reduction in the stock of salmon in 
Washington and Oregon, I know there are a lot of human factors 
there, but part of that is related to the warmer water?
    Dr. Fluharty. Yes, sir.
    Mr. Gilchrest. And then the warmer water is now beginning 
to move into the Alaskan waters, and so that is having some 
effect on Alaskan salmon stock?
    Dr. Fluharty. Just the opposite. The warmer waters moving 
farther North give a productivity boost in the Northern areas. 
When it gets colder, that changes things. It helps us down in 
Western Oregon and California, where we get certain kinds of 
up-welling conditions that bring colder, more productive water, 
down off our shores, a bit more suitable for, thus, survival of 
some--
    Mr. Gilchrest. You are saying the warmer water in Alaska?
    Dr. Fluharty. It is relatively warmer.
    Mr. Gilchrest. Relatively warmer.
    Dr. Fluharty. A degree or two.
    Mr. Gilchrest. Oh, I see.
    Dr. Fluharty. A degree or two warmer water in Alaska seems 
to be associated with some pretty major regime shifts.
    Mr. Gilchrest. Has El Nino affected or, I have heard a lot 
of different things about Steller sea lions, one of which is 
because of the change of temperature in the North Pacific in 
and around Alaska, the pollock population has been diminished, 
and therefore the Steller sea lions have not had enough to eat. 
In other words, the Steller sea lion food source has been 
diminished because of the change in water temperature.
    Dr. Fluharty. Mr. Chairman, I am not sure where you got 
that information, but we have--
    Mr. Gilchrest. Oh, herring and mackerel. I got my fish 
wrong.
    Dr. Fluharty. Yes. So that the pollock is doing quite well. 
In fact, the population has more than doubled since the Steller 
sea lion population started to decline in the Bering Sea, so 
that we see, and Dr. Livingston can keep me straight here, so 
that in the Bering Sea we see a major increase in pollock as a 
food source, and that is one of those things that makes us 
scratch our head, looking at the small fatty fish, forage fish, 
for which we do not allow fisheries to take place, those have 
dropped out of the ecosystem, some of the shrimp and some of 
the other prey that are also eaten by Stellers as opportunistic 
feeders. So these are the kinds of questions that we are 
wrestling with, in terms of understanding what is the role of 
the fishery with respect to Steller sea lion decline and/or 
recovery.
    Mr. Gilchrest. Is this an example of the difficulty of 
trying to understand and implement an Ecosystem Fisheries Plan?
    Dr. Fluharty. Yes, sir, and also why we need to do it.
    Mr. Gilchrest. So we don't have any specific answer as to 
why the decline in Steller sea lion population.
    Dr. Fluharty. Well, no, we do not have a definitive answer.
    Mr. Gilchrest. Ms. Livingston, what were you going to say?
    Ms. Livingston. Well, I was going to say that there are a 
whole host of factors that have contributed to the decline, and 
there is no one factor at this point that we can point to.
    Mr. Gilchrest. Give me three factors.
    Ms. Livingston. Previous harvest of sea lions, climate 
factors, and now the big discussion is localized depletion of 
sea lion prey.
    Mr. Gilchrest. What are the sea lion prey?
    Ms. Livingston. Walleyed pollock, Pacific cod, and mackerel 
are the primary ones.
    Mr. Gilchrest. Is there any reason for their decline?
    Ms. Livingston. Those prey had not necessarily declined in 
overall abundance. The factor that we are talking about is 
localized depletion, which is a fishery coming in, in a small 
time and space frame, and removing fish. Although it may be a 
very large population, the fishery may be locally reducing prey 
abundance during a critical feeding period of Steller sea 
lions, so that they may not be able to find adequate prey 
during that particular season or area.
    Mr. Gilchrest. Is there little or sufficient science on 
that issue?
    Ms. Livingston. That is one thing we are really working on 
right now, to get a better understanding of the seasonal 
distribution of these fish. As you might know, because we are 
up in an Arctic or boreal system, we usually only survey during 
the summer, and now we are trying to get a better handle on 
what these fish are doing in the winter, where they are, and 
how abundant they are.
    Mr. Gilchrest. Where do the Steller sea lions go in the 
winter? Do they stay there?
    Ms. Livingston. That is another question that we are trying 
to get a better handle on. We believe they stay there. We are 
not sure how much they move across the different rookeries.
    Mr. Gilchrest. But they stay in Alaska.
    Ms. Livingston. Yes.
    Mr. Gilchrest. Well, we could probably go on, and have 
pizza brought in, for another couple of hours, but I do want to 
thank all of you for discussing this most fascinating mystery. 
We will continue to pursue this, and with your help, we hope we 
can reauthorize the Magnuson Act in a way that will be most 
beneficial to the ecosystem, which includes us.
    I have to ask unanimous consent that the hearing record 
remain open for member statements and/or other material for an 
additional 10 days. The Subcommittee will have follow-up 
questions for each of you, if you don't mind. And if each of 
you, in your respective places, we are looking for places to 
travel to, if you want to invite us to your region of the 
world, we would be more than happy to go there.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]

    [Dr. Hogarth's response to questions submitted for the 
record follow:]
                    General Questions For The Record
                       house resources committee
      subcommittee on fisheries conservation, wildlife and oceans
             hearing on ecosystem-based fishery management
                             june 14, 2001
    Question 1: Describe the ecosystem-based fisheries management 
requirements.
    Answer: To make wise use of public resources that contribute the 
maximum benefit to the Nation, NOAA needs to take a fresh approach to 
living marine resource stewardship and modernize its scientific and 
management practices. New data and well-designed processes that 
synthesize and communicate information into successful public policies 
are essential to achieving the mission of building sustainable 
fisheries, restoring healthy coastal ecosystems and enhancing recovery 
of protected species.
    When NOAA was created 30 years ago, no one adequately predicted the 
human and environmental complexity of the task of living marine 
resource stewardship. Today, the concept of ecosystem-based fishery 
management is gaining momentum. Such an endeavor is an enormous 
challenge. NMFS and the eight regional fishery management Councils have 
already begun investigating how ecosystem considerations can be 
incorporated into the existing fisheries management structure. 
Generally, the approach is to conduct detailed single-species 
assessments and embed them in an ecosystem context. In other words, 
consideration of ecosystem effects tends to be qualitative or semi-
quantitative, rather than fully quantitative. Multi-species and 
ecosystem models are being developed in all NMFS Science Centers and by 
a few academic institutions, but they are usually difficult to validate 
and frequently suffer from lack of adequate baseline biological and 
environmental data. Extensive monitoring programs for all Federally-
managed species, associated and dependent species, oceanographic data, 
habitat mapping, and climate effects are needed to fulfill the data 
requirements of ecosystem models.
    Ecosystem-based fishery management will require a multifaceted 
approach, including significantly expanded monitoring programs and new, 
adaptive governance systems, generally referred to as fishery ecosystem 
plans (FEPs). When fishery managers are better able to understand the 
complex ecological and socioeconomic environments in which fish and 
fisheries exist, they will be better able to anticipate the effects 
fishery management will have on the ecosystem and the effects that 
ecosystem change will have on fisheries. In developing an ecosystem 
approach to research and management, it is important to recognize that 
a great deal is already known about marine ecosystems, but that this 
information is not consistently applied in current management efforts. 
This is, in large part, because there is no agreed upon method or 
process for applying it. Therefore, emphasis must be placed not only on 
what new information is required, but also on how to apply existing 
information effectively. In addition, it must be recognized that both 
science and management are ongoing processes, and that mechanisms are 
required to incorporate new scientific, social, cultural, economic and 
institutional information into the management process as it becomes 
available.
    To fully implement ecosystem-based approaches to fisheries 
management for all managed U.S. marine species, NMFS and the Councils 
will require a significant increase in funding and staffing in order to 
produce the necessary baseline monitoring data. This attests to the 
complexity of integrating data from many scientific disciplines into an 
ecosystem-based management approach. Development of fishery ecosystem 
plans will require a deliberate, incremental process. Public 
expectations of what NOAA can and should produce need to be aligned 
with the reality of what they are willing to spend and how wise use of 
natural marine resources comports with other national priorities. The 
primary enhancement elements and cost estimates required to develop 
FEPs and provide the necessary baseline monitoring data are outlined 
below. To reach this level of effort will require a phase-in period of 
five years or more.
    Question 2: What is the estimated funding and Full Time Equivalent 
(FTE) employee requirements to implement ecosystem-based fisheries 
management and implementation costs?
    Answer: A narrative accompanies each element in the chart in 
response to the question.

[GRAPHIC] [TIFF OMITTED] T3085.020


IMPROVEMENTS IN ASSESSMENTS OF STOCKS ($91.2M; 608 FTEs)
    NOAA is mandated to provide sound scientific advice, based on 
comprehensive, high quality data and state-of-the-art analysis 
techniques for all marine fisheries under national jurisdiction.
    The National Marine Fisheries Service is committed to enhancing its 
program efforts through implementation of the Stock Assessment 
Improvement Plan (SAIP). This plan guides NOAA's out-year investments 
in fishery science program infrastructure and key staff resources to 
improve the comprehensiveness, timeliness, quality, and communication 
of state-of-the-art fishery assessments. The SAIP puts forth a multi-
year framework for the improvement of NMFS stock assessments through 
new national standards of quality and scope. This framework provides 
new standards by which to evaluate all stock assessments performed 
(i.e., Tiers of Assessment Excellence):
    <bullet> LTier 1 -- Improve Assessments using Existing Data -- 
Improve core species stock assessments using existing data, and mine 
existing databases to evaluate status determination criteria for 
fishery stocks of unknown status.
    <bullet> LTier 2 -- Elevate all Assessments to a Nationally-
Acceptable Level -- Conduct adequate baseline monitoring for all 
federally-managed species, upgrade assessment levels for heavily 
exploited stocks and ecologically significant species.
    <bullet> LTier 3 -- Next Generation Assessments -- Develop next-
generation assessment models that explicitly incorporate ecosystem 
considerations from multi-species interactions and environmental 
effects, applied fisheries oceanography, and spatial and seasonal 
analyses.
    Increased funding and FTEs are needed to improve NMFS'' ability to 
provide expert analysis that will allow the status of unknown stocks to 
be elevated to the known category (Tier 1 and 2). Elevation of the 
status of stocks from the currently unknown category would be 
accomplished by using existing databases of research vessel survey data 
and/or commercial and recreational statistics, and possibly performing 
data rescue operations, in order to decipher trends in stock size and 
productivity. The requested funds will allow more science staff time to 
be devoted to improving the review and communication of assessments in 
order to facilitate better fishery management decisions. Tier 3 funding 
will facilitate development of next-generation models and methods to 
support ecosystem approaches to stock assessments and fisheries 
management (e.g., multi-species models, models that explicitly 
incorporate climate and oceanographic effects, spatial and seasonal 
analyses, and social and economic analyses).

    TOTAL FTES AND BUDGET REQUIRED TO MEET THE THREE TIERS OF 
ASSESSMENT EXCELLENCE FOR ALL FIVE FISHERIES SCIENCE CENTERS

[GRAPHIC] [TIFF OMITTED] T3085.021


FISHERIES OCEANOGRAPHY ($31M; 25 FTEs)
    The goal of fisheries oceanography is to understand the effects of 
ocean and atmospheric processes at varied time and space scales on 
living marine resources, and thus is a critical component of any 
ecosystem-based management approach. Operational fisheries oceanography 
is largely interested in how physical mechanisms (e.g., temperature, 
enrichment, concentration, and transport) cause variations in fish 
distribution and movement, and thus how they impact commercial and 
recreational fishing success and resource management.
    Current fisheries oceanography research is conducted at several 
spatial and temporal scales but is generally focused on small- to meso-
scale projects, often referred to as ``process-oriented studies.'' 
These studies have materially improved our understanding of the 
processes governing local physical variability and juvenile fish 
survival, and, to a certain extent, interannual variability in 
recruitment. It is becoming increasingly evident, however, that we must 
be concerned with not only climate change but also with decadal-scale 
changes (i.e., ``regime shifts'') that impact production throughout 
diverse ecosystems. These shifts occur rapidly as the components of the 
climate system realign themselves, moving from one state to another in 
a period of months to years. The goal of future fisheries oceanography 
investigation is to develop and improve bio-physical models that can 
predict these impending regime shifts and their associated impacts on 
marine ecosystems and fisheries resources.
SOCIOECONOMICS ($12M; 86 FTEs)
    Human aspects of ecosystem management are an integral part of the 
NMFS mandate to manage the Nation's living marine resources. A strong 
NOAA social sciences program will improve the scientific and economic 
foundation of the Agency's policies, increase the confidence that we 
are dealing with fishery issues in a responsible way, and help decision 
makers weigh the ecological, social, and economic impacts of their 
decisions. A key feature of the federal regulatory process is that we 
cannot simply implement a regulation to achieve a conservation goal but 
instead must consider a suite of management alternatives. Social and 
economic analyses can identify the alternative that minimizes losses to 
stakeholders while still achieving conservation goals, allowing NOAA to 
be proactive, rather than reactive, in its resource management 
strategy. Current social science staff levels, data collection and 
research funds are insufficient to adequately handle increasing 
responsibilities and emerging issues. Shortcomings in the National 
Environmental Policy Act (NEPA), Regulatory Flexibility Act, and 
community impact analyses have led to lawsuits and regulatory 
challenges of fisheries policies in the last several years, resulting 
in overturned rebuilding objectives, biologically unsustainable Total 
Allowable Catches (TACs), and eroded confidence in NOAA Fisheries' 
social sciences capability. In addition to stock rebuilding, capacity 
reduction is a primary goal of NMFS, the Councils, and the fishing 
industry. However, the current capability to comply with international 
capacity reduction goals under the U.S. participation in the United 
Nations Food and Agriculture Organization (FAO) Plan of Action on 
overcapacity is extremely limited because of insufficient information 
on current fleets and their capitalization. As a result, NOAA's ability 
to determine and optimize the social and economic consequences to its 
stakeholders of various management actions is quite limited.
    The NOAA Fisheries social sciences program is necessary to quantify 
achievement of the performance measures in the NMFS and Build 
Sustainable Fisheries (BSF) Strategic and Operating Plans and is 
critical to the BSF goal of managing living marine resources for 
economic growth and achieving sustainability in marine fisheries. The 
program will contribute to all aspects of the Agency's mandates, 
including those covering the commercial and recreational fisheries 
harvest sectors, the processing and wholesaling sector, the trade and 
retail sectors, and ultimately, endangered and protected species, 
habitat, and hatchery and aquaculture activities. Significantly, the 
program encompasses the ability to assess and predict the effect of any 
management action on impacted human communities. In addition, the 
research, analysis and data collected under this initiative will help 
industry and local and state governments determine the effects of 
management actions on their current and future activities and allow 
them to adjust their planning accordingly.
NATIONAL FISHERIES INFORMATION SYSTEM ($44M; 50 FTEs)
    Fishery dependent data is a key component in assessment of the 
status of stocks. To increase the accuracy and effectiveness of 
existing fishery dependent data collection programs, NMFS will 
implement a national fishing vessel registration and fisheries 
information system in cooperation with the Marine Fisheries 
Commissions, states, industry, and the Fishery Management Councils. The 
system will establish common data collection, information technology, 
and quality standards for regional programs, and integrate results into 
a unified WEB-enabled information system. The approach will also fill 
critical information gaps through initiation of new data collection 
programs that will subsequently reduce the risk and uncertainty of 
living marine resource policy decisions. Research and application of 
electronic data collection techniques will reduce the burden on those 
that submit data. By coordinating the techniques used to gather and 
disseminate data on a nationwide basis, the collaborative program will 
efficiently bring into balance the demands for timely and credible data 
with the need to thoroughly evaluate, choose and monitor state and 
federal public resource management policies.
ADVANCED SAMPLING TECHNOLOGIES ($22M; 19 FTEs)
    The amount of fish stock abundance information needed for fishery 
management has increased precipitously over the last several years, 
because of declining stocks, official definitions of overfishing, 
increased exploitation of new fisheries, and extensive litigation. To 
address data collection and information needs for improved stock 
assessment products, including oceanographic observations and habitat 
characterization, NMFS will require the research and development of new 
technologies, improvements in and innovative uses of existing 
technologies, and development of new and advanced sampling systems and 
approaches. Examples include multi-frequency and multi-beam acoustics, 
optical systems (LIDAR and laser line scan systems), alternative 
sampling platforms (remotely-controlled and autonomous underwater 
vehicles), other technologies (electronic tags, direct sampling tools), 
development of satellite monitoring capabilities, and improvements in 
seagoing computer systems for collecting and managing real-time 
biological and oceanographic data. In addition, advanced technology can 
be used to improve fishery dependent data by developing systems for 
catch weight and composition monitoring systems and remote monitoring 
of fishing activities.
NATIONAL OBSERVER PROGRAM ($54M; 40 FTEs)
    Understanding fisheries effects on the ecosystem requires accurate 
information on the total catch. The national observer program collects 
high quality fisheries, environmental and socioeconomic data from 
commercial and recreational fishing vessels to assess impacts on marine 
resources and fishing communities and monitors compliance with marine 
resource laws and regulations. Observers provide high quality data 
including many data elements that are not available to shoreside 
sampling after a trip is completed. Observer data taken in conjunction 
with fishing activities gives direct information on harvesting 
activities. At present, only 11 fisheries include observer deployment. 
In addition, NMFS has responsibility for monitoring 25 Category I and 
II state and federal fisheries covered under the Marine Mammal 
Protection Act, but only 7 presently include observers. Even for those 
fisheries that do have observer coverage, levels are generally not 
adequate to determine the full extent of fisheries' impacts. In some 
cases, limited observer coverage has resulted in closures or 
restrictions of fishing effort. In other cases, a precautionary 
approach has been adopted, which may be underutilizing a fishery's full 
production capacity.
FISHERY RESEARCH VESSELS (FRVs) AND CHARTERS ($158M ONE TIME COST; 
        $34.7M ANNUAL COST)
    Vessels are needed for collecting the data on the physical 
environment and sampling the biological components of the ecosystem. 
These data will improve our knowledge on the relationship of habitat, 
physical characteristics of the ocean, and the ecological 
relationships. The data are used in ecosystem models that will improve 
analyses of population status and trends. In ecosystem-based management 
a complex web of diverse data feeds into the population assessments and 
ecosystem management processes. Of critical importance is the 
acquisition of fisheries-independent data, requiring at-sea research. 
NMFS convened a workshop of stock assessment ecosystem and vessel 
experts to review the requirements for days-at-sea (DAS) to meet these 
needs. A total of over 6,000 additional DAS are needed to fulfill NMFS 
mandated mission. Meeting this need requires building three additional 
new fisheries research vessels and funding for chartering commercial 
fishing and other vessels.

[GRAPHIC] [TIFF OMITTED] T3085.022


ESSENTIAL FISH HABITAT STUDIES ($10M; FTEs TBD)
    The Magnuson-Stevens Fisheries Conservation and Management Act 
(MSFCMA) requires NMFS to identify essential fish habitat (EFH) in all 
fishery management plans (FMPs), minimize the adverse effects of 
fishing on EFH to the extent practicable, and consult with other 
agencies to develop EFH conservation measures for actions funded or 
undertaken by a Federal agency. NMFS and the Councils have incorporated 
initial EFH information into existing FMPs, and NMFS has begun 
conducting the required consultations, but existing resources are not 
sufficient to implement the EFH requirements. NMFS has been criticized 
heavily by Congress, the fishing industry, non-fishing industries, 
environmental groups, and other stakeholders for not doing enough to 
focus its activities on the most valuable habitat areas and the most 
pressing threats to those habitats. NMFS has summarized available 
information to identify broad areas as EFH; identified a number of 
fishing activities that may have adverse effects on EFH; and reoriented 
longstanding environmental review functions to focus on the habitats 
needed by federally managed species. However, the agency has not made 
substantial efforts to fill recognized data gaps regarding the habitat 
needs of managed species; has not identified whether fishery management 
strategies should be adjusted to minimize impacts to EFH; and has not 
addressed the expectations of Federal action agencies or other 
stakeholders for NMFS to provide input on ways to reduce the impacts of 
Federal actions on EFH. Additional resources are necessary to refine 
the EFH designations, identify Habitat Areas of Particular Concern 
within EFH, improve our understanding of the effects of fishing on EFH, 
and ensure that EFH consultations are efficient and effective. Doing so 
would improve the conservation of the habitats that are essential for 
building and maintaining sustainable fisheries.
NATIONAL ENVIRONMENTAL POLICY ACT AND OTHER REGULATORY ISSUES ($15M)
    NMFS is facing a major challenge in developing long term compliance 
with regulatory requirements, including the National Environmental 
Policy Act. It is currently estimated that over 25 of the 102 fisheries 
based lawsuits facing the Agency involve NEPA related issues. Findings 
against the agency in litigation over NEPA have the potential for 
significant economic loss to coastal communities; Federal courts have 
ruled that NMFS has failed to meet its obligations under NEPA and 
enjoined the pelagic longline fishery in the Western Pacific. By 
building a solid foundation of all regulatory requirements, especially 
NEPA, the agency will significantly reduce the risk of unsuccessful 
legal decisions.
    To insure success in reducing the litigation against NMFS, all 
partners in the MSFCMA must be brought into the process. It is 
especially critical that the MSFCMA Councils, which FMPs and, in some 
cases also the Environmental Assessments and Impact Statements, be 
given additional support to meet all regulatory requirements.
FISHERY ECOSYSTEM PLAN DEVELOPMENT ($5M for each ecosystem within 
        Council jurisdiction)
    The development of fishery ecosystem plans (FEPs) will require 
considerable communication, education, and outreach efforts by NMFS and 
the Councils. To serve as a proxy for FEP development costs, NMFS has 
reviewed the programmatic costs (internal NMFS and external contract 
costs) for developing the Supplemental Environmental Impact Statement 
(SEIS) for the Alaska Groundfish fishery. It is anticipated that this 
SEIS will cost approximately $4.0M when completed. Over 8,000 comment 
letters have been received and reviewed. This document is still only in 
the draft stage. Development and refinement of FEPs is anticipated to 
be a significantly more complex task and will require greater 
resources.

</pre></body></html>
